<html>
<title> - THE FINAL REPORT OF THE COMMISSION ON THE NATIONAL GUARD AND RESERVES</title>
<body><pre>[Senate Hearing 110-535]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-535
 
 THE FINAL REPORT OF THE COMMISSION ON THE NATIONAL GUARD AND RESERVES 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2008

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-856 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  













                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)

  










                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 The Final Report of the Commission on the National Guard and Reserves

                            february 7, 2008

                                                                   Page

Punaro, Maj. Gen. Arnold L., USMCR (Ret.) Chairman, Commission on 
  the National Guard and Reserves................................     5
Stump, Maj. Gen. E. Gordon, ANG (Ret.), Commissioner, Commission 
  on the National Guard and Reserves.............................    12
Lewis, Patricia L., Commissioner, Commission on the National 
  Guard and Reserves.............................................    15
Ball, Hon. William L., III, Commissioner, Commission on the 
  National Guard and Reserves....................................    18

                                 (iii)


 THE FINAL REPORT OF THE COMMISSION ON THE NATIONAL GUARD AND RESERVES

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Byrd, Reed, 
Akaka, Warner, Collins, Dole, Thune, Martinez, and Wicker.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Mary J. Kyle, legislative clerk.
    Majority staff members present: Gabriella Eisen, counsel; 
Richard W. Fieldhouse, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Michael J. 
McCord, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: William M. Caniano, 
professional staff member; Christopher J. Paul, professional 
staff member; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Ali Z. Pasha.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Bonni Berge, assistant to Senator Akaka; Christopher Caple, 
assistant to Senator Bill Nelson; Jon Davey, assistant to 
Senator Bayh; M. Bradford Foley, assistant to Senator Pryor; 
Gordon I. Peterson, assistant to Senator Webb; Jennifer Cave 
and Sandra Luff, assistants to Senator Warner; Lenwood Landrum, 
assistant to Senator Sessions; Mark J. Winter, assistant to 
Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Jason Van Beek, assistant to Senator Thune; Brian W. 
Walsh, assistant to Senator Martinez; and Erskine W. Wells III, 
assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The Senate Armed 
Services Committee meets today to receive the final report of 
the Commission on the National Guard and Reserves.
    We welcome our witnesses here today: Major General Arnold 
Punaro, United States Marine Corps Reserve (Retired), who is 
chairman of the Commission and well known to this committee. 
His fellow commissioners here today are William Ball III, 
former Secretary of the Navy; Patricia Lewis, former 
professional staff member of the Senate Armed Services 
Committee; and Major General Gordon Stump, Air National Guard 
(Retired), who has also served with distinction as our Adjutant 
General in Michigan. We welcome and thank you all. The Nation 
owes you a debt for your willingness to take on this voluntary 
task.
    The Commission on the National Guard and Reserves was 
established by a provision of the National Defense 
Authorization Act for Fiscal Year 2005 to assess the impact of 
the changing role of the National Guard and Reserves as they 
evolved from a Strategic Reserve to an Operational Force. This 
change had occurred without much public debate or a critical 
assessment of the significance of that change.
    The Commission was directed to address, first, the current 
and future roles and missions of the National Guard and 
Reserves; second, the capabilities of the National Guard and 
Reserves and the manner in which those components may be best 
used to support the military operations of the Armed Forces and 
the achievement of national security objectives, including 
homeland defense; third, the current and future organization 
and structure of the National Guard and Reserves; fourth, the 
organization and funding of training of the National Guard and 
Reserves; and, fifth, options for improving compensation and 
other benefits provided to members of the National Guard and 
Reserves and their families.
    While the Commission was in the process of addressing these 
issues, the Senate was simultaneously considering some 
significant proposals for enhancing the National Guard. To 
respond to that, Congress asked the Commission to add to its 
already full plate an examination, on a priority basis, of 
those new proposals.
    The Commission responded with a report on March 1, 2007. 
The Commission's analysis and recommendations proved to be very 
helpful to Congress, as evidenced by the fact that most of the 
recommendations that required legislation are included in the 
recently enacted National Defense Authorization Act for Fiscal 
Year 2008. Some of the most significant provisions that were 
enacted are, first, elevating the Chief of the National Guard 
Bureau to four stars, and designating him as a principal 
advisor on National Guard matters to the Secretary of Defense 
through the Chairman of the Joint Chiefs; next, establishing 
the National Guard Bureau as a joint activity of the Department 
of Defense (DOD), while, at the same time, enhancing the 
functions of the National Guard Bureau, and requiring the 
Secretary of Defense to consult with the Secretary of Homeland 
Security to determine what military-unique capabilities DOD is 
required to provide in support of civil authorities in an 
incident of national significance or a catastrophic incident.
    Now, although we've only had a few days to review this 
extensive report, we can already conclude that many of its 95 
recommendations are very significant and far-reaching. The 
report contains, for instance, recommendations for creating a 
sustainable Operational Reserve; enhancing DOD's role in the 
Homeland; creating a continuum of service, including personnel 
management, for an integrated total force; developing a ready, 
capable, and available Operational Reserve; supporting 
servicemembers, families, and employers; and reforming the 
organizations and institutions that support an Operational 
Reserve.
    The Commission also recommends significant changes to pay 
and benefits, some of which would apply to all military 
personnel. These recommendations include major changes to the 
military retirement system for both Active and Reserve military 
personnel. These proposals, and many others, will require 
extensive study by Congress, DOD, and a number of other 
agencies.
    The Commission's report has drawn criticism from the 
Assistant Secretary of Defense for Homeland Defense and the 
Chief of the National Guard Bureau, who assert that core 
elements of the report are flawed, and contend, contrary to the 
report, that DOD's, ``catastrophic response capabilities are 
the best-funded, best-equipped, best-trained in the world.'' 
The leaders of the Senate National Guard Caucus have issued a 
press release criticizing the report, saying that several 
recommendations, if implemented, would undermine the National 
Guard and hamper DOD's ability to respond to domestic 
emergencies, alleging the Commission's recommendations don't 
give due credit to the superb performance, missions, and 
capabilities of the National Guard, and that the Commission 
calls for a retreat from the newly-enacted Guard empowerment 
reforms.
    So, members of the Commission, you've stirred up some 
discussion, to put it diplomatically.
    The Commission's recommendations will now be reviewed by 
Congress and by DOD and the Department of Homeland Security 
(DHS).
    When the Commission submitted its March 1, 2007, report, 
its so-called ``interim report,'' DOD undertook a review of the 
Commission's recommendations. This review proved to be very 
useful to Congress, and helped us to consider some of the 
issues that were pending. I know DOD will conduct a similar 
review of this report and its many recommendations.
    The Senate Armed Services Committee will not be the only 
committee to address the findings and recommendations that are 
contained in this report. I believe that the Committee on 
Homeland Security and Government Affairs will hold a hearing 
next week to explore the homeland security aspects of this 
report. We appreciate the courtesy of Senator Lieberman in 
sequencing these hearings.
    The Commission has tackled some very difficult issues of 
national importance. The Commission freely acknowledges that a 
number of its recommendations will require intensive study by 
Congress and the executive branch. The report will provide the 
vehicle for a very important debate.
    Again, we thank our witnesses and their fellow 
commissioners for taking on a very important, a very demanding, 
and a very controversial task.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Mr. Chairman, I'd like to join you in 
indicating that we are very grateful for the public service of 
this outstanding group of individuals, all of who are 
volunteers on this matter.
    I'd like to read a paragraph from their report. It states, 
``Our study has been informed by 17 days of public hearings 
involving 115 witnesses, 52 Commission meetings, more than 850 
interviews with officials and other subject-matter experts, 
including the current and former Secretaries of Defense and the 
current and former Chairman and Vice Chairman of the Joint 
Chiefs of Staff.'' It goes on.
    That indicates, Mr. Chairman, that a lot of conscientious 
effort was put into this by these fine people, all of whom 
we've known for many years.
    I would also recommend that the record contain at some 
appropriate point the names of the other commissioners.
    Chairman Levin. The record will show the entire list of 
commissioners.
    Senator Warner. Thank you. I'd make a further suggestion to 
the chair, I think the committee should take the initiative to 
invite comment from other entities, such as the National Guard 
Bureau, the Reserve organizations, and, indeed, DOD, such that 
the record reflects, with greater accuracy, and we just don't 
rely on press conferences and press reports of those who had 
reason to challenge some of the findings of this commission. I 
think a full record is very important for the Senate, so I urge 
the chair that that be done.
    Chairman Levin. Senator Warner, thank you for that 
suggestion. One of two things, I think, will need to be done 
here. Either we will have a hearing, where those folks, and 
perhaps others, would be invited to comment, or we would adopt 
your suggestion about inviting them to give us their comments 
for the record. But, one or the other needs to be done, and 
will be done.
    Senator Warner. I thank the chair.
    I will put the balance of my statement in the record, but I 
would like to make this one observation. As our committee 
considers this report, I've found myself thinking of the origin 
of the total-force concept, which is linked to our magnificent 
All-Volunteer Force. Not long after he took office, then-
Secretary of Defense Melvin Laird--I was privileged to join DOD 
with him as a part of his team in the Navy secretariat--
recommended that President Nixon appoint a Commission to 
determine the most practical means for ending the draft. The 
Gates Commission concluded that, ``An All-Volunteer Force,'' 
was a practical alternative to the draft, but this force would 
require greater reliance on the Reserve and the National Guard. 
Now, that prescient thought has certainly come to play in these 
conflicts in both Afghanistan and Iraq.
    The linkage between the total-force concept and the All-
Volunteer Force is vital. Therefore, as we proceed in Congress 
to perhaps make such decisions regarding the need for, or 
absence of the need for, legislative language, we always want 
to keep an eye on that All-Volunteer Force.
    I thank the chair, and I'll ask that the balance of my 
statement be placed in the record.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin. I join you in welcoming General Punaro, 
former Secretary of the Navy William Ball, Patricia Lewis, and 
Brigadier General Stump. I want to thank each of you, all of the 
Commissioners, your staff, and all those in the Department who assisted 
you, for your dedication and accomplishments. I have in mind your 
previous report from March 1, 2007, as well. That report contributed 
materially to our ability to complete the National Defense 
Authorization Act for the current fiscal year, and I thank you for your 
assistance with the analysis of the National Guard Empowerment Act 
proposals.
    I would suggest, Mr. Chairman, that we be sure to enter into the 
record of these proceedings a list of all the names of those who 
contributed to the work of the Commission.
    The Commission has performed a valuable service in providing this 
comprehensive review of the manner in which the National Guard and 
Reserve has been used in the past and in challenging assumptions 
surrounding its role today. Such an independent review has long been 
needed, and I hope that the report and recommendations of the 
Commission will be a catalyst for change.
    As we consider this Commission's report, I found myself thinking of 
the origins of the Total Force concept, which is linked to our 
magnificent All-Volunteer Force. Not long after taking office, then 
Secretary of Defense Melvin Laird recommended that President Nixon 
appoint a commission to determine the most practical means for ending 
the draft. The Gates Commission, headed by President Eisenhower's 
Secretary of Defense, Thomas Gates, concluded that an ``All-Volunteer 
Force,'' was a practical alternative to the draft, but this force would 
require greater reliance on the Reserve and the National Guard. The 
linkage between the Total Force concept and the All-Volunteer Force is 
important, and we must be careful to ensure that changes in the Total 
Force enhance the All-Volunteer Force.
    Independent reviews oftentimes generate energetic debate and even 
controversy and it would appear that you have met that standard. I 
appreciate the lengths you have gone to, General Punaro, to emphasize 
that your findings do not represent an effort to assign blame and to 
point out that the problems you identify have origins stretching back 
many years.
    With respect to the roles and the mission of the National Guard and 
the Reserve, and particularly with respect to the Nation's preparedness 
for a catastrophic attack, I applaud your willingness to ask hard 
questions and to be dissatisfied by the answers you received and the 
conditions you found. The National Guard and all the Reserve components 
are critical to the defense of our Nation--your report puts that in 
focus, and I look forward to working with the Department of Defense and 
with my colleagues in the Homeland Security and Government Affairs 
Committee to make sure that we rapidly respond to your recommendations.

    Chairman Levin. Thank you very much, Senator Warner.
    Chairman Punaro?

STATEMENT OF MAJ. GEN. ARNOLD L. PUNARO, USMCR (RET.) CHAIRMAN, 
         COMMISSION ON THE NATIONAL GUARD AND RESERVES

    General Punaro. Thank you, Mr. Chairman, Senator Warner, 
members of the committee. Of course, it's a pleasure for us to 
appear before the committee this morning to discuss the final 
report of our independent Commission on the National Guard and 
Reserves, titled ``Transforming the National Guard and Reserves 
into a 21st-Century Operational Force.''
    Mr. Chairman, I would ask your consent that our full 
statement, as well as the executive summary of our final 
report, be entered into the record, and each of us will give a 
short verbal summary of some of the key areas of the report.
    Chairman Levin. That will be done.
    General Punaro. Thank you, Mr. Chairman.
    As you indicated, and have already introduced our three 
fellow commissioners here this morning--Will Ball, Patty Lewis, 
and Major General Gordon Stump--each with an extraordinarily 
distinguished career and unique expertise in many of the 
subject matters addressed by the Commission. We're here, as 
Senator Warner indicated, on behalf of our eight other fellow 
commissioners; we thank you, Mr. Chairman, and we thank the 
ranking member, Senator McCain, for the support you've given 
the Commission, the support we have received from your sister 
committees and the other committees of jurisdiction. The 
cooperation we've had from Congress, DOD, and the executive 
branch throughout our 2\1/2\ years has been one of the most 
pleasant surprises. We know because there are a lot of 
commissions around town, and a lot of them doing a lot of good 
work, plus everybody has day-to-day busy schedules, but we 
could not have had better support from Congress and from DOD.
    The Commission would like to pay special tribute to Senator 
Warner, one of the principal architects of the legislation 
creating this Commission, who is, as we all know, retiring at 
the end of this Senate session. As we said in our transmittal 
letter to you, Mr. Chairman, and to the Secretary of Defense, 
Senator Warner is a true statesman, in the finest sense of the 
word. Bipartisanship and a tireless advocacy for a strong 
national defense have been the hallmarks of his long and 
remarkable career in service to this Nation. I would say, as a 
matter of personal privilege, Secretary Ball and I have served 
in the Navy and Marine Corps team, as did Senator Warner in his 
career in uniform. We had the privilege to be staffers on the 
Senate Armed Services Committee, working, not only with you, 
but with Senator Warner and other members of the committee, and 
we're both Virginians, and we couldn't be more proud of the 
service of our senior Senator from Virginia over these long and 
many years. The Commission adopted that sentiment, unanimously, 
and, I know it is shared by the members of the committee.
    Chairman Levin. Thank you for making that reference, both 
here and in the report. I know that would be supported and 
acclaimed, and thoroughly agreed with by every Member of the 
U.S. Senate.
    Senator Warner. I thank the Chair, and I thank the chairman 
of the Commission. I would want to note that Les Brownlee also 
was a part of my ability to achieve whatever record I had here. 
He is also a member of your Commission.
    General Punaro. The Commission was chartered to identify 
and recommend changes in law and policy to ensure the National 
Guard and Reserves are organized, trained, equipped, 
compensated, and supported to best meet the national security 
requirements of our Nation, now and in the future.
    You, subsequently, Mr. Chairman, tasked us to study the 
advisability and feasibility of implementing the provisions of 
the proposed National Defense Enhancement and National Guard 
Empowerment Act. Our report of March 1, 2007, with the 23 
recommendations, was acted on very quickly by Secretary of 
Defense Robert M. Gates and by Congress. In DOD, Secretary 
Gates initiated a very thorough and quick review, adopted 20 of 
the 23 recommendations, and the implementation of those 
recommendations is well underway in DOD.
    Congress also acted very quickly and decisively in those 
things that required statutory changes, and, in addition, some 
really good improvements came out of Congress on those 
recommendations in the recently-enacted National Defense 
Authorization Act for Fiscal Year 2008.
    Both Congress and DOD were out of the blocks very quickly 
on that initial report.
    The 95 recommendations in our final report, submitted to 
you last Thursday, both addressed your initial charter and also 
engaged more deeply with issues addressed in the earlier 
report. Specifically, the concerns with respect to the 
sustainability of an Operational Guard and Reserve, and the 
currently, as the Commission indicated, disjointed planning and 
resourcing process to address threats in the Homeland. The 
statute specifically directed us to examine how best the Guard 
and Reserve could be used in roles in the Homeland. Some of our 
recommendations are new, some of them are recommending 
additional capabilities and involvement, as you directed us in 
the statute.
    In this report, as we did in the initial report, we really 
tried to zero in on the problems that needed to be fixed, and 
suggest solutions. We knew that not everyone was going to agree 
with all our recommendations. That never happens, and it 
shouldn't happen. But, we wanted to make sure that we really 
had the problems correctly identified and no one could 
challenge that. We really focused in on that, and I think you 
will see, in the documentation of the backup in the report is 
backed up by official testimony, documents, et cetera.
    These issues are extremely complex. People of good 
character and conscience will disagree with the solutions. We 
believe your mandate to us was to report what we found, and 
that's what we did.
    We also recognized that further analysis by DOD and 
Congress may lead to alternative solutions. We certainly 
encourage that. We encourage improvements and alternative 
remedies to our recommendations. Again, our focus is on fixing 
the problems, not on whose solutions are adopted.
    Fewer than half of our 95 recommendations actually require 
legislation. There are areas where DOD, if they agreed with 
them, could undertake a change in policies and regulations 
right away. They don't have to wait on legislation. Congress 
could enact some immediate statutory changes, as well.
    Other recommendations, particularly in the area of 
personnel management, will take careful thought and analysis by 
DOD and Congress to determine how best they should be 
implemented in order to achieve the desired outcome. Even if 
Congress and DOD agree with all of these sweeping 
recommendations in personnel and benefits, they couldn't all be 
dealt with this year. The Personnel Subcommittees, as good as 
they are, and the staff, as good as they are, these are not 
issues that lend themselves to action this year by either DOD 
or Congress. For example, when DOD revised the Defense Officer 
Personnel Management Act in the late 1970s, it took them 4 
years to work on it. It took Congress 4 years to pass it. 
Hopefully, on these, it won't take that long, but it's 
certainly not something, Mr. Chairman, we believe, that 
Congress or DOD could address this year. But, what we would 
hope is once you did make changes, they would be phased in over 
a long period of time--a number of years for some, 20 years for 
others. Actually, that's the best way to do these kind of 
changes.
    While they don't lend themselves to legislative action, 
some of them, we think it would be important for Congress to 
establish a statutory framework for addressing all of the 95 
recommendations. That would be very desirable, particularly 
given the transitions that are going to occur at the end of 
this year, both in the executive branch and Congress, so that 
there's an ability for subsequent executive branch and 
subsequent Congresses to not have to start from scratch, but 
build on the good work that I know will already be done.
    We can't emphasize too strongly that our recommendations 
are in no way a critique of officials currently serving in 
Congress or the Pentagon, or their predecessors in previous 
administrations or Congresses. We didn't intend this to be a 
report card on anyone. Many of these problems have persisted 
for decades and have often seemed intractable; others are tied 
to the new and emerging threats that we face in this area. It's 
understandable, given the operational commitments that have, by 
necessity, been a high priority, DOD has not been able to fully 
develop strategies for the Guard and Reserve that are focused 
many years in the future. They have made real progress in many 
areas since September 11. They've addressed the immediate 
challenges of recruiting and retention, made sure the mobilized 
Guard and Reserve units, when they go downrange, are fully 
trained and equipped, and made a down payment, even, on solving 
some of these complex personnel management issues.
    Funding for the Reserve components appears to be trending 
upward, and additional funding in the pipeline to improve the 
shortages, particularly in the Army National Guard.
    Again, it's not a report card, because the statute did not 
focus us on how far we've come, Mr. Chairman; the statute spoke 
to us on how far we need to go to get to the desired end state. 
It'll be up to the committee, Congress, and DOD to determine 
our snapshot in time, where we think we need to go, how much of 
that gap you are really committed to closing. We, of course, 
would argue we'd like to close the whole gap, but you may 
determine otherwise. We are not looking backwards, we are 
really looking at where we are today, where we need to go, and 
how do you close that gap.
    Senator Warner has already talked about the extensive 
number of hearings and analysis that we did. I want to 
emphasize, we didn't just gather official wisdom here in 
Washington, we made a concerted effort to get outside the 
Beltway for field hearings, site visits, focus groups, talked 
to servicemembers, the same thing that members and the staff of 
this committee do everyday. We talked to families, employers, 
and many others.
    I want to add, Mr. Chairman, that the 12 members of this 
Commission had a total of 288 total years of military service 
in uniform, dating back to the Vietnam war and 186 additional 
years of nonmilitary government service, either in the Senate, 
in Congress, in the executive branch, and, of course, many 
years of private-sector experience. It was a very experienced 
group of individuals, that had a lot of personal experience in 
all the areas that we dealt with.
    Let me then close out my part of it, Mr. Chairman, by 
talking about what we believe to be the core recommendation in 
our report, which is conclusion number 1.
    Our conclusion number 1 states, in part, ``The Nation 
requires an Operational Reserve Force.'' We go along, then, in 
our recommendation number 1, to say, ``Congress and DOD should 
explicitly acknowledge the need for, and create, an Operational 
Reserve Force. In order to place the Reserve components on a 
sustainable path as part of that force, Congress and DOD must 
modify existing laws, policies, and regulations related to 
roles and missions, funding mechanisms, personnel rules, pay 
categories, equipping, training, mobilization, organizational 
structures and Reserve component categories. These significant 
changes to law and policy are required if the Reserve 
components are to realize their full potential to serve this 
Nation and if existing adverse trends in readiness and 
capabilities are to be reversed. Moreover, the traditional 
capabilities of the Reserve components to serve as a Strategic 
Reserve Force must be expanded and strengthened.''
    Why did we come to that conclusion, Mr. Chairman and 
members of the committee? When we started, 2\1/2\ years ago, 
many of us went to a conference that was sponsored by DOD, and 
at that conference, one of the members of the Joint Staff, 
Major General Thomas A. ``Tommy'' Dyches, USAF (Ret.), who was 
the Assistant to the Chairman of the Joint Chiefs of Staff for 
Reserve Matters, serving on Active Duty, made the statement, 
``We're evolving to an Operational Guard and Reserve, and that 
makes a huge difference.'' He said, ``But we've changed none of 
the laws, rules, regulations, funding, training, equipping, all 
the things that would be required.'' That was the conclusion of 
the Special Assistant to the Chairman of the Joint Chiefs of 
Staff at the time.
    We were huge skeptics, Mr. Chairman, of this concept of an 
Operational Guard and Reserve. One of the reasons was, many 
members of the Commission had served in the Guard and Reserve. 
General Stump and I served in the Guard and Reserve when it was 
a Strategic Guard and Reserve, in the 1970s and early 1980s. We 
served in the Guard and Reserve as it began evolving into an 
Operational Guard and Reserve, starting with the first Gulf 
war, intensified during the decade of the 1990s, and certainly 
highly intensified after September 11, when over 600,000 
members of our Guard and Reserve components had been called up, 
mobilized, sent forward, and an additional 68 million man days 
have served here at home, such as the 55,000 for the Guard in 
Hurricane Katrina.
    We've commanded units when it was strategic, and we've 
commanded units that were operational, and people should not 
underestimate the profound difference. You can be an 
operational unit and be in an operation; that doesn't mean 
you're an Operational Guard and Reserve. The whole nature of 
what you need to do, in terms of your training, your readiness, 
your equipping, your family support, your employer support, is 
profoundly different as an Operational Reserve than as a 
Strategic Reserve.
    We were huge skeptics that you could make those changes, 
and make it not only feasible, but sustainable. You can go do a 
lot of operations; that doesn't mean it's going to be 
sustainable over the long term.
    Three reasons, then, that we were converted from skeptics 
of to believers in an Operational Guard and Reserve. Again, 
this isn't a conclusion that should be challenged by DOD; this 
is our core recommendation, because this is what DOD says 
they're doing. Again, our point is, you may be doing it, but we 
haven't made the fundamental changes that are required to make 
it sustainable over the long term.
    Reason number 1 is that, meeting the force levels in Iraq 
and Afghanistan, and meeting the commitments that the combatant 
commanders in the national command authorities required 
overseas and home, could not be done without the 600,000 Guard 
and Reserve personnel that have been mobilized. You'd have had 
to go back to the draft; there's no question about it. We 
believe the draft is politically unacceptable. We believe it's 
militarily undesirable. The Commission came to this conclusion 
because the All-Volunteer Force was never designed for 
sustained combat.
    In 1970, when the Gates Commission recommended eliminating 
the draft, and when we went to the All-Volunteer Force in 1973, 
it was well understood that the All-Volunteer Force was not 
designed for sustained combat. In the North Atlantic Treaty 
Organization (NATO) scenario, in the peak of the Cold War, if 
the Soviet Union, in the Warsaw Pact, were to attack NATO, we 
had a commitment to have 10 divisions in 10 days in NATO, then 
the Guard and Reserve, as a Strategic Reserve, would be 
mobilized, but they wouldn't get into the parade for 6 to 8 
months. You would have had to crank up the draft immediately, 
because you wouldn't have had sufficient forces. That's been 
well understood by military planners.
    We believe, without having this Guard and Reserve that's 
able to be used, not only overseas, but here at home--the 
threats are not going to diminish and the requirement here at 
home is actually greater than it has been--we are going to need 
this fully-ready Guard and Reserve, with certain units able to 
respond on a moment's notice.
    Second, the Guard and Reserve are uniquely well suited for 
some of these homeland missions, particularly the catastrophic 
missions that we face. While low probability, the adverse 
impact, particularly as your colleagues from the Governmental 
Affairs and Homeland Security Committee know, who've delved 
into this matter extensively, as has this committee, the 
legislation creating the DHS recognized these threats.
    The Guard and Reserve units are geographically better 
suited than the Active units, from an operational standpoint. 
Forward deployed in over 5,000 communities across the country, 
many of them are first responders. As Lieutenant General H. 
Steven Blum has testified quite often, you can't wait 72 or 92 
hours, you have to be there right away.
    We need the Guard and Reserve, because we don't want to go 
back to the draft. It's the firebreak. We need the Guard and 
Reserve to deal with these homeland missions, so you do not 
need to basically build additional capacity in the Active 
Forces to have them be the primary homeland response force.
    Finally, the Guard and Reserve are a true bargain for the 
taxpayer. They're, economically, a much better way of dealing 
with these homeland threats, and providing the insurance policy 
to augment and reinforce the Actives overseas.
    One of the things we looked at was the many myths about how 
much the Guard and Reserve cost. Not only did we do our own 
analysis, we asked the Pentagon to do an analysis, we went to 
the Government Accountability Office (GAO), we went to the 
Congressional Budget Office, and we went to the Library of 
Congress. Every study came in showing that the Guard and 
Reserve are about 70 to 75 percent cheaper than having the 
equivalent capability in the Active component, no matter how 
you look at it. For 7 to 9 percent of the DOD budget, the Guard 
and Reserve provide 44 percent of the available manpower. GAO 
found that a drilling reservist received 15 percent of the 
amount of individual compensation--that's both direct, 
indirect, and deferred--compared to the amount of an Active-
Duty servicemember. Also an Active-Duty servicemember costs 
roughly $126,000; while a Guard or Reservist costs about 
$19,000 per individual. In fact, the Active Duty costs have 
doubled in the last 5 years. So the cost of the Active Duty, 
mainly because of the deferred benefits, is on a rapidly 
escalating path. The Office of the Secretary of Defense 
Comptroller, Dave Patterson (Principal Under Secretary of 
Defense), testified that Reserve component costs for personnel 
in operation and maintenance (O&M) were 20 to 29 percent of 
those for the Active component. The RAND Corporation actually 
costed out the price of maintaining a Brigade Combat Team (BCT) 
in the National Guard compared to the Active Army, and it was 
30 percent less for the Guard BCT compared to an Active BCT; 
for the same amount of money, you get three times the 
capability. Now, that doesn't deal with the availability issue, 
but it's really the economics.
    In the President's budget--because people say, ``Well, wait 
a minute, we have to buy their gear, we have to do this, we 
have to do that''--if you look at the four major 
appropriations--personnel, O&M, procurement, and military 
construction--the Reserve component members cost 23 percent of 
what is spent on Active component servicemembers.
    Mr. Chairman, no matter how you slice it, the Guard and 
Reserve are a true bargain for the taxpayer. They are extremely 
well suited to pick up and beef up our capability to respond in 
the Homeland, as we need to do. We concluded we don't have 
sufficient capability today. We believe you're going to need 
this Operational Guard and Reserve, that's sustainable, to be 
able to augment and reinforce the Active component overseas, 
and do these homeland missions that are so critically 
important. When the Guard, in particular, is going to be called 
into that fray, they need to be fully equipped, fully manned, 
fully trained, and fully ready, just like the 82nd Airborne is 
for an overseas mission, to meet those kind of threats.
    That is our core conclusion, Mr. Chairman, that the Nation 
requires this Operational Reserve, and we need to make all 
those changes to make it happen.
    That concludes my comments, and I believe, with your 
permission, Mr. Chairman, General Stump is going to talk about 
our second main conclusion, which is enhancing DOD's role in 
the Homeland.
    Chairman Levin. Thank you.
    General Stump?

      STATEMENT OF MAJ. GEN. E. GORDON STUMP, ANG (RET.), 
  COMMISSIONER, COMMISSION ON THE NATIONAL GUARD AND RESERVES

    General Stump. Thank you, Mr. Chairman, and thank the 
committee members, for allowing us to testify. Personally, 
thank you for allowing me the opportunity to serve on this 
Commission.
    Prior to September 11, we, in the Homeland, were satisfied 
that we were safe, the Cold War was over. We had even gone to 
the measures of getting rid of air defense, and, just a couple 
of days prior to September 11, were going to completely 
eliminate those air defense responsibilities. Then came 
September 11. In 45 minutes, more people were killed than the 
attack on Pearl Harbor. That was a wake-up call.
    After that happened, we set up DHS and United States 
Northern Command (NORTHCOM) to start addressing the issues of 
homeland security. The Commission looked at the roles and 
missions of the National Guard and Reserve as they fit into DHS 
and NORTHCOM, and have come up with several recommendations on 
how we can enhance DOD's role and the National Guard's role in 
these missions.
    The first of our recommendations is that Congress should 
codify DOD's responsibility to provide civil support and 
specify that this is a core competency of DOD equal to--in 
priority--to its warfighting responsibilities. Legislation 
should specify that DOD will provide the bulk response to major 
catastrophes.
    Current statutes, like the Stafford Act, provide the 
authority, but not the responsibility, for this mission, and 
the statutory change of responsibility will ensure that DOD's 
priorities shift, and that its commitment stays in place.
    When we have a major catastrophe, the only people who are 
going to be able to respond, when all of the local government 
and other people are unavailable, is DOD. We feel that if you 
put the statutory requirement in there for them to be 
responsible for support to civil authorities, it will make sure 
that they maintain that on their priority list. They have 
accepted the responsibility for homeland defense, and we feel 
that they should also be given the statutory requirement to 
provide the support to civil authorities.
    Our next conclusion is, ``Consistent with their warfighting 
tasking responsibilities, the National Guard and Reserves 
should take the lead role in and form the backbone of DOD 
operations in the Homeland.'' To me, having served as an 
Adjutant General for 12 years, this is somewhat of a no-
brainer. Regardless of what anybody does, the National Guard 
will be the first military force on the ground, no matter what 
happens. The Governor depends on their fire departments, their 
police department to handle the incidents, as far as they can 
go. They use all of their State resources. When they're out of 
those State resources, they call up the National Guard. I knew 
if we had a huge snowstorm in the upper peninsula, or a fire 
somewhere, or a riot in Detroit, that the Governor would be 
calling me. To specify the National Guard then as a lead 
agency--and the Reserves--on the homeland defense mission makes 
sense.
    The National Guard has stepped up. Lieutenant General H. 
Steven Blum, Chief, National Guard Bureau, and the National 
Guard Bureau attempt to distribute force structure throughout 
the States that covers the consequences of any problem that 
could come up in the State. They have recently stood up the 
National Guard Chemical, Biological, Radiological, Nuclear, and 
Enhanced Response Force Packages, 17 of them. They are located 
in all of the Federal Emergency Management Agency regions. 
These are packages that the National Guard, on its own, stood 
up, because they know that, when the time comes and there's a 
major disaster, that they're going to be called upon. 
Unfortunately, these are smaller packages, and can only respond 
for the first 72 hours, until we have a Federal response to 
follow on, to take care of what's really going on, especially 
with a dirty bomb or a nuclear explosion.
    We also believe the majority of the billets at NORTHCOM 
should be filled by leaders and staff with Reserve 
qualifications and credentials, and that the commander and 
deputy commander be either a guardsman or a reservist. These 
are the same recommendations that we had in our March report. 
As for NORTHCOM, a majority of their resources that are going 
to be used in any of the disaster response are going to come 
from the Guard and Reserves. They're also going to come from 
the Governors, and they're going to come from the State 
response forces. We need people at NORTHCOM who understand the 
Guard and Reserve and understand how the State government works 
and how they respond to national disasters. All of these must 
be a coordinated effort between DHS, the Active Duty people, 
and the Guard and Reserve Forces. It has to be a combined 
effort to address the consequence management of some of these 
catastrophes.
    DHS should generate civil support requirements for DOD, and 
should validate them, and DOD should validate those 
requirements, as appropriate.
    I learned, in my early days as the Adjutant General, if I 
was looking for support for National Guard unfunded 
requirements, that's when I came to you to talk about them. The 
first thing that you asked me was, ``Well, how will this help 
the National Guard? How will it help the Active Duty? Does the 
National Guard Bureau support what you're asking for? Has the 
Federal Government, through the Future Years Defense Plan, put 
this in the requirements list?'' Before I could answer all of 
those questions, you would not consider any funding.
    We find that DHS needs to do the same thing. They need to 
identify the requirements for the homeland support mission. 
Those requirements have not been identified, and it's very 
difficult for Congress, or anybody, to support the funds 
required if they don't know what the requirements are. We feel 
that DHS should define the requirements for the homeland 
security and disaster response mission, they should send those 
requirements to DOD for validation, and then, after that, 
Congress can act upon filling those requirements.
    I'm sure that we're all concerned about what's happening on 
the Homeland, and, if those requirements are defined, that 
there will not be a problem in getting those resourced.
    The Secretary of Defense should ensure that forces 
identified as rapid responders to domestic catastrophes are 
manned, trained, and equipped to the highest levels of 
readiness. The Commission has found that the Nation is not 
prepared to handle a major catastrophe here in the United 
States. NORTHCOM has identified consequence management response 
forces which should be formed, trained, and ready to meet these 
disasters. There should be packages consisting of several 
thousand joint personnel from several units, identified and 
organized to perform the chemical, biological, radiological, 
nuclear, and explosive consequent management missions with 
capabilities including medical, decontamination, 
communications, logistics, transportation, and public affairs. 
These are forces that would follow on after the initial 
response that the National Guard has stood up on their own to 
handle these major catastrophes. These need to be stood up and 
resourced.
    DOD should develop protocols allowing Governors, under 
certain circumstances, to direct the efforts of Federal 
military forces within States responding to an emergency. This 
kind of arrangement should be worked on in advance to avoid 
confusion, and it can be done through a certified dual-hatted 
National Guard officer. This is a controversial recommendation, 
one which, in our March 1 report, was rejected by DOD, has been 
rejected by the members of NORTHCOM when we've discussed the 
situation with them, and even some commanders of the Reserve 
components.
    However, there is a program that is in place to train 
National Guard officers to be dual-hatted. These are people who 
have gone through a training program, where they can command 
title 10 and title 32 forces. At the G8 conference, a few years 
ago in Georgia, we set up a command where the National Guard 
was in charge, and it worked very effectively. When you have an 
emergency in a State, we need unity of command. We are not 
saying that the Governors are going to be in charge of the 
Active Duty or the title 10 Reserve Forces, day in and day out. 
These should be prearranged protocols when a disaster comes up 
in the States. We need to have unity of command. The Governor 
of the State needs to be able to command and control all the 
forces that are working on the emergency or the response to 
that emergency in his or her State.
    We had testimony from the Governor of Delaware about this 
specific subject. I asked her if she would like to use the Army 
Reserve Forces in her State for responses to domestic 
emergencies, and she said, ``Yes, as long as they're under my 
command and control.'' Today, 98 percent of all the emergencies 
are small and handled at the level of the Governors and the 
National Guard without the help of Federal forces. But, we have 
Reserve components that are within the States that are not 
used, because they're title 10, and there is no way to activate 
those forces.
    This comes to another recommendation, where we would like 
to have authority for the Secretaries of the Army and the Air 
Force to activate these Reserve components to help out in these 
State emergencies. The Governors would like to have those 
particular people, who are in the Reserve component, but in 
title 10, be able to report directly to them.
    Now, I would like to emphasize that one of the 
recommendations is to look at possible rebalancing of the 
National Guard and Reserve Forces once the requirements have 
been defined by DHS for the homeland security mission. In no 
way does this Commission recommend that the National Guard 
become strictly a homeland defense force. That's a program 
which will not work. You can't recruit, you can't retain to it, 
we can't help the Active Duty with their BCTs and cut down the 
deployment times, if, in fact, we start taking away some of the 
capabilities, which some people might say are not required, 
like a BCT, for the homeland security mission. I can tell you, 
the time that I was the Adjutant General of Michigan, I had 
10,000 Army Guard soldiers in the State, and I had a combat 
brigade in my homeland security mission. I didn't need the 
tanks, but I did need the organization, I needed the 
leadership, I needed the Humvees, I needed the communication 
networks, and so forth. We are not recommending that the 
National Guard get out of those particular dual-mission-type 
capabilities.
    With that, I would be happy to answer any questions.
    Chairman Levin. Thank you very much.
    General Punaro. Mr. Chairman, with your permission, we 
would turn to Patty Lewis, on the personnel issues.
    Chairman Levin. Thank you.
    Ms. Lewis?

STATEMENT OF PATRICIA L. LEWIS, COMMISSIONER, COMMISSION ON THE 
                  NATIONAL GUARD AND RESERVES

    Ms. Lewis. Thank you. Thank you for the opportunity to 
testify this morning, Mr. Chairman. Thank you, Senator Warner, 
for the privilege of serving on this Commission. Thank you, 
Chairman Punaro, for allowing me to work with you a second 
stint. To my fellow commissioners, I highly respect and value 
the opportunity to interact with them.
    As the Chairman said, I will be addressing the personnel 
management issues for the future, and the creation of a 
continuum of service through managing an integrated total 
force. But, I want to assure the committee that, during the 
course of our work, we never lost focus of our most valuable 
resource, and that's our people.
    Unfortunately, many of the personnel management strategies 
that currently exist are post-World War II, Cold War-era 
relics, and have not been updated to meet the challenges of 
managing new recruitment issues, management issues, and 
strategies for retaining our highly skilled and increasingly 
mobile workforce of the 21st century.
    We believe that integrated total force management is the 
next phase of reforms required to achieve the enhanced military 
effectiveness envisioned by Congress in enacting the Goldwater-
Nichols Department of Defense Reorganization Act of 1986. We 
also believe integrated total force management is key to a 
successful Operational Force.
    A centerpiece of an Operational Force that is both feasible 
and sustainable is a true continuum of service. As generally 
understood, a continuum of service would facilitate the 
seamless transition of individual reservists on and off of 
Active Duty to meet mission requirements, and would permit 
different levels of participation by the servicemember over the 
course of a military career.
    In our report, the Commission makes specific concrete 
recommendations for changes to law and policy to bring about 
this true continuum of service. Two critical enablers of an 
enhanced continuum of service are a reduction in the number of 
duty statuses and implementation of an integrated pay and 
personnel system. Equally important, however, is an integrated 
personnel management system, when fully matured at some point 
in the future, would include an integrated promotion system, an 
integrated compensation system, and an integrated retirement 
system.
    We recognize that many of these changes will take time and 
will require further analysis, both by Congress and DOD. Our 
window for implementing changes of this magnitude is long term, 
a decade or even longer in some cases, while many of our 
recommendations can be acted on much more quickly, as Chairman 
Punaro mentioned.
    At the beginning of our review, the Commission reviewed DOD 
reports on personnel management and other government agencies 
and think-tanks reports on private-sector trends to assess the 
environment in which the Services must compete today and in the 
foreseeable future to recruit and retain high-quality young men 
and women. Our research led us to the conclusion that the 
mobility of young workers today, and more flexible employment 
relationships of the future, require significant changes to our 
personnel management policy.
    Our recommendations for managing an integrated total force 
include implementation of a long-overdue integrated pay and 
personnel system. Our second recommendation relates to a 
reduction in the duty statutes, from 29 current Reserve duty 
statuses to just 2. Either you're on Active Duty or not.
    I want to make crystal clear that this recommendation does 
not include any recommendation for a cut in Reserve pay. In 
fact, in making this suggestion, we relied on a March 2004 DOD 
report to Congress from the Under Secretary of Defense for 
Personnel and Readiness, which suggested a ``participation 
pay'' as the way to ensure no loss of pay for an individual 
servicemember. DOD's 2004 report emphasized that changing to a 
new Active Duty status system should not cause the individual 
reservist to suffer a reduction, either in the level of 
compensation or in retirement credit earned. Our report makes 
very clear that the Commission agreed with DOD's position on 
both counts.
    The Commission also recommended a number of benefit 
enhancements that will put additional money in reservists' 
pockets, including payment of basic allowance for housing, 
regardless of the length of the call or order to Active Duty, 
and reimbursement of costs for travel greater than 50 miles.
    We recommend transitioning to a more flexible promotion 
system, based on acquiring competencies, the individual 
servicemember's knowledge, skills, and abilities, in lieu of 
the current time-based up-or-out system.
    Our next recommendation, we recognize, is a very sensitive 
one with regard to reform and creation of a single retirement 
system. I want to emphasize that our recommendations in this 
area propose voluntary participation in a new system for a 
period of time, and would be entirely prospective. That system 
would foster more flexible career paths, including earlier 
vesting, government contributions to a Thrift Savings Plan, and 
a significant retention bonus at critical decision points. It 
could be used as an enhanced force management tool. Clearly, 
it's an area of great sensitivity, and we recommend a 
transition period and an evaluation of the level of interest in 
such a new program prior to any mandatory program change.
    Next, we recommend that Congress amend the Goldwater-
Nichols DOD Reorganization Act of 1986 (P.L. 99-433) to now 
require Reserve component officers to be joint-qualified and, 
at the end of a 10-year transition period, to make such joint 
qualification a criterion for promotion to flag or general 
officer, like their Active Duty counterparts.
    To make this achievable, we recommend a number of changes 
to increase opportunities for Reserve component members to 
complete required joint professional military education and to 
fill joint billets.
    We also had a number of recommendations for supporting our 
servicemembers, their families, and employers.
    For the members, we recommend additional housing allowance 
and travel reimbursement. We also propose making it easier to 
use the Selected Reserve Montgomery GI Bill benefits, and we 
recommend a series of improvement in servicemember protections 
under the Uniformed Services Employment and Reemployment Rights 
Act and the Servicemember Civil Relief Act.
    For families, we recommend improved sources of information, 
better publicizing of the programs currently available, and 
increased funding and staffing for family support programs.
    For employers, the Commission recommends an enhanced role 
and additional resources for the National Committee for 
Employer Support of the Guard and Reserve. We propose that 
employers be given better access to senior leadership in DOD 
through an Employer Council, and we recommend a one-stop 
shopping point for information on government laws and programs 
that impact employers.
    In the area of healthcare, we recommend improvements to 
provide continuity of care for Reserve component family members 
who, upon activation, often find themselves suddenly military 
and no longer with access to the providers that they've 
developed relationships with.
    We recommend some systemic improvements to the TRICARE 
program to make it more user-friendly for Reserve component 
families, and to encourage greater participation by providers.
    To address continuity-of-care issues, we recommend that 
Reserve component members be offered the option to participate 
in the Federal Employees Health Benefit Plan and that a stipend 
be offered, either to the Reserve component member or their 
employer, to assist with continuing private-sector coverage 
under the employer's health plan. Both of these are designed to 
provide for continuity of care for those families.
    In the area of demobilization and transition assistance, we 
focused our recommendations on issues that seemed particularly 
problematic to National Guard and reservists returning to their 
civilian communities, often located at considerable distance 
from any military support network. We did not attempt to 
recreate the fine work done by the various senior-level review 
groups that have reported since last spring, or of Congress's 
own landmark Wounded Warrior legislation. Instead, we 
recommended establishment of a Cabinet-level group to oversee 
implementation of these recommendations, coordinate 
interdepartmental concerns, and address funding issues within 
the Office of Management and Budget.
    Approximately half, I believe, of our Commission's 
recommendations are related to the areas of personnel 
management and family support. So, we took a lot of time in 
these areas. Our people are important to us.
    I'm privileged to have been able to be a part of that.
    Thank you.
    Chairman Levin. Thank you so much, Ms. Lewis.
    Mr. Ball?

STATEMENT OF HON. WILLIAM L. BALL III, COMMISSIONER, COMMISSION 
               ON THE NATIONAL GUARD AND RESERVES

    Mr. Ball. Thank you, Mr. Chairman, and members of the 
committee. I'll be very brief.
    Chapter 4 of the full report, which is before you, 
addresses issues of readiness and developing a ready, capable, 
and available Operational Force. Our findings were that our 
Guard and Reserve units that are deployed in the Operational 
Force are at an extremely high state of readiness, but those 
units, once they return home, as this committee knows very 
well, are facing severe shortages in personnel, training, and 
equipment, and which has degraded and complicated the readiness 
of the units--the National Guard, especially--that have 
returned home.
    Our recommendations, to sum up just four of them, are: (1) 
to improve our readiness reporting system, as there is need for 
uniformity across the Services in readiness reporting; (2) that 
DOD should undertake a zero-based review of equipment 
requirements and the need for full-time support personnel to 
support and assist the National Guard; (3) more effective focus 
on medical and dental readiness, which we found to be a major 
issue in many of our National Guard and Reserve units; and 
finally, Mr. Chairman, (4) we strongly suggest the use of new 
tools for accessing National Guard and Reserve personnel, such 
as new types of contractual obligations that will simplify 
access to Guard and Reserve personnel as an integrated part of 
the Operational Force.
    To be brief, that's my summary, Mr. Chairman. We'd be 
pleased to answer any questions.
    Senator Byrd. Mr. Chairman, I did not get the last of the 
statement.
    Chairman Levin. Please repeat that fourth point.
    Mr. Ball. I'm sorry, Senator Byrd. The last point, if I may 
elaborate briefly, was that utilizing the Operational Reserve 
raises the issue of access to, and availability of, our Guard 
and Reserve Forces. We think that access for routine employment 
of the Operational Reserve should not rely on statutory 
mobilization authorities under presidential selected call-ups. 
We think these authorities should be reserved for extreme 
circumstances only, so as to minimize unplanned disruptions in 
the careers and family lives of our reservists. We do recommend 
that the Services use contractual obligations, which clearly 
state annual commitments for training, and the dates and 
durations of activations and deployments, in advance, for 
operational missions. We think such agreements should be based 
on the projections for dwell time and activation length set 
forth in the policies enunciated last year by the Secretary of 
Defense.
    Chairman Levin. Thank you, all.
    [The joint prepared statement of General Punaro, General 
Stump, Mr. Ball, and Ms. Lewis follows:]
 Joint Prepared Statement by Maj. Gen. Arnold L. Punaro, USMCR (Ret.); 
 Hon. William L. Ball, III; Patricia L. Lewis; and Maj. Gen. E. Gordon 
                           Stump, ANG (Ret.)
    It is a pleasure to appear before the committee this morning to 
discuss the final report of the independent Commission on the National 
Guard and Reserves, titled ``Transforming the National Guard and 
Reserves into a 21st-Century Operational Force.'' I would ask unanimous 
consent that our full statement, as well as the executive summary of 
our final report, be entered in its entirety into the record.
    I am accompanied this morning by three fellow commissioners: Will 
Ball, Patty Lewis, and Gordon Stump. Each has had an extraordinarily 
distinguished career and possesses unique expertise in the subject 
matter addressed by the Commission. On behalf of our eight other fellow 
commissioners, whom we are representing, we want to thank you, Mr. 
Chairman and ranking member, Senator McCain, for the support you have 
given to the Commission. We would like to pay special tribute to 
Senator Warner, one of the principal architects of the legislation 
creating the Commission, who will be retiring from the Senate at the 
end of this session. Senator Warner is a true statesman, in the finest 
sense of the word. Bipartisanship and tireless advocacy for a strong 
national defense have been the hallmarks of his long and remarkable 
career in service to the Nation.
    As established by section 513 of the Ronald W. Reagan National 
Defense Authorization Act for Fiscal Year 2005, the Commission was 
chartered to identify and recommend changes in law and policy to ensure 
that the National Guard and Reserves are organized, trained, equipped, 
compensated, and supported to best meet the national security 
requirements of our Nation now and in the future. You subsequently 
tasked us to study the ``advisability and feasibility of implementing'' 
the provisions of the proposed National Defense Enhancement and 
National Guard Empowerment Act. That report--with 23 recommendations--
was submitted on March 1. Defense Secretary Gates acted on it quickly 
and decisively. He conducted a thorough review and accepted, in large 
measure, 20 of its 23 recommendations on reforms to the National Guard 
and Reserves. Implementation of those recommendations is already 
underway within the Department. We are especially satisfied that 
Congress also acted quickly and decisively by incorporating most of the 
Commission's recommendations in the recently enacted National Defense 
Authorization Act for Fiscal Year 2008.
    The 95 recommendations in our final report both address your 
initial charter and also engage more deeply with issues addressed in 
the March 1 report, specifically our concerns with respect to the 
sustainability of an Operational Reserve and the currently disjointed 
planning and resourcing processes to address threats in the homeland.
    We have tried to identify the problems that need to be fixed and 
have suggested solutions. Many of these issues are extremely complex, 
and people of good character and conscience will disagree with some of 
the solutions we propose. We believe your mandate to us was to report 
what we found. We also recognize that further analysis by the 
Department of Defense (DOD) and Congress may lead to alternative 
remedies. We encourage these improvements or alternatives to our 
recommendations. The Commission's focus is on fixing the problems. 
Fewer than half of our 95 recommendations require legislation. These 
are areas where DOD can undertake a change in policies and regulations 
right away, and Congress can enact some immediate statutory changes as 
well. Other recommendations, particularly in the area of personnel 
management, will take careful thought and analysis by DOD and Congress 
to determine how best they should be implemented in order to achieve 
the desired outcomes. They would require phased implementation over a 
lengthy period of time.
    I cannot emphasize too strongly that our recommendations are in no 
way a critique of officials currently serving in Congress or the 
Pentagon or of their predecessors in previous administrations. Many of 
these problems have persisted for decades and have often seemed 
intractable. Others are tied to new and emerging threats. It is 
understandable, given the operational commitments that have by 
necessity been its first priority, that DOD has not been able to fully 
develop strategies regarding the Guard and Reserves focused many years 
in the future. The Department has made real progress on many issues 
since September 11. For example, it has addressed the more immediate 
challenges associated with recruitment and retention in an increasingly 
difficult environment. It has ensured that mobilized Guard and Reserve 
units are fully trained and equipped prior to deployment. It has also 
made a down payment on addressing the complex personnel management 
issues it expects to confront the 21st century.
    Funding for the Reserve components is trending upward, and 
additional funding is in the pipeline to improve the equipment 
shortages particularly in the Army National Guard.
    As we prepared the report, we attempted to be both thorough and 
all-encompassing in the collection and analysis of data. We held 17 
days of public hearings with 115 witnesses; had 52 Commission meetings; 
conducted more than 850 interviews with public officials and other 
subject matter experts, including current and former Secretaries of 
Defense and Chairmen and Vice Chairmen of the Joint Chiefs of Staff; 
and examined thousands of documents. We didn't just gather ``official 
wisdom'' in Washington; we made a concerted effort to get outside the 
Beltway for field hearings, site visits, and focus groups and talked to 
servicemembers, families, employers, and many others. I want to add, 
Mr. Chairman, that the 12 members of the Commission brought 288 total 
years of military service, 186 total years of non-military government 
service, and many years of private-sector experience to this task.
             i. creating a sustainable operational reserve
    Historically, the National Guard and Reserves have functioned as a 
Strategic Reserve Force expected to be used to augment the Active Force 
only in the event of a major war, perhaps once in a generation or once 
in a lifetime. It was a Cold War-era model that assumed long lead times 
to train and prepare Reserve component forces to backfill active duty 
troops in response to the Russians rolling through Fulda Gap or a 
similar occurrence. That scenario began to change with the Reserve 
call-up for the first Gulf War, during the decade of the 1990s, and the 
employment of Reserve component forces has been dramatically different 
since September 11. The force resulting from this evolution has 
repeatedly been referred to as the ``Operational Reserve,'' and this 
transition to the Operational Reserve is highlighted in the DOD fiscal 
year 2009 summary budget report (see pp. 108-12).
    In our March 1 report, the Commission concluded that DOD had 
declared that we have an Operational Reserve without making all the 
changes necessary to make such a force sustainable. It was the 
Commission's view that continued use of the Guard and Reserves in this 
manner was neither feasible nor sustainable over time without major 
changes to law and policy. As my colleagues with me today will confirm, 
the Commission debated at great length the issue of whether we need an 
Operational Reserve. We were particularly concerned that the notion of 
an Operational Reserve had occurred almost by default, as a result of 
the need for more forces than were available in the Active component. 
In our view, the Nation effectively backed into the Operational 
Reserve. Contrary to what some may expect, this demand for Reserve 
Forces will likely continue long after U.S. engagement in Iraq and 
Afghanistan diminishes, owing to the nature of the threats we will face 
in the future both at home and abroad. Yet, there has been no public 
debate within Congress or among the American people on this dramatic 
change. There has been no formal adoption of the Operational Reserve. 
Steps taken by DOD and Congress thus far have not focused on an 
overarching set of alterations necessary to sustain the Reserve 
components as a ready, rotational force that also retains necessary 
strategic elements and characteristics.
    The continuing challenges in recruiting, particularly for the 
Active Army, and the escalating cost of Active Duty manpower have 
raised questions about the long-term viability of the All-Volunteer 
Force, given likely future threats. Those disturbing trends were 
reconfirmed in your Personnel Subcommittee hearing on recruiting last 
week. The All-Volunteer Force was designed to keep up with peacetime 
operations: it was understood, when the Gates Commission released its 
report in 1970 recommending that a military dependent on draftees be 
replaced with an All-Volunteer Force, that such a force would not be 
able to deal with sustained combat. With their repeated use to augment 
the Active Forces in recent years, the Guard and Reserves have 
effectively prolonged the viability of the All-Volunteer Force, and 
prevented the need to return to the draft.
    Almost 600,000 individuals have been mobilized in support of the 
global war on terror. More than 40 percent of the Selected Reserve has 
served since September 11. In 2006, reservists on Active Duty totaled 
61.3 million man-days--the equivalent of almost 168,000 full-time 
personnel. In the absence of the 600,000 national guardsmen and 
reservists mobilized as an Operational Reserve, and those on additional 
duty for the homeland, the Nation would not have been able to sustain 
operations in Iraq and Afghanistan and the force levels the commanders 
requested without a return to the draft. That reality--and its 
implications for the future--was the first reason the Commission 
endorsed continued reliance on an Operational National Guard and 
Reserve Force for both overseas and homeland missions.
    The second compelling reason for having an Operational Guard and 
Reserves is to address new threats in the homeland. We need to enhance 
DOD's role in the homeland. The threats we face here at home are 
radically different than those we confronted at the peak of the Cold 
War. A terrorist's use of a weapon of mass destruction (WMD) in a 
metropolitan area would cause a catastrophe to which only DOD could 
respond: no other organization has the necessary capacity, capability, 
command and control, communications equipment, and mass casualty 
response personnel and equipment.
    Finally, the economics of the Guard and Reserves support their 
continued operational use in augmenting the Active Forces overseas, as 
well as playing the lead role for DOD in addressing emerging threats in 
the homeland. Our analysis found that reservists are a best buy for the 
taxpayer. Quantitatively, by any metric, they are a cost-effective 
source of trained manpower, particularly as the cost of Active Duty 
manpower has grown exponentially in recent years. We consulted the 
Congressional Budget Office, the Government Accountability Office 
(GAO), the DOD Comptroller, and outside think tanks. There are many 
studies and lots of data, but they all come to the same conclusion, 
varying only slightly in their details. Our analysis of all the facts 
led us to the conclusion that the National Guard and Reserves are about 
70 percent less expensive than the Active components. In the area of 
compensation, for example, according to the GAO, the per capita cost 
for an Active Duty servicemember was more than $126,000 in 2006. That 
compares to $19,000 per Reserve component member.
    On the qualitative side of the equation, reservists reside in and 
know their local communities, local officials, and local first 
responders. They bring unique civilian-acquired skills that are 
particularly critical in the event of catastrophes in the homeland--
whether natural or manmade. In this area, we believe they have a 
distinct advantage over the Active Forces.
    For all these reasons, the Commission found overwhelming evidence 
that the Nation requires an Operational Reserve Force for the 
foreseeable future to meet the threats both overseas and in the 
homeland.
    Notwithstanding our conclusion on the necessity of an Operational 
Reserve for the reasons just discussed, the Commission reiterates our 
March 1 concerns about sustainability. As our first recommendation in 
the final report declares, Congress and DOD must modify existing laws, 
policies, and regulations related to roles and missions, funding 
mechanisms, personnel rules, pay categories, equipping, training, 
mobilization, organization structure, and Reserve component categories. 
The remainder of the report addresses those specific issues in much 
greater detail; it focuses on

        <bullet> Enhancing DOD's role in the homeland;
        <bullet> Creating a continuum of service by instituting 
        personnel management for an integrated total force;
        <bullet> Developing a ready, capable, and available Operational 
        Reserve;
        <bullet> Supporting servicemembers, families, and employers; 
        and
        <bullet> Reforming the organizations and institutions that 
        support an Operational Reserve.
                ii. enhancing dod's role in the homeland
    Today, the homeland is part of the battlefield, and the Federal 
Government must use all elements of national power to protect it. 
Dangers to the homeland include traditional military threats, such as 
conventional attacks on people and property, and more unorthodox ones, 
such as terrorist attacks. In addition, Hurricane Katrina and other 
recent devastating events have raised the public's awareness of the 
hazards posed by catastrophic natural disasters. As a result of these 
threats to the homeland and the new awareness of the danger, protecting 
the homeland has become a greater priority for all levels of 
government.
    The two ways in which DOD contributes directly to homeland security 
are homeland defense and civil support. (DOD also contributes by 
neutralizing threats through military missions overseas.) Homeland 
defense is the military defense of the homeland, while civil support is 
DOD support to other agencies in the performance of their mission, 
which often includes homeland security. DOD views homeland defense as 
part of its core warfighting mission, and thus has taken on 
responsibility for it. DOD explicitly trains and equips its forces for 
homeland defense. The Joint Chiefs of Staff's document on homeland 
defense, Joint Publication 3-27, plainly states: ``DOD is responsible 
for the [homeland defense] mission, and therefore leads the [homeland 
defense] response, with other departments and agencies in support of 
DOD efforts.''
    In contrast, DOD has viewed civil support as a ``lesser included'' 
mission and a lower priority. Although DOD has consistently stated in 
its policy documents, including the National Defense Strategy, that 
protecting the homeland is its most important function, the Department 
historically has not made civil support a priority. Rather, DOD has 
sought to perform civil support missions by relying primarily on 
``dual-capable forces.'' DOD's Joint Publication 3-28, ``Civil 
Support,'' describes this policy: ``[civil support] capabilities are 
derived from DOD warfighting capabilities that could be applied to 
foreign/domestic assistance or law enforcement support missions.''
    In our March 1 report, the Commission criticized as a ``flawed 
assumption'' DOD's position that preparing for and responding to 
emergencies and disasters is simply a subset of another capability, and 
recommended that ``the Secretary of Homeland Security, with the 
assistance of the Secretary of Defense, should generate civil support 
requirements which DOD will be responsible for validating as 
appropriate'' and which DOD should include in its programming and 
budgeting.
    Should a catastrophic event occur, DOD will be expected to respond 
rapidly and massively. It therefore must be manned, trained, and 
equipped to do so. This effort should include ensuring that all forces 
assigned to domestic chemical, biological, radiological, nuclear, and 
high-yield explosive consequence management are fully budgeted for, 
sourced, manned, trained, and equipped. Because the nation has not 
adequately resourced its forces designated for response to weapons of 
mass destruction, it does not have sufficient trained, ready forces 
available for that mission. In our report, we call this an appalling 
gap, which puts the Nation and its citizens at greater risk. Department 
of Homeland Security (DHS) must better define the requirement for 
capabilities it expects DOD to provide in responding to catastrophic 
incidents such as those in the 15 National Planning Scenarios. DOD must 
in turn include these requirements for civil support missions in its 
programming and budgeting process, and improve its capabilities and 
readiness to play a primary role in the response to such major 
catastrophes. This responsibility should be equal in priority to its 
combat responsibilities, and the National Guard and Reserves are key 
elements of this effort.
    Following the publication of our March 1 report, the Secretary of 
Defense agreed that the Defense Department must begin to program and 
budget for civil support. This was a very favorable development. We 
know that the Secretary of Defense holds this to be a very high 
priority and has the Department working hard to fulfill this goal.
    Congress mandated in section 1815 of the recently enacted National 
Defense Authorization Act for Fiscal Year 2008 (``Determination of 
Department of Defense Civil Support Requirements'') that ``the 
Secretary of Defense, in consultation with the Secretary of Homeland 
Security, shall determine the military-unique capabilities needed to be 
provided by DOD to support civil authorities in an incident of national 
significance or a catastrophic incident.'' Congress in the same section 
also mandated that the Secretary of Defense develop and implement a 
plan to fund civil support capabilities in DOD, and delineate the 
elements of the plan in DOD's budget materials. Passage of this 
legislation was a significant step toward addressing the concerns 
raised by the Commission.
    Consistent with our conclusions and recommendations in March, the 
Commission recommends in our final report that DOD should be formally 
charged by Congress--in statute--with the responsibility to provide 
support to civil authorities. The Commission believes that only such a 
statutory mandate will ensure that DOD, now and in the future, shifts 
its priorities and commits sufficient resources to planning, training, 
and exercising for such missions. This statutory mandate should have 
three elements. It should make clear that DOD has the responsibility to 
carry out civil support missions when called upon to do so; it should 
state that responding to natural or manmade disasters in the homeland 
is a core competency of DOD that is equal in priority to its combat 
responsibilities; and it should make clear that in the event of a major 
catastrophe incapacitating civilian government over a wide geographic 
area, DOD can be expected to provide the bulk of the response.
    The Commission further recommends that while homeland defense and 
civil support should remain total force responsibilities, ``Congress 
should mandate that the National Guard and Reserves have the lead role 
in and form the backbone of DOD operations in the homeland. 
Furthermore, DOD should assign the National Guard and Reserves homeland 
defense and civil support as a core competency consistent with their 
required warfighting taskings and capabilities.''
    As the Commission states repeatedly in our final report, in 
increasing the priority of the civil support mission, both within the 
Department as a whole and for the National Guard and Reserves in 
particular, ``the Department should not compromise the Reserve 
components' ability to perform their warfighting responsibilities'' (p. 
96). In other words, the Commission does not suggest that the National 
Guard or any other Reserve component be converted into a domestic 
disaster response force, nor do we believe this would be the effect if 
our recommendations were implemented. Rather, we argue that DOD should 
use dual-capable forces as much as possible and undertake rebalancing, 
as appropriate--given the requirements for civil support discussed 
above--among the Active and Reserve components ``to ensure that those 
capabilities useful for civil support reside, where practicable, in the 
Reserve components, and are readily accessible for civil support-
related missions'' (p. 96). The Commission was not in a position to 
determine what, if any, shifting of capabilities among components would 
in fact be appropriate, inasmuch as no civil support requirements have 
yet been generated by DHS. Since they have not yet been generated by 
DHS, DOD has not yet validated them. The overseas warfighting 
capabilities of the National Guard and Reserves will absolutely be 
required now and for the future, and the Commission's recommendations 
in no way call that reality into question.
    Echoing our findings from the March 1 report, the Commission 
continues to find wanting the planning efforts of U.S. Northern 
Command. U.S. Northern Command still does not adequately consider and 
plan for the utilization of all military components, active and Reserve 
(including the National Guard serving under the command of State 
Governors), in its planning, training, and exercising for support to 
civil authorities. Northern Command must incorporate personnel who have 
greater knowledge of National Guard and Reserve capabilities, 
strengths, and constraints and must assemble a cadre of experts on the 
intricacies of State and local governments, law enforcement, and 
emergency response. The Commission therefore reiterates the 
recommendation, originally made in March, that a majority of U.S. 
Northern Command's billets, including those for its Service component 
commands, should be filled by leaders with Reserve qualifications and 
credentials. We also believe that the Reserve qualifications and 
credentials must be substantive--mere exposure to the Reserve 
components would be insufficient.
    Similarly, the Commission reiterates our recommendation that as 
part of its efforts to develop plans for consequence management and 
support to civil authorities, DOD should develop protocols to allow 
Governors to direct the efforts of Federal military assets responding 
to an emergency such as a natural disaster. This direction may be 
accomplished through the Governor's use of a dual-hatted military 
commander. We want to be clear what this recommendation does not 
entail. It does not in any way violate the President's constitutional 
authority as the commander in chief over Federal forces contained in 
Article II of the Constitution, nor does it imply that all 50 State 
Governors would be routinely allowed access to Federal forces, and to 
suggest it does either of those things would be pure sophistry. Rather, 
relying on protocols arranged in advance of a disaster, it would allow 
the President for some defined period of time to ``chop'' a portion of 
his or her command authority over Federal forces--the portion for 
operational control--to a State's Governor who is in charge of the 
disaster response. The Federal forces could be part of a joint Federal-
State military task force commanded by an officer dual-hatted under 
Title 10 and Title 32. The Commission believes that this is a more 
effective method to achieve unity of effort in the vast majority of 
disaster responses--efforts led by the Governor of a State--than the 
approach taken in Hurricane Katrina, when Title 10 and National Guard 
forces responding in the Gulf Coast were under separate control. The 
Commission also believes that DOD has not offered a viable alternative 
to this recommendation.
    Finally, the Commission recommends that Congress amend the 
mobilization statutes to provide Service Secretaries the authority to 
involuntarily mobilize Federal Reserve components for up to 60 days in 
a 4-month period and up to 120 days in a 2-year period during or in 
response to imminent natural or manmade disasters. Under this proposal, 
access would be allowed to the Federal Reserve components for all-
hazards response prior to or after a disaster similar to the access now 
available to the Secretary of Homeland Security with regard to the U.S. 
Coast Guard. No such statutory authority exists today.
   iii. creating a continuum of service: personnel management for an 
                         integrated total force
    DOD's personnel management strategies and the laws, policies, and 
systems that support them were designed during the last century. They 
addressed the problems faced by the Armed Forces after World War II, 
and they responded to Cold War national security and force structure 
issues and to the demographics of the day. The 21st century presents a 
completely different set of challenges for manpower planners. The 
services must recruit, train, and maintain a technologically advanced 
force at a time of ever-increasing competition for a shrinking pool of 
qualified individuals.
    At the outset, the Commission reviewed reports on private-sector 
trends to assess the environment in which the Services must compete 
today and in the foreseeable future to recruit and retain high-quality 
young men and women. In addition to acknowledging the current 
challenges posed by the continuing conflicts in Iraq and Afghanistan, 
it is also important to recognize changing workforce demographics and 
generational expectations. The career paths and career expectations of 
today's young people--often called the ``millennial'' generation--are 
very different from those of their parents and grandparents. Department 
of Labor (DOL) projections indicate that technological advances and 
continually escalating competition will lead individuals to change jobs 
more frequently. That trend is already clear today. According to DOL 
data, in January 2006, the median job tenure for workers ages 55 to 64 
was 9.3 years; for those ages 25 to 34, it was 2.9 years.
    We also reviewed a number of military personnel management studies 
conducted by DOD, beginning with the Gates Commission in 1970, which 
laid out the framework for a post-conscription All-Volunteer Force. 
Some themes reoccur repeatedly, and several highlights of these DOD 
reviews are worth noting:

        <bullet> The Gates Commission recommended increases in military 
        pay and establishment of a salary system, increases in 
        compensation for special skill sets, a vested retirement 
        system, and use of lateral entry to capitalize on civilian-
        acquired skills.
        <bullet> The Defense Science Board Task Force on Human Resource 
        Strategy in 2000 recommended instituting a single, integrated 
        personnel and logistics system for the Active and Reserve 
        components, restructuring the pay system to emphasize pay for 
        performance and skills, modifying the ``up or out'' promotion 
        system for selected skilled personnel, and reforming the 
        retirement system to include earlier vesting, a 401(k)-type 
        option, and portable benefits.
        <bullet> The Defense Advisory Committee on Military 
        Compensation (DACMC) in April 2006 recommended that the 
        military compensation system focus on increasing the 
        effectiveness and efficiency of the system as a force 
        management tool. Criticizing the military compensation system's 
        heavy reliance on deferred benefits, DACMC instead advocated 
        more upfront compensation, including pay for performance. DACMC 
        also recommended changes to the retirement system, including 
        earlier vesting of a deferred retirement annuity, government 
        contributions to a vested Thrift Savings Plan, significant 
        retention bonuses at critical retention ``gates,'' and a 
        transition payment for those leaving military service after the 
        vesting point.

    On the basis of our research, the Commission came to the 
inescapable conclusion that sustaining an Operational Reserve Force in 
the 21st century will require very different ways of doing business. We 
can no longer rely on personnel management laws, policies, and systems 
that are a relic of the Cold War era. DOD's personnel management 
strategies must instead foster a continuum of service as part of an 
integrated total force. The phrase ``continuum of service'' appears 
frequently in testimony and documents, but with little explicit 
description of what actually constitutes such a continuum. As generally 
understood, a continuum of service would facilitate the seamless 
transition of individual reservists on and off of Active Duty to meet 
mission requirements and would permit different levels of participation 
by servicemembers over the course of a military career. We believe that 
integrated total force management is the next phase of reforms required 
to achieve the enhanced military effectiveness envisioned by Congress 
in enacting the Goldwater-Nichols Department of Defense Reorganization 
Act of 1986.
    In this report, the Commission makes specific, concrete 
recommendations for the changes to law and policy necessary to bring 
about a true continuum of service. Two critical enablers of an enhanced 
continuum of service are a reduction in the number of duty status 
categories and the implementation of an integrated pay and personnel 
system. Equally important, however, is an integrated personnel 
management system that, when fully mature at some point in the future, 
would include an integrated promotion system, integrated compensation 
system, and integrated retirement system.
Critical Enablers
    Moving from Reserve status to Active Duty and back is often a 
nightmare for the Reserve component member and his or her family 
because the pay and personnel system is not integrated. The lack of an 
integrated pay and personnel system caused numerous problems in the 
first Gulf War. With the exception of the Marine Corps, which currently 
has an integrated system, the problem persists today. Reservists can 
find that their pay is inaccurate or their family members have been 
dropped out of the Defense Eligibility Enrollment System and so are 
ineligible for medical care. DOD has experienced delays, cost 
increases, and management problems in its more-than-a-decade-long 
effort to field the Defense Integrated Manpower Human Resources System, 
which is now receiving senior leadership attention within the Office of 
the Secretary of Defense. We cannot recommend too strongly that DOD 
implement an integrated pay and personnel system as expeditiously as 
possible. The Commission took no position on the internal debate within 
DOD as to whether that new structure should be a single DOD-wide system 
or multiple systems operating as part of a larger enterprise 
architecture.
    Equally important is the need for duty status reform. The current 
plethora of 29 or 32 duty statuses, depending on which report you read, 
is confusing and frustrating to both Reserve component members and 
their operational commanders. Servicemembers often encounter pay and 
benefit problems, including the maintenance of health care eligibility 
for their family members, when they transition between one or more duty 
status categories--being called to Active Duty for service in Iraq and 
then returning back to a drilling Reserve status, for example. 
Commanders may experience similar frustration when seeking to access, 
in a timely manner, Reserve component members needed to meet 
operational requirements. The current operational use of the Reserve 
component demands simplicity, compatibility, and administrative clarity 
to meet training and mission requirements and to promote a continuum of 
service.
    Under the simplified duty status system recommended by the 
Commission, there should be only two duty statuses: Reserve component 
members would either be on Active Duty or off Active Duty. This would 
be the case whether they were in a title 10 or title 32 status.
    One sticking point in previous attempts to simplify duty status 
categories has been the difference between the pay and allowances 
received when the Reserve component member is either activated or in an 
Active Duty training status and the pay received for two drills per day 
when the member is in an inactive duty training status, a pay structure 
dating to 1920. As noted in DOD's 2004 congressionally mandated Reserve 
Personnel Compensation Program Review, ``Transitioning to a system in 
which--like Active Duty members--a day of duty is a day of duty would 
make it much easier to employ Guard and Reserve members. It would also 
help to reduce the frustration experienced by combatant commanders when 
they want to employ Reserve component members.'' The 2004 Reserve 
compensation review included analysis of a variable ``participation 
pay'' designed to prevent Reserve component members from losing out-of-
pocket income under a system in which training is always treated as a 
day of Active Duty. That analysis also emphasized that changing to a 
new Active Duty status system should not cause the individual reservist 
to suffer a reduction in either the level of compensation received or 
retirement credit earned. The Commission fully concurs, as clearly 
stated in our report, that compensation for current servicemembers 
should not be reduced. Just to underscore that point, nothing in the 
Commission's final report can or should be read as suggesting that 
reservist drill pay should be cut. Rather, as the report makes clear, 
we suggest alternative methods to simplify duty statuses while 
preserving reservists' compensation in this area. In addition, we 
recommend a number of benefit enhancements, including to medical and 
family benefits, and increased reimbursement for travel and other 
expenses.
A Competency-Based Promotion System
    The centerpiece of the Commission's vision of integrated total 
force management is a revised promotion system that recognizes 
knowledge, skills, and abilities acquired over the course of a career 
as the primary criteria for promotion and that provides greater 
flexibility for participation at different levels of commitment across 
a military career.
    DOD's current ``up or out'' promotion system was codified in 1947 
to prevent a superannuated senior officer cohort from hindering 
military effectiveness, a problem observed at the outbreak of World War 
II. The Defense Officer Personnel Management Act of 1980 (DOPMA) and 
its follow-on Reserve component counterpart, the Reserve Officer 
Personnel Management Act of 1994, updated the 1947 legislation but 
retained the up-or-out structure. In recent years, it has been 
criticized by numerous studies and experts as inflexible and as a Cold 
War-era relic. The up-or-out system under DOPMA is time-based: officers 
are considered by selection boards for promotion at certain ``time'' or 
years-of-service points during their careers. If twice non-selected for 
the next highest grade, or failed of selection, the officer is subject 
to involuntary separation or retirement--forced to move ``up or out.'' 
Such officers may be permitted by a selective continuation board to 
remain to meet service requirements, but they nonetheless bear the 
stigma of the label ``failed of selection.'' To remain competitive, 
officers must punch specific tickets at specific points in their 
careers. This time-based career management system prevents 
servicemembers from pursuing alternative career paths and penalizes 
their attempts to do so. Up or out instead pushes servicemembers out of 
the force when they are most experienced.
    A competency-based career management system, organized around the 
mastery of knowledge, skills, and abilities, would encourage more 
flexible career paths, thereby permitting longer assignments, greater 
opportunity for graduate education, time-outs for family 
responsibilities, the lateral entry of skilled professionals, and 
longer overall careers. Such changes better reflect the new career 
patterns in the private sector previously discussed and offer a 
framework to foster a true continuum of service. Under current law and 
policy, promotion boards rank officers on the basis of experience, 
demonstrated performance, and potential for success in the next grade. 
A competency-based system would rely on those same criteria but would 
use accumulated experience gained through assignments, education, and 
training to determine which officers are eligible for promotion. Such a 
system would allow officers to undertake additional or longer 
assignments or further their education without being at a disadvantage 
in relation to their peers. For some communities, the required skills, 
timing of promotions, and career length might change little from 
today's norms. For the combat arms, for example, a Service might decide 
that the current framework is optimal because of the need for youth and 
vigor. Similarly, the services might make little change in the 
promotion timing for officers scheduled for a command/leadership track.
    To prevent stagnation, competency would need to be demonstrated for 
officers to continue in Service as well as to be promoted--in other 
words, ``perform or out'' in lieu of up or out. Their continuation 
would be determined by their continued employability by commands or 
agencies seeking their services. Transitioning to a competency-based 
system would also facilitate the development of a single personnel 
management system, which is essential to the effective management of an 
integrated 21st-century total force.
Joint Duty and Joint Education
    In our March 1 report, the Commission considered the need to ensure 
that Reserve component officers have the opportunity to gain both joint 
experience and joint professional military education in order to be 
competitive for promotion to senior positions, including to combatant 
commands and senior joint and service positions. Such opportunity is a 
critical element of integrated total force management. In our March 1 
report, we indicated that we would address this issue in greater detail 
in our final report and have done so. The 1986 Goldwater-Nichols Act 
mandated a program of joint qualification through education and 
experience for Active component officers seeking to be promoted to 
general and flag officer ranks. Although DOD was directed to establish 
a parallel system for the Reserves, in the subsequent 20 years progress 
has been very slow. In the meantime, after our extended commitment in 
Iraq and Afghanistan, many national guardsmen and reservists have 
acquired extensive joint duty experience in theater. Congress 
recognized the changed nature of joint duty in the Goldwater-Nichols 
Act amendments enacted in 2006.
    To foster greater joint opportunity, we recommend:

        <bullet> That Congress amend Goldwater-Nichols to require 
        Reserve component officers to also be ``joint qualified'' and, 
        at the end of a 10-year transition, to make such joint 
        qualification a criterion for promotion to general and flag 
        officer, as is the case for their Active Duty counterparts.
        <bullet> That DOD improve opportunities for Reserve component 
        officers to complete joint professional military education and 
        recommend modifications to the system to make it more focused 
        on the total force.
        <bullet> That Congress and DOD establish a career management 
        system for Reserve component officers similar to the one 
        currently in place for Active component officers to ensure that 
        they have the opportunities to complete required education and 
        joint duty.
        <bullet> That DOD ensure that assignment options afford Reserve 
        component officers more opportunity to fill joint billets.

    These changes will not only enhance the career opportunities of 
Reserve component officers but, more importantly, will ensure that the 
Nation is able to utilize their knowledge, skills, and abilities at the 
most senior levels of DOD leadership.
An Integrated Retirement System
    Today there are two separate retirement systems: one for Active 
Duty and another for Reserve component members. As part of our vision 
of an integrated total force, the Commission recommends transitioning 
to a single retirement system. Numerous studies, beginning with the 
Gates Commission in 1970, have highlighted problems in the current 
military retirement structure. The Commission based our recommendations 
on achieving desired force management objectives--and also recognized 
the different career patterns of today's young men and women. As a part 
of a single retirement system for both Active and Reserve components,

        <bullet> We recommend modifications that will foster more 
        flexible career paths--including earlier vesting, government 
        contributions to the Thrift Savings Plan, and significant 
        retention bonuses at critical career decision points.
        <bullet> We also realize that any changes to retirement will 
        happen incrementally over a period of time in the course of 
        implementing other changes recommended by the Commission to 
        achieve a more integrated total force.

    We further recommend that no change in the retirement system be 
required of members of the current force, that current servicemembers 
be given the option of converting to the new system, and that there be 
a transition period for new entrants to give Congress time to review 
and evaluate what we believe will be the positive impact of the 
changes. We recognize that some of what we recommend is complicated and 
challenging, but believe that earlier vesting, government contributions 
to the Thrift Savings Plan, and other financial incentives are very 
much in line with the expectations of the young men and women the 
Services want to recruit and retain in the years ahead.
   iv. developing a ready, capable, and available operational reserve
    Readiness is a key determinant in the ability of the Reserve 
components to achieve their roles and missions both at home and abroad. 
Congress tasked the Commission to assess how effectively the 
organization and funding structures of the National Guard and Reserve 
are achieving operational and personnel readiness. An Operational 
Reserve requires a higher standard of readiness, for a greater 
duration, with less time to restore readiness levels between 
deployments. The Cold War-era model relied on a lengthy period of 
time--post-mobilization--to address training shortfalls, update 
equipment, and fix such problems as individual medical readiness. That 
framework is out of sync with the periodic and sustained rotational use 
of the National Guard and Reserves envisioned in the current manpower 
planning models, such as the Army's Force Generation (ARFORGEN) Model. 
ARFORGEN is instead designed to rely on a ``train, mobilize, deploy'' 
model that will require increasing levels of readiness for several 
years prior to deployment. Sustained operational use of the Reserve 
component will make it necessary to devise a very different way of 
doing business.
    The readiness of units and of individuals varies greatly among the 
services, and the differences relate largely to funding. In our March 1 
report, we said that 88 percent of Army National Guard combat forces 
here in the United States were not ready. On the basis of information 
we received from DOD officials shortly before publication of our final 
report, we believe that this assessment of National Guard readiness 
remains accurate. In fact, the situation is a little worse. There are a 
number of improvements in the pipeline that should improve National 
Guard readiness in future years. But as Army Chief of Staff General 
George W. Casey has testified in recent months, Army readiness is being 
consumed as fast as we can build it.
    We recognize that most of the problems in this area are not new; 
they have arisen because Cold War policies and laws remain in effect 
while the Reserve components are being used in ways never envisioned 
when those policies were developed. Policies that allowed cascaded 
equipping and tiered readiness for the Army Reserve components resulted 
in those forces being largely ``not ready'' before September 11. That 
the wars in Iraq and Afghanistan have exacerbated readiness problems 
should come as no surprise. As mentioned earlier, with the exception of 
those Reserve Forces deployed or just getting ready to deploy, 
readiness of the Army Guard units at home in their States is extremely 
low. Their unreadiness leaves us at greater risk should the Nation 
suffer a catastrophic WMD attack on our homeland or a natural disaster 
inflicting greater damage than did Hurricane Katrina. We recommend in 
our report that National Guard and Reserve units employed operationally 
overseas and those required to be ready to respond domestically to a 
catastrophe be maintained at higher readiness levels than were 
routinely maintained in the past.
    To remedy the problems in this area we first recommend that the 
Department expand and improve on its readiness reporting system in ways 
that both provide operational planners more details and also answer the 
question ``ready for what?'' Today, in the readiness reporting system 
managed by the Chairman of the Joint Chiefs of Staff, the standards by 
which all units are measured are determined by their wartime missions. 
They are not assessed for their capability to respond to crises here at 
home. The system we envision should be common across all Services and 
components, contain data from the individual through the major unit 
level, and report on readiness for a full spectrum of missions, 
including support to civil authorities. The Defense Readiness Reporting 
System currently being put into operation by the Department may be a 
start on the road to such a comprehensive system, but progress on its 
implementation has been slow.
    We also recommend that DOD conduct zero-based reviews of the 
Reserve components' equipment and levels of full-time support 
personnel. Adequate levels of equipment are critical for realistic 
training, particularly as a unit moves into its force generation model 
deployment cycle. Equally critical are the full-time support personnel 
who both maintain that equipment and ensure that Reserve component 
units are trained to the standards the Active component expects from an 
Operational Reserve Force. We are familiar with current service plans 
to fund these areas, but we are skeptical that existing requirements, 
based on Cold War tables of organization and equipping, are accurate. 
The requirements for Reserve Forces employed operationally overseas and 
prepared to respond to catastrophes here at home will surely differ 
from those developed for a once-in-a-generation conflict against the 
Soviet Union. Most of the expense of funding the necessary equipment 
and personnel is already budgeted in service plans. The Army G-8, 
Lieutenant General Stephen M. Speakes, told us that current Army plans 
include full funding to equip Guard and Reserve units and meet full-
time support requirements. We are recommending that these plans be 
modified in accordance with the zero-based reviews, and that funding 
for these requirements be accelerated.
    Individual medical readiness, particularly dental readiness, was a 
serious issue during mobilization for the first Gulf War. It has 
remained a significant problem for some Reserve components during 
mobilizations for Iraq and Afghanistan. New force generation models 
will provide much less time post-mobilization for needed fixes. As in 
the case of training, any remedial work will have to be completed pre-
mobilization. In the Commission's view, ensuring individual medical 
readiness for an Operational Reserve Force is a corporate 
responsibility of DOD, as well as of the individual servicemember. We 
recommend a number of changes to ensure that Service Secretaries have 
the authority to provide the medical and dental screening and care 
necessary to make certain that servicemembers meet the applicable 
medical and dental standards for deployment.
             v. supporting members, families, and employers
    As we studied these complex areas, we tried to never lose focus on 
our most valuable resource--our people. During roundtable discussions, 
focus groups, and public hearings, the Commission was repeatedly 
reminded of the central role played by both family members and 
employers as Reserve component members make the crucial decision about 
whether to remain in the National Guard and Reserves. We made a 
concerted effort to get firsthand input from both groups, and many of 
our recommendations flow directly from that input.
Families
    Unlike their Active Duty counterparts, many National Guard and 
Reserve families live at considerable distance from military bases and 
the services they provide. In addition, many National Guard and Reserve 
families are not familiar with the intricacies of the component parts 
of the military system--such as TRICARE, the military health care 
system, for example--and the learning curve can be fairly steep for 
these ``suddenly military'' families.
    We recommend that sources of information be improved, that those 
programs currently available be better publicized, and that funding and 
staffing for family support programs be increased.
Employers
    The Commission recognizes the sacrifices that many employers, 
particularly small employers, have made in supporting their National 
Guard and Reserve employees when they are called up for duty. In the 
Commission's view, it is time for a new and improved ``compact with 
employers'' that recognizes the vital role that employers play.
    The Commission recommends an enhanced role and additional resources 
for the National Committee for Employer Support of the Guard and 
Reserve, proposes that employers be given better access to senior 
leadership in DOD through an Employer Council, and recommends that they 
be provided an access point offering one-stop shopping for specifics on 
government laws and programs affecting them so that they don't find 
themselves in the position of one small business witness who told us 
that she had to turn to Google to find the information she needed. In 
addition, as discussed below, the Commission also views enhanced health 
care benefits for Reserve component members and their families as a 
part of the new compact with employers.
Health Care
    During focus groups and hearings, participants expressed 
considerable frustration with the problems they encounter in using 
TRICARE, the military health care benefit. TRICARE itself offers 
excellent coverage, but the program can be difficult to understand for 
the first-time ``suddenly military'' user. In addition, in some 
locations family members can find it very difficult to find physicians 
and other health care providers willing to accept TRICARE because its 
levels of reimbursement seem too low or administrative requirements 
appear excessive. The Commission makes the following recommendations in 
this area:

        <bullet> Congress should direct DOD to fix a number of long-
        standing TRICARE concerns that are particularly problematic for 
        Reserve component families. DOD's actions should include: (1) 
        issuing updated, user-friendly information in easy-to-
        understand language for those who don't ``speak TRICARE,'' as 
        well as establishing an ombudsman office with a single toll-
        free number; and (2) simplifying TRICARE claims and 
        reimbursement processes.
        <bullet> Reserve component members should be offered the option 
        to participate in the Federal Employees Health Benefits Program 
        (FEHBP), the health insurance program for Federal employees, 
        which does not seem to be beset by the problems that have 
        plagued TRICARE for years.
        <bullet> A stipend should be given as reimbursement for the 
        cost of keeping the reservist's family in the employer's health 
        insurance plan during a period of activation. Such a stipend 
        could be provided in several ways. First, it could be made 
        available directly to the servicemember as a nontaxable 
        allowance, with the servicemember certifying (with 
        substantiating documentation) that the allowance had been used 
        for specific health care costs. Second, DOD could establish a 
        mechanism to reimburse employers directly. Or third, Congress 
        could enact a tax credit, in lieu of the current business tax 
        deduction, for employer costs in providing continuing health 
        care coverage when reservists are activated. The amount of the 
        stipend would be an actuarially determined cost of the TRICARE 
        benefit.

    With the establishment of TRICARE Reserve Select, DOD has already 
begun to share a portion of the health care costs of participating 
Reserve component members and their families. The cost of health care 
is becoming a growing burden for many employers, particularly small 
employers who may find private health insurance for their employees 
increasingly unaffordable. The two additional options that the 
Commission recommends--allowing Reserve component members and their 
families to participate in the FEHBP and offering a stipend to help 
offset the costs of continuing employer-sponsored health insurance 
during activation--would represent a major component of an enhanced 
compact with employers and should encourage employers to hire 
reservists.
   vi. reforming the organizations and institutions that support an 
                          operational reserve
    In the final chapter of our report, the Commission recommends 
organizational reforms that we believe are necessary in order to 
implement an integrated total force. Perhaps the most critical is a 
restructuring of Reserve component categories to reflect 21st century 
operational use. The current categories--the Ready Reserve, Standby 
Reserve, and Retired Reserve--were created by the Armed Forces Reserve 
Act of 1952 and designed to provide a strategic force for a major war. 
The chart titled ``Current Reserve Component Categories'' depicts this 
confusing system. This structure was built around a scenario that 
allowed time for training before deployment, an assumption that allowed 
the force to be maintained at reduced levels of readiness. These 
antiquated Reserve component categories are not tied to mobilization 
statutes, nor do they reflect National Guard and Reserve units' 
readiness for mobilization, their use on a predictable rotational 
basis, or their priority for resourcing. They do not support a 
continuum of service--the smooth and efficient movement of personnel 
along a spectrum from full-time duty to minimal Active Duty obligation, 
based on the needs of the Services and individual willingness to accept 
training time and activations. The chart titled ``A Continuum Service 
Structure for the Active and Reserve Components'' depicts key features 
of a continuum of service model on which DOD has done a considerable 
amount of excellent work. Finally, the Commission recommends a complete 
restructuring to better align the categories of Reserve service with 
projected operational use. The two major new categories, as depicted in 
the chart titled ``Proposed Reserve Component Categories,'' would be:

        <bullet> The Operational Reserve Force, which would consist of 
        present-day Selected Reserve units and individual mobilization 
        augmentees who would periodically serve Active Duty tours in 
        rotation, supporting the total force both overseas and in the 
        homeland.
        <bullet> The Strategic Reserve Force, which would have two 
        subdivisions:

                <bullet> The Strategic Ready Reserve Force, which would 
                consist of current Selected Reserve units and 
                individuals who are not scheduled for rotational tours 
                of Active Duty as well as the most ready, operationally 
                current, and willing members of today's Individual 
                Ready Reserve (IRR) and retired servicemembers (both 
                regular and Reserve). Unlike today's IRR, the Strategic 
                Ready Reserve would be managed to be readily accessible 
                in a national emergency, or incentivized to volunteer 
                for service with the Operational Reserve or Active 
                component when required.
                <bullet> The Strategic Standby Reserve, which would 
                consist of those current individual ready reservists 
                and retired servicemembers (regular and Reserve) who 
                are unlikely to be called on except in the most dire 
                circumstances yet who still constitute a valuable pool 
                of pretrained manpower worth tracking and managing.

    The Commission also recommends a reorganization of the Office of 
the Secretary of Defense that would structure the management of Reserve 
component issues along functional lines as part of the total force and 
would eliminate the office of the Assistant Secretary of Defense for 
Reserve Affairs.
                               conclusion
    Commissioners are honored to have been selected to undertake the 
most comprehensive, independent review of National Guard and Reserve 
Forces in the past 60 years. Many of today's profound challenges to the 
National Guard and Reserves will persist, notwithstanding force 
reductions in Iraq and Afghanistan. The need for major reforms is 
urgent regardless of the outcome of current conflicts. The Commission 
believes that the Nation must look past the immediate challenges and 
focus on the long-term future of the National Guard and Reserves and 
their role in protecting the United States' vital national security 
interests at home and abroad. We have labored to identify and 
categorize the challenges that must be addressed, and have proffered a 
series of recommendations to address those challenges. We understand 
that responsibility for implementation now falls into the hands of 
Congress and the executive branch. We are confident that you will build 
on and improve upon our efforts.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
    [The Executive Summary of the Commission on the National 
Guard and Reserves follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The Final Report of the Commission on the National Guard 
and Reserves submitted to Congress and the Secretary of Defense 
dated January 31, 2008, is retained in committee files.]

    Chairman Levin. We will have an 8-minute round for our 
first round of questions.
    Mr. Punaro, the report states that DOD should have civil 
support as a mission of equal importance to its combat 
responsibilities. It's been long and universally held that the 
purpose of the Armed Forces of the United States is to deter 
war and, if deterrence fails, to engage and defeat the enemy in 
combat and to defend the Homeland. Now, how can civil support 
claim an equal importance without sacrificing this fundamental 
and this overarching purpose for the creation and sustainment 
of national Active and Reserve land, sea, and air forces?
    General Punaro. Mr. Chairman, the Commission doesn't view 
this as an either/or situation. We believe, if you look at what 
DOD has articulated in its own documents, that they recognize 
homeland defense as part of providing for the common defense is 
equal in priority to the overseas mission. However, Congress 
has not directed that, statutorily; and, therefore, on 
occasion, it doesn't get the priority that it deserves.
    We would suggest, from a Commission standpoint, 
respectfully, that if you have a National Guard personnel 
that's required to go into a nuclear contaminated environment 
and protect the lives, citizens, property, and way of life, 
that's equally as challenging and equally as much combat as a 
member of the 82nd Airborne that gets to deploy overseas, in 
his helmet and flak jacket and has to put a bayonet in the 
heart of a terrorist. We believe that the threats to the 
Homeland are equally as severe as some of the challenges we 
face overseas, and we don't think you can make that kind of 
distinction anymore. In these catastrophic situations that we 
face here at home, this is a core responsibility of DOD. 
Everyone knows, nobody likes to talk about it, and we worry 
about it and certainly the Commission does not believe DOD 
should be the temporary manpower agency for every situation we 
face here at home. We're talking about proscribing, 
particularly for these catastrophic situations--only our DOD 
has the command and control, the training, the equipping, the 
ability to do the deliberate planning, the ability to bring 
forces to bear, as required, for these kind of situations. 
There's nobody else in government that can do it. Our view is, 
these things are just as devastating as any kind of combat 
situation you could face overseas, so it's not a either/or, Mr. 
Chairman.
    Chairman Levin. Is it the Commission's intent, in any way, 
that Guard or Reserve Forces be withheld from combat in order 
to preserve a capability to respond to a domestic emergency, 
such as hurricanes, tornados, floods, epidemics, attack, or so 
forth?
    General Punaro. No, Mr. Chairman, it is not. I would like 
to ask the committee's indulgence. If you would give me a 
minute to explain what we consider to be the continuum of 
service in the way the total force manpower pool could be 
managed in the future so that we can accommodate both the 
overseas requirements, as well as the back-home requirements, I 
think I might be able to give you a fuller answer.
    Chairman Levin. Yes, please proceed.
    General Punaro. What we are recommending is a continuum of 
service. It's in the charts at the back of your testimony. What 
we have today is, we have an Active-Duty Force of 1.4 million 
personnel, we have a Guard and Reserve Force of about 800,000 
personnel in units, another 300,000 in the Individual Ready 
Reserve (IRR), about 1.9 million people in the retiree pool, 
and then we have the Selective Service system. We envision, in 
the future, moving from the traditional structure to a future 
structure, where you'd have people that are supporting missions 
full time and you'd have people that would be in variable 
categories, that might serve from anywhere from 40 days to 365 
days. You'd have the traditional reservists that would serve in 
categories, like they do now with several weeks of training a 
year and several deployments a year. Then you'd have various 
new affiliation programs for varying degrees of time.
    The reason you need an integrated pay and personnel system, 
an integrated retirement system, an integrated management 
system--if you go the last chart, please--is so our force 
planners, if they have a mission, if they have a requirement to 
meet a contingency overseas or a contingency here at home, they 
look at this total force pool of all this manpower. So we 
believe we should go to two new Reserve component categories 
and get away from the ones that were designed for the Cold War. 
You'd have an Operational Reserve Force, and DOD would put in 
that Operational Reserve Force and keep, at the highest level 
of readiness, those forces that they believe are required, for 
say a catastrophic incident here at home, those forces that are 
getting ready to deploy overseas and the individuals that are 
serving, for example, full time on the staff of NORTHCOM or 
some other command, or serving in the Pentagon. Then you'd have 
a Strategic Reserve Force. You'd have a Strategic Ready Reserve 
and a Strategic Standby Reserve. That Strategic Ready Reserve 
would be those units, perhaps, that just got back or aren't 
needed in an immediate Homeland situation, or aren't needed for 
a couple of years overseas. They'd be some of the 300,000 
individuals in the IRR. People have an 8-year obligation, many 
serve only 4 years of Active Duty. The first 2 years they're 
off Active Duty, their skills are very fresh, they would be in 
a Strategic Ready Reserve. The people that just retired would 
be in the Strategic Ready Reserve. Then, in the Standby Reserve 
would be those people that were towards the end of their IRR 
commitment or a much longer period of time in the retired 
pools. Then, if you absolutely couldn't meet any of your 
requirements with all that personnel, you'd crank up the 
Selective Service system.
    DOD needs to look at all the incredibly trained, valuable 
resources. It costs the Army over $8 billion a year to train 
their new personnel. We need this viable Guard and Reserve for 
people that have that kind of investment to go and have a place 
where they can continue to serve. Eighty-five percent of the 
people that enlist in our military never retire, so this is a 
tremendous pool of trained personnel that the Nation needs to 
be able to draw on.
    Senator Byrd. Mr. Chairman?
    Chairman Levin. Senator Byrd.
    Senator Byrd. Did I understand that to be 8 million or 8 
billion?
    General Punaro. Senator Byrd, the numbers are 1.3 million 
Active Duty personnel, 800,000 members of Reserve and Guard 
units, 300,000 members of the IRR--these are individuals that 
have a remaining obligation to serve, but are not in a unit.
    Chairman Levin. That's the current situation.
    General Punaro. Yes, sir.
    Chairman Levin. Okay. General, would there be fewer people 
available for overseas duty, under your construction, than is 
currently the case?
    General Punaro. No, sir, Mr. Chairman.
    Chairman Levin. Okay, if you could just keep your answers a 
little shorter.
    General Punaro. Yes, sir. You would have to increase the 
size of the Guard, though, for these catastrophic missions. We 
don't have those units today. You would basically be increasing 
the availability of the number. You wouldn't be diverting 
current Guard units, you'd be creating new Guard units for the 
catastrophic missions. By the way, those same units could be 
used overseas in similar circumstances.
    Chairman Levin. Would the size of the Guard need to be 
increased, overall?
    General Punaro. It would, Mr. Chairman.
    Chairman Levin. To what number?
    General Punaro. We can't give you a number. General Blum 
has done a lot of work on this. They think they need three 
additional of these high-end packages for the weapons of mass 
destruction type of situations.
    Chairman Levin. Now, if you could just talk for a moment 
about the missions. You're recommending that DOD shift 
capabilities that are needed for State-controlled missions to 
the Guard, and you recommend that capabilities that are needed 
for Federal missions be shifted from the National Guard to the 
Federal Reserve components or Active-Duty military. The bottom 
line is this. What kind of DOD missions would the National 
Guard perform if capabilities for Federal missions are 
transferred to the Federal Reserve components? Give us some 
examples of those missions that would be shifted.
    General Punaro. I'm going to defer to General Stump on 
that, if he's willing to take the handoff.
    Chairman Levin. Well, he has his usual smile on. 
[Laughter.]
    Chairman Levin. He's always willing to give it a try.
    General Stump. I'd like to give a quick response to your 
previous question, that being that the Enhanced Response Force 
Packages that the National Guard has stood up, those force 
packages draw from the resources that are in the National Guard 
at this time. If part of those resources are activated for a 
mission overseas, they would be backfilled by like units back 
here in the States. So, you always have the Enhanced Response 
Force Packages available, but if part of the packages are 
deployed, then the other units would backfill those packages. 
There probably would not be an instance where all of the 
capabilities of these Federal Response Force Packages would be 
required for deployment, there would always be room for 
backfill.
    Chairman Levin. There's no shift of missions, then?
    General Stump. No.
    Chairman Levin. Okay. Now, the card that's been handed to 
me states that Senator Collins is next. However, Senator Warner 
told me that he wanted to yield his time to Senator Byrd. So, 
I'm going to override the blue card, and Senator Warner yields 
to Senator Byrd.
    Senator Byrd, it's great to have you here.
    Senator Byrd. I thank you, Mr. Chairman.
    I have difficulty in going ahead of a lady. [Laughter.]
    Senator Collins. Please feel free, sir. I'm very honored to 
defer to you. You have a lot more seniority than I do. 
[Laughter.]
    Senator Byrd. Thank you, ma'am. Thank you, Mr. Chairman.
    General Punaro, maintaining a force that can respond to 
homeland security and natural disasters, while maintaining its 
capability as an Operational Reserve to support the Active 
Forces, suggests that the National Guard and Reserves will have 
to be equipped and trained for multiple roles. Additionally, if 
the Active-Duty military is to support the National Guard and 
Reserves as a homeland security and disaster response asset, 
they must also be trained, and they must also be equipped, to 
work in a domestic civilian environment. The changes in culture 
and the flexibility required to accomplish these tasks may be 
very daunting. What are the first steps that Congress should 
consider in making progress in this area?
    General Punaro. Senator Byrd, I believe the Commission 
would agree with the premise of your questions completely. You 
have accurately and precisely described the current situation 
and what we need to do.
    We would say the two major things that have to happen to 
have this daunting cultural change occur is, one, Congress 
needs to have a full debate about whether or not we really want 
to have this Operational Guard and Reserve that would have a 
number of units that would be manned at a much higher level of 
readiness than they were as a Strategic Reserve, in terms of 
their personnel, their equipment, their equipment readiness, 
their training for these specialized missions, family support, 
and employer support.
    Conclusion: number one, Congress needs to adopt, upfront, 
whether they want to do this or not, and direct that in 
statute; and, number two, we believe that we need to enhance 
DOD's role in the Homeland, and, by statute, level the 
requirement for civil support. The Guard and Reserve should 
have the lead in the Homeland because they're closer 
operationally, they're a lot more economical in a resting 
phase, and the Active Forces could augment and reinforce the 
Guard and Reserve, as required, just like the Guard and Reserve 
augment the Active Forces overseas.
    So if you were to adopt those two main conclusions, 
everything else would flow from that. If we don't want to have 
an Operational Guard and Reserve that's sustainable over the 
long term, and we don't believe we need to beef up our 
capabilities to defend the Homeland, then a lot of other 
recommendations that we make, you probably wouldn't need to do. 
We don't see any alternative. We think there's a compelling 
case to do that, based on the threats we face here at home and 
overseas.
    Senator Byrd. Thank you.
    General Punaro, it is estimated that the cost of returning 
the National Guard to its pre-Iraq-war capacity, replacing lost 
and damaged equipment, may be as high as $54 billion, spelled 
with a ``b'' big billion--$54 billion. At the same time, the 
Active Services are also competing for resources to restore and 
modernize the force. The maintenance of the National Guard and 
Reserve, equipped and trained for multiple roles might also 
dramatically increase the estimated cost of equipping and 
training the Guard and Reserve. Am I clear? Shall I repeat 
that? Let me repeat that.
    The maintenance of a National Guard and Reserve equipped 
and trained for multiple roles might also dramatically increase 
the estimated cost of equipping and training the Guard and 
Reserve. How can Congress assure that there is adequate 
equipment available to ensure that the Guard and Reserve are 
operationally capable, while, at the same time, ensuring that 
the equipment needed within the United States is available in 
the locations needed when they are needed? Should Congress 
expect that the $54 billion--spelled with a ``b,'' large 
``b''--$54-billion estimate will be inadequate to accomplish 
this goal?
    General Punaro. Senator Byrd, again, you have very 
accurately described the current situation, in terms of the 
requirement for the funds. Our report indicates something in 
the order of $50 billion, and it probably is as high as you say 
it is, to replace equipment if you decided that we were going 
to, basically, replace everything in an as-is status--meaning, 
the units would have the same missions, need the same 
equipment.
    What we are suggesting, in the equipping area--and, by the 
way, Congress and DOD have provided significant enhancements, 
in terms of new equipment, not only in previous years, but also 
ongoing. As I recall, very briefly, Secretary Gates testified, 
before the Senate Armed Services Committee yesterday, that they 
have a very large downpayment--I believe it was in the 
neighborhood of $50 billion--to beef up equipment for the Guard 
and Reserve over the next number of years. So, there's a 
significant amount of money in the pipeline.
    What we recommend, however, is, when it comes to 
equipping--and we believe those units that are needed for 
overseas missions and homeland missions have to be equipped at 
the C-1 or highest level of readiness for those that have an 
immediate mission. We don't really know what the new 
requirements are. We do not have the new requirements from DHS 
for civil support. DOD hasn't received them; and, of course, 
they certainly haven't had an opportunity to validate them. We 
believe, before we start adding a lot of new money over and 
above things that are already in the pipeline, we should have a 
baseline review of requirements, both for civil support--
whether the missions of those units are going to change, how 
much equipment is not going to come back--so we don't spend 
money that doesn't need to be spent.
    Whatever we spend to beef up the Guard and Reserve, the 
differential is still going to be very economical, compared to 
putting that same capability in the Active component. The 
Active-component personnel costs have doubled in the last 5 
years. The Guard and Reserve have trended up slightly, but 
nowhere near as much. We still believe getting some of these 
capabilities, particularly for the Homeland, and particularly 
the insurance policy to augment overseas, is still a bargain 
for the taxpayer.
    Senator Byrd. General Punaro, thank you.
    My time has expired, I am informed.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Byrd, very much.
    Before I call on Senator Collins--she's been yielded to by 
Senator Warner, and is always gracious--let me welcome Senator 
Wicker.
    We gave you a welcome yesterday, in your absence. We noted 
why you could not make it--although you were looking forward to 
it and we were looking forward to greeting you--because of the 
tornados, which totally disrupted your travel. But, we just 
want to give you a welcome, on behalf of the committee. All 
members of this committee have come to know you, and we look 
forward to serving with you.
    Senator Collins.
    Senator Collins. Thank you.
    Senator Warner, thank you so much for graciously allowing 
me to precede you.
    As I was listening to the excellent presentations of the 
members of this panel, I was reminded, very quickly, of the in-
depth investigation that our Homeland Security and Governmental 
Affairs Committee did into the failed response to Hurricane 
Katrina. Indeed, two of the staff members of the Commission 
came from the committee and brought with them a great deal of 
expertise in this area.
    The unity-of-command issues were very present in the 
response to Hurricane Katrina. I remember talking to the head 
of NORTHCOM at that time and discovering how little visibility 
he had into what the National Guard was doing throughout the 
Gulf Coast region. In fact, the Active Duty troops, in some 
cases, were unaware of the presence of National Guard units 
from other States who had come to respond.
    Major General Stump, I think you are right on the money on 
the unity-of-command issues, and the fact that those interfered 
with an effective response. I'm not sure I agree with the 
proposed solution of bringing those troops under the control of 
the Governor, but, certainly, you've identified a very real 
problem that hampered an effective response to Hurricane 
Katrina.
    The response to Hurricane Katrina is important, not just 
because it was a catastrophic natural disaster, but because the 
same kinds of capabilities and responses are going to be 
required in the event of a terrorist attack. That's why I think 
the work you're doing is so vital.
    This past July, at a hearing before our Homeland Security 
and Governmental Affairs Committee, General Blum and the Maine 
Adjutant General, Major General John W. Libby, both said that 
the current state of National Guard equipment and overall 
readiness would severely hamper the ability of States to 
quickly and effectively respond to a catastrophic natural 
disaster or a terrorist attack. They felt confident that they 
could handle the run-of-the-mill natural disaster, but we're 
talking about a catastrophic event.
    I noted that, in testimony before your Commission last 
year, General Blum stated that 88 percent of the forces that 
come back from Iraq, that are members of units from the Army 
National Guard, are very poorly equipped. Those are his words.
    The GAO, last year, released a report that found that most 
National Guard leaders express concerns about having sufficient 
equipment to respond to a large-scale disaster.
    In our hearing, General Libby, the Maine Adjutant General, 
said that he was confident that he could speak for virtually 
the other 53 States and territories in saying that, ``We are 
not prepared to deal with those type of catastrophic events.''
    I believe that your conclusion that there's an appalling 
gap in readiness is well substantiated by the evidence that you 
heard, and the testimony before our committee, and our 
committee's investigation into the response to Hurricane 
Katrina. But, as you're well aware, the Pentagon has been very 
aggressive in public press conferences in disputing that. In 
particular, Secretary Paul McHale, Assistant Secretary of 
Defense for Homeland Defense and America's Security Affairs, 
has pointed to the 53 certified Civil Support Teams within the 
National Guard as evidence of the ability to deal with 
catastrophic responses.
    I would like to hear your response to the Pentagon's 
rebuttal to what I believe is very convincing and compelling 
evidence that, in fact, we are not prepared. I don't know 
whether to start with Major General Stump or with the chairman. 
Major General Punaro?
    General Punaro. Why don't we have General Stump start 
first, and then I'll give you our overall Commission 
perspective on it.
    Senator Collins. Thank you.
    General Stump?
    General Stump. I would be very happy to handle that.
    Yes, there are 53 Civil Support Teams. These support teams 
only have 22 personnel on them, and they are there just to 
identify what sort of chemical, biological, or other substances 
might be present. They don't have an ability to do the things 
like search and extraction, decontamination, medical, command 
and control--they have none of those resources.
    Now, the National Guard, with their chemical, biological, 
radiological, nuclear, and high-yield exposives (CBRNE) 
Enhanced Response Force Packages that they have set up--and 
Congress gave them some funding for additional equipment--can 
handle small responses. But, when you have a major disaster 
response, like a chemical, biological, or nuclear attack that 
takes out everything, the National Guard, the city and State 
governments, are not going to be able to handle those. I think 
NORTHCOM understands that this is a problem, that there is a 
gap in filling those particular missions, and have identified 
these CBRNE Consequence Management Response Forces, as they're 
called, which would be large units, 5,000 to 10,000 people in 
these units, that would come--would address these issues. Now, 
those have been identified, but not resourced or funded. We 
stand behind our recommendation that we're not ready to handle 
those particular responses.
    I'm glad to hear that you agree with our finding on the 
unity of command. I still believe that there is no problem with 
cutting forces for a particular emergency, like Hurricane 
Katrina, for a 1- to 2-week period. The Active Duty was not 
there more than 7 to 10 days, I believe, and the rest of the 
time, the National Guard was there for unity of command, so 
everybody knew what was going on. I believe command should be 
able to go to the Governor, because every single response that 
we have is going to start with the National Guard. It doesn't 
matter what the government or anybody says, that's just the way 
it is. The Governors say, ``When something goes wrong, I want 
my National Guard there to handle the situation.''
    Now, in a small disaster--and Hurricane Katrina was a 
relatively small event, nothing like what would happen with a 
nuclear disaster--and the Governors know when they're out of 
Schlitz. We have State pacts that are effective between the 
States, and a Governor can go to the National Guard Forces 
within four or five State regions, and that's what the 
Governors do--even before they call on the Federal response 
forces--because they would rather have National Guard Forces 
which come from another State under their command and control 
than bring the Active Duty in and have somebody come in and 
say, ``Okay, now we're in charge.'' So, I think the answer is, 
having these particular Active-Duty Forces chopped to the 
command and control under the Governor to these dual-hatted 
people who have been trained to do that, is an effective 
solution.
    General Punaro. Senator Collins, there are two 
deficiencies. I think it's really a matter of perspective. We 
made the point, we're really looking at where we need to go, 
not how far we've come. We'd like to give great credit to DOD 
for what they've done and the changes they've made and the 
improvements they've made since September 11. Secretary 
McHale--I have tremendous respect for him--he served as my 
regimental commander when I was commanding general of the 4th 
Marine Division. He's as hard a charger, go-to-the-sounds-of-
the-guns person you'd find. But, all the great improvements 
that have occurred, if you look at these catastrophic 
scenarios, we have an extremely long way to go. We need to go 
ahead and, as General Stump said, we haven't put resources 
against those high-end capabilities. So, that's a gap and a 
deficiency that we believe should be filled to reduce this risk 
and to reduce the gap.
    The second thing is, on the command and control, take out 
the command and, who's going to be in charge. Forget about 
whether it's the Governor or it's an Active Duty commander. The 
key in this area--and your committee and this committee has 
pointed it out--is deliberate planning. It's basically getting 
ready ahead of time. It's coordination. It's training. It's 
DHS, NORTHCOM, the National Guard, and the State and local 
governments all working together. This is why we emphasizes so 
strongly that NORTHCOM should put as much energy and effort 
into developing the contingency plans for the homeland 
scenarios, particularly the high-end ones, that the Pacific 
Command does for the defense of the Korean Peninsula. General 
Stump and I had units that were in the war plans for the 
defense of the Korean Peninsula. Every unit knows who they are, 
where they are, what equipment to bring, when to show up at the 
deployment station, et cetera, et cetera. For these high-end 
catastrophics, you need those same kind of contingency plans 
here in the United States. You work all this stuff out in 
advance. Then, frankly, it probably doesn't really matter who's 
in charge, because it's all figured out in advance.
    GAO, which was a tremendous help to our Commission 
throughout, has two reports, they're getting ready to issue 
over the next couple of months, that talk about NORTHCOM's 
current situation, in terms of working with the States and the 
Adjutants General to do this kind of advanced planning, and 
also, they have a report coming out, talking about NORTHCOM's 
work with the interagency. I am very confident that they're 
going to support the conclusions that we have made in this 
area.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I want to just pick up, General Punaro, on Senator Collin's 
questioning. You state, and I quote, ``It doesn't matter who is 
in charge. It will all have been worked out in prior 
training.''
    Now, as a military man, you have to have an on-scene 
commander. Everybody has to know that individual is the boss, 
and you have to follow his instructions. I cannot take your 
oral statement, just now, that it doesn't matter who's in 
charge, and work it out against the military that you and I 
have been trained by for many years.
    General Punaro. Senator Warner, you're absolutely right, 
that was not what I intended to convey. I was saying that, for 
the purposes of discussion, to address Senator Collins's issue, 
that the deliberate planning phase and the coordination phase 
is extremely important, and, as part of that, you could have 
agreements as to who's in charge doing the initial phases, 
who's in charge in the intermediate phases, who's in charge in 
the latter phases. You can work these protocols out in advance.
    But, you're absolutely correct, there has to be one person 
in charge, and right now the Federal Government would take on 
that role, in most situations of this nature, as it's going to 
escalate very quickly. However, we argue, in the Commission, 
that we have these dual-capable commands, we have these 
National Guard personnel that are trained to also be in command 
of Active-Duty Forces. So you could have a situation where a 
certified dual-force commander could be the person initially in 
charge on the scene, and, if it had to be handed off to another 
commander, it could be.
    You're absolutely right, Senator Warner. That's the problem 
that we saw in Hurricane Katrina. Everybody was in charge, and 
nobody was in charge, and you can't have that situation in one 
of these catastrophic scenarios.
    Senator Warner. Since Hurricane Katrina, have we advanced, 
in our planning, to where we know what's going to happen now? 
Now, you have to add that a lot of these natural disasters can 
be multi-State situations, and we can't have three Governors 
sitting down, trying to figure out who's going to run the 
situation. It has to be a clear, predetermined, established 
chain of command.
    General Punaro. Senator Warner, I'd like General Stump to 
jump in, here. But, I would say, we have not advanced as far in 
that area as we need to.
    Senator Warner. We as a Nation?
    General Punaro. We, as a Nation, have not sorted out this 
``who's in charge'' issue.
    Senator Warner. All right.
    Now, General Stump--and, first, I must say, I'm quite 
impressed with your testimony and delivery. It's obvious that 
you were carefully selected by the chairman. You all have a 
common affinity with Michigan. [Laughter.]
    But, quite apart from that nepotism, you've held up here on 
your own very well. [Laughter.]
    General Stump. Thank you, sir.
    When you have a catastrophic event, one which takes out all 
of State government, or much of State government, and you have 
mass casualties, obviously DOD and the Active Duty will be in 
charge. It will be a transition----
    Senator Warner. Start right there. You have to determine 
whether or not, in fact, it has been taken out.
    General Stump. That's true.
    Senator Warner. Just look at these pictures, this morning, 
of these tragic tornadoes and so forth just took out and 
there's always the one house left standing, so there may be 
some elements of the State government standing, even though the 
Capitol went down. I can't buy that. I have to figure out what 
we, Congress, has to do with our several sovereign States to 
sort this thing out. I'm thinking of it as a community that's 
hit by a biological weapon, and you suddenly need about 5,000 
hospital beds. You and I know, only Uncle Sam can deliver that. 
Once Uncle Sam is involved, they're going to turn to the 
military to do that delivery of that quantum of beds, medical 
physicians, and doctors to come in and help these poor people.
    So, let's figure out--you tell us what to do; as a 
Congress, there's a good chance we're going to try and do it. 
We have the ranking member of the Homeland Security and 
Governmental Affairs Committee right here, and I'm one of her 
subordinates down in the ranks of that committee, and I'm sure 
you're going to go to work on this.
    General Stump. If that were to happen, as I indicated 
before, the very first response would come from the State, the 
local police, the local firefighters, and the National Guard, 
because the Governor is going to say, ``Now, wait a minute. I 
have been overwhelmed.''
    Senator Warner. Correct.
    General Stump. The National Guard will quickly determine 
that, ``Not only is this something that the State can't handle, 
this is also something that we can't handle, either.''
    Senator Warner. All right.
    General Stump. Now a response will go to NORTHCOM and to 
the President, that, ``We need massive help from the Active 
Duty component.''
    Senator Warner. Right.
    General Stump. At that point in time, when those people 
show up, the transfer command would go to the Active Duty 
people to be in command and control, because they would have 
the majority of the forces there, and they would be conducting 
the operations.
    That scenario that we're talking about now is going to be 1 
to 2 or 3 to 5 percent of what's really going to happen in the 
future. Most of the time, we have scenarios, such as the World 
Trade Center or Hurricane Katrina, where it can be handled on 
the local level, with a little bit of help. But, when you get 
to the catastrophic events, as you have just described, it's 
obvious that the Federal Government will have to be in control, 
because they will have the majority of the forces, and I'm sure 
that there will be no problem with the Governors yielding to 
their control. But, again, it's dependent upon what that 
disaster in the scenario is.
    General Punaro. Senator Warner, our point is, the bulk of 
the forces that respond--perhaps the Active Duty Commander is 
part of Joint Task Force Civil Support, which is NORTHCOM's 
standing task force to roll in with command and control--should 
be Guard and Reserve units, because they're already going to be 
there. So, again, these things can be planned, coordinated, and 
worked out in advance. The military has extensive procedures 
for transferring commands--phase lines and demarcation lines. 
They know how to do this. The problem is, nobody has sat down 
and sorted it all out.
    Senator Warner. Now, wait a minute, you say, ``Nobody has 
sat down and sorted it all out.'' I gained the impression from 
General Stump that it had been sorted.
    General Punaro. I think what I heard General Stump say is 
that, that's his view of how it ought to happen; it doesn't 
mean that's been worked out that it will happen.
    Senator Warner. General, help me out, here.
    General Stump. Yes. What I'm saying is, that's the way, in 
my opinion, it will happen.
    Senator Warner. Oh.
    General Stump. But have we set down a program and a plan to 
do that? No.
    Senator Warner. Okay. Well, we'd better get on with it.
    General Stump. Amen.
    Senator Warner. We have to empower this Commission to stay 
and----[Laughter.]
    General Punaro. That's a negative, Mr. Chairman. 
[Laughter.]
    General Stump. We've been here 2\1/2\ years, sir. 
[Laughter.]
    Senator Warner. You've done a commendable job.
    Now look here, I have behind me, all of these well-trained 
officers of the United States military, and we're having a 
little discussion, back here, and they've written out this 
rather complicated observation, in longhand, addressed to the 
role of the Governors, ``You''--that's the Punaro Commission 
here--``have recommended that the Governors receive operational 
control of Active-Duty Forces under certain circumstances. This 
is different from command.''--which those of us in the military 
understand--``Please discuss the recommendation and distinguish 
between the two concepts.''
    Now, the reality is, when one of these tragic situations 
hit, nobody has time to sit down and debate whether we're 
dealing with operational control or command. Now, we have to 
bring total clarity to this situation so that well-intentioned 
people can handle this situation, and we don't watch the 
television of a Governor barking at a two-star or three-star 
general out of NORTHCOM and saying--well, let's drop it there.
    General Punaro. Senator Warner, you're absolutely correct, 
we don't want a pickup game. After my many years of service on 
the Armed Services Committee, I'm not bold enough to go up 
against the esteemed staff directors and general counsels, 
particularly someone that has a lot more understanding of the 
law than I do. So I'm going to throw this one over to General 
Stump because he has the day-to-day practical experience of how 
this actually should work.
    General Stump. What we're saying is that the operational 
control--that if you have title 10 forces that are there for, 
say, Hurricane Katrina, that the Governor or the commander or 
the Adjutant General or the dual-hatted person would exercise 
operational control, assign missions so that they are 
coordinated with what the National Guard is doing, and they're 
coordinated with what the Active Duty is doing, et cetera. 
Command--one of the definitions of ``command'' would be that 
the disciplinary----
    Senator Warner. Execution.
    General Stump. --those types of things--if there were a 
problem with a court-martial or something, that would remain 
under the control of the title 10 Active Duty chain of command, 
but the operations of these forces, what work they are actually 
doing, would come under the operational control of that person 
who is in charge of that particular incident.
    Senator Warner. But your bottom line is, this has to be 
fixed. It is not clear now.
    General Stump. Yes, sir, we agree, 100 percent on that.
    Senator Warner. All right. We agree on that.
    General Stump. That's what the Commission recommends.
    Senator Warner. Now, at this point, Mr. Chairman, I think I 
would like to put into the record NORTHCOM's rather strong 
criticism of your work. This is beginning to build up our 
record here, but I think that's important.
    Chairman Levin. This will be made part of the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Warner. General Punaro and valued friends on this 
Commission, I think you've done a wonderful job. The Commission 
is not worth its salt much if it didn't stir up some sort of 
controversy. But, somehow, in my preliminary visits with you 
prior to the public issuance of the report, I specifically 
asked of you, informally, just conversationally, how has this 
checked out with DOD and the Reserve and Guard Bureau? I 
somehow got the assurance that things were in pretty good 
shape. Then we hit a small volcano when this situation rolled 
out into the public view.
    General Punaro. Senator Warner, we had extensive 
coordination and consultation, not only with DOD, but with the 
relevant congressional committees, with stakeholders outside of 
government. We felt, from day one, it was very important to be 
as transparent as possible. We worked very directly with the 
Reserve component chiefs. During the course of those extensive 
consultations, particularly as we got close to sending the 
report to the printer for the final time, we made the rounds in 
DOD, including some of the senior people that are responsible 
for these areas. I would say, based on those consultations, 
we're surprised at those comments. We think some of those 
comments are not accurate, but we are as surprised as you are, 
based on our extensive round of consultations. We didn't hold 
anything back.
    Senator Warner. My time has expired.
    But, what I would suggest, Mr. Chairman, is that we invite 
the Commission, before it expires.
    When do you expire?
    Chairman Levin. As soon as possible. [Laughter.]
    General Punaro. As soon as possible, but, legally, the end 
of April.
    Senator Warner. I would suggest, Mr. Chairman, that we 
extend an invitation for them to put in, as we say in the law, 
a surrebuttal, which means you'll have the opportunity to 
comment upon the criticism that, thus far, has been directed to 
you.
    General Punaro. Thank you very much. We'd appreciate that. 
Again, I believe the GAO reports that come out, here in the 
next couple of months, are going to back us up pretty well on 
our observations on NORTHCOM.
    Senator Warner. Again, we're in an area where there are 
honest differences of opinion by people who are tremendous 
conscientious public servants. But, we have to make sure that, 
at some point time, General Stump writes the committee, ``I am 
now satisfied that this matter has been clarified.'' 
[Laughter.]
    General Punaro. Again, Senator Warner, we want to give 
NORTHCOM tremendous credit for what they've done since they've 
been stood up. We're looking forward, we're not looking 
backwards.
    Senator Warner. We're figuring out the roadmap forward.
    Thank you, Mr. Chairman.
    Chairman Levin. Speaking of coordination--according to my 
BlackBerry, the U.S. Capitol Police are assisting Amtrak Police 
and the D.C. Fire Department with a train accident at Union 
Station. I'm not sure how that directly applies to this 
discussion, but it does talk about, at least, coordination.
    Senator Warner. Do you think the Senate will stop doing its 
business and all flee down there to help?
    Chairman Levin. I hope not.
    Senator Thune, I guess we'll call on you next.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you very much to the panel for being here. Thank you 
for over 2 years of very hard work on this Commission and a 
report that, I'm sure, will, in your words, generate lively 
debate--I'm sure it already has today. But, I fully understand 
the strain that's placed on our Guard and Reserve Forces since 
September 11th, as the men and women of South Dakota's Guard 
units have been extremely busy around the world. Since that 
event, our men and women have been deployed to 36 countries on 
6 different continents. Over 94 percent of South Dakota's Army 
Guard personnel have deployed, and 75 percent of its Air 
National Guard units. In fact, the first company of the 189th 
Aviation Regiment and Black Hawk unit is on its fourth 
deployment since 2001. I'm proud to report that South Dakota is 
full of young and not-so-young patriots that have answered that 
call to duty, and, despite everything we've asked of them, they 
continue to answer the call. In fact, per capita, South Dakota 
ranks in the top 10 States in the number of total deployed 
servicemembers, and is within the top 5 States for recruiting 
and retention.
    I would also like to single out our South Dakota employers 
for recognition, who do an outstanding job of supporting our 
Guard and Reserve during deployments that present many 
difficulties within our communities. These fine people are our 
greatest resource. Therefore, I will focus my questions on the 
three components to keeping these personnel in the Service--the 
members, their families, and their employers.
    Our defense budget is already under immense strain, and 
many priorities are competing for a limited amount of 
resources; and, more and more, we're having to look for cost-
effective ways to implement important policy. I would open with 
this question, to anyone on the panel who would care to answer, 
and that is, in your view, what retention policies do you see 
that would be most efficient, in terms of our use of money? In 
other words, where do we get the most effect per dollar spent?
    Ms. Lewis. Thank you, Senator Thune.
    Creation and support of an Operational Reserve require some 
fundamental changes to our personnel policies and programs. We 
have taken some ideas that have been developed by DOD over 
time, and projected what the potential workforce of the future 
would look like and what would appeal to that generation of 
workers. We have determined that some significant personnel 
management changes need to occur.
    In that regard, our first would be a promotion system based 
on competency rather than time in grade. Our second is an 
integrated compensation system--the same system for the Active 
and Reserve component--and an integrated retirement system.
    Now, changes of this magnitude carry significant risk, and 
our people are our most valuable source, and we understand 
that. So, in these far-reaching proposals that we have 
suggested, for example, in retirement, we propose earlier a 10-
year vesting period, a matched government contribution to a 
Thrift Savings Fund, bonuses at key gates in one's career, to 
encourage retention. Those are significant changes, and that 
sort of change in the retirement system may have significant 
merit, or may not appeal to some specialties within our 
military departments; for example, potentially, combat arms.
    We would propose a transition period, where a new system 
would be offered. The old system would still be in place. We 
could assess the level of interest in a more portable, flexible 
benefit package. If that's something that seems, as we believe 
it would, to be appealing to the force of the future, we 
recommend something of that nature.
    Certainly, the competency-based promotion system is also a 
very significant change, but we feel that there would be 
opportunities to retain people with a great deal of experience 
at a certain level. They're happy functioning at that level, 
don't need to move higher through the system, but we could 
value that experience, and reward it with that sort of system.
    I know that's not a real specific answer, but our changes 
are something that are rather dramatic, over a period of time, 
to support a very different force of the future.
    General Punaro. Could I add, sir, that there are some 
short-term incentives, as well. We recommend some enhanced 
benefits in the medical readiness, the dental readiness, travel 
reimbursement, beefing up the GI Bill and educational benefits. 
There are seven or eight short-term benefits that you could 
apply to the Force today while you deliberate on these longer-
term changes that will be required if you're going to retain, 
over the long term, of the Operational Guard and Reserve.
    I would like to also say we have benefited from South 
Dakota on our Commission, because our deputy general counsel, 
Colonel Tony Sanchez, USARNG, comes from the South Dakota Army 
Guard. He's a terrific guardsman, he's a super counsel, very 
knowledgeable, and we really appreciated South Dakota's Guard 
lending him to us for these past 2 years.
    Senator Thune. Thank you. We do what we can to help.
    I also was heartened to see one of your recommendations as 
easy and cost-effective to implement, such as the Web site that 
would give one-stop shopping to families for information on 
TRICARE and other complex programs. I guess, in the same vein, 
I would just ask a general question with regard to what 
policies you see as the most cost-effective ways to increase 
the way that we care for the families of members of the Guard?
    Ms. Lewis. Yes, sir. Guard families have particular needs, 
as many don't live near military bases and don't have the 
support structure that the Active component does. They also 
face the challenge of becoming suddenly military when a member 
is activated, and their family does not have the same support 
infrastructure. So, they do have unique issues.
    We recommend enhancement of the current system. We 
recognize Military OneSource is a valuable Web-based 
information source, but we think that there needs to be 
additional information provided to those family members about 
the programs that are available to assist them. We also propose 
more funded support for full-time support, at the unit level, 
for families, and a stronger role for the families in 
mobilization and demobilization initiatives.
    Would you like me to address employers, as well?
    Senator Thune. That would be great, if you could.
    Ms. Lewis. We recommended an enhanced role and additional 
resources for the National Committee for Employer Support of 
the Guard and Reserve. We elevate the access of employers by 
development of a council that would have direct access to 
senior leadership in DOD to convey employer issues. We 
recommend a one-stop-shopping point for information on 
government laws and programs that impact employers.
    We recognize they're a full partner in supporting our 
Reserve component members. We've looked at some particular 
initiatives--I would suggest, the healthcare initiatives, with 
the stipend. We recognize that employer benefits are costly, 
and, if there are ways that we can partner with the employer 
community to provide ongoing care for servicemembers' families, 
that may be a positive initiative that would assist them, as 
well.
    Senator Thune. Thank you, Ms. Lewis.
    One final question. It appears, evidently, my time is up. 
But, I would direct this to General Punaro. As the ranking 
member of the Senate Armed Services Readiness and Management 
Support Subcommittee, I was a little shocked to read your 
assertion, that 88 percent or worse of the Army National Guard 
combat forces here in the United States were not ready. I'm 
wondering what DOD says about this. Do they agree with your 
figures? What is the major problem here? Is that equipment? Is 
it training? Is it personnel? If you could, just, maybe hone in 
on that a little bit.
    General Punaro. That is General Blum's figure. We verified 
it with the Guard Bureau right before we went to final print. I 
don't believe that one would be in dispute. It shouldn't really 
be surprising, because, as General Casey, the Chief of Staff of 
the Army, has said, we're consuming our readiness as fast as we 
can build it. So, when we reported last year in March that it 
was 88 percent not combat ready, those are the units that are 
back here at home, not the ones that are getting ready to 
deploy or are deployed. It's a tad worse right now, at this 
point, for those units. It's mainly due to their heavy 
formations, and a combination of the three major elements of 
readiness. It's personnel availability, as well as personnel 
skills, it's equipment availability, as well as equipment on 
hand, and it's also training.
    This, I don't think, is a figure that's in dispute or in 
contention. Admiral Mullen, I believe, testified about this 
before the committee yesterday--understandable, given the 
treadmill that these units have been on. Obviously, for an 
Operational Guard and Reserve, you have to have a much 
different system of funding and prioritization if you're going 
to have these units that are continuing to be used, more ready 
than they are under the kind of old system.
    Senator Thune. Thank you all, again, very much for your 
good work, and I'm glad that Tony Sanchez could contribute to 
your efforts. Thank you all.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Welcome, to our panel and the commissioners, who have 
worked so hard and finally reported out in March last year, and 
have come forth with six major conclusions and with a little 
less than 100 recommendations--94, I think it was, that you 
finally reported out.
    It is good to know that you were working hard to try to set 
up an operational group for the 21st century, which includes 
the National Guard and the Reserves. I want to say all of this 
just to thank you for your work and what you've done, in doing 
that.
    General Punaro, it is critical--and I'm thinking about the 
adequate defense of the homeland areas--that we maintain the 
readiness of our Nation's Guard and Reserve assets in order to 
ensure adequate homeland protection and response in the event 
of an attack or natural disaster. I understand that the 
Commission's conclusion was that this capability for our 
Reserve Forces has been degraded, due to current operational 
demands. In my home State of Hawaii, maintaining this 
capability is a particular concern, due to the, of course, 
unique geography and time required to supply reinforcements, 
should a National Guard lack the resources or personnel needed 
in case of an emergency or natural disaster there.
    Assuming an inability, in the short term, to address some 
of the more complicated changes the Commission proposes to 
address the broad challenges facing the Guard and Reserves, my 
question to you is: What immediate actions need to be taken to 
ensure that a gap in protection of American lives and property 
in the Homeland does not exist?
    General Punaro. Senator, we think the most immediate thing 
is a recognition of the high priority that the homeland 
missions should receive, and, therefore, strong DOD support. I 
would say, Secretary Gates has directed DOD to give these civil 
support requirements a much higher priority than they had in 
the past. So, the Secretary of Defense, in my judgment, has 
taken a very decisive step, after our report last March, to 
say, ``These things need to be given a higher priority.'' That 
means, if they have a higher priority in DOD, they will have a 
higher priority for funding and resourcing. For example, right 
now the Hawaii Guard has only 38 percent of its critical dual-
use equipment that it would need for a homeland situation. But, 
in the long-term, Congress is going to need to speak, 
statutorily, that these types of missions need to be given 
equal priority to the overseas missions. That's the way it's 
going to play out.
    Right now, because everybody is so operationally busy, it's 
hard to get these units back up to speed, because we're kind of 
on a treadmill. But, I think it really relates back to DOD 
recognizing that these missions at home need to enjoy a much 
higher priority now than they have in the past. Again, I 
believe Secretary Gates--he'll obviously have to speak for 
himself, because wording is very important here, and the 
counsels would want these things said in very precise terms, so 
we're not creating too broad a mission for DOD. But, in simple 
terms, the civil support requirements have to be generated by 
DHS. DOD needs to take them, working with NORTHCOM, and working 
with the Guard Bureau, and make a determination, which of those 
are valid for DOD. The ones that are valid, then, need to be 
put into DOD's resourcing process, and then, that's how they're 
going to get funded and that's how the readiness is going to 
improve.
    Senator Akaka. Let me further ask: Would you think that 
greater integration and collaboration of local and State law 
enforcement with DHS would help to address any short-term 
resource mismatch until DOD can assume a greater role?
    General Punaro. Senator, we think that's essential, and 
that's one of the key reasons why DHS has to be the lead, and 
they need to look at these scenarios and say, ``Okay, here's 
one for the Justice Department, here's one for the Department 
of Health and Human Services, here's one for the Agriculture 
Department.'' The answer to everything is not DOD. So, again, 
we emphasize this increased coordination and planning of 
everyone involved. Again, that's the role of DHS, and we are 
not that encouraged that they are moving out as quickly as they 
need to be in playing that role of pulling everybody together 
and making sure all the assets are available. This is why we 
argue that Guard and Reserve units, particularly the title 10 
Reserve units--if you have, for example--I don't know what 
happened, in terms of a response in Tennessee, but I know, from 
personal experience--I guarantee you there are title 10 Reserve 
Forces whose personnel have come to the fray and helped out in 
these devastating tornados that have happened down in 
Tennessee--I guarantee you--because it's the way it happens all 
the time. When the Amtrak train went off the trestle in Mobile, 
AL, and went into the water, the 3rd Force Reconnaissance 
Company of the United States Marine Corps' 4th Marine Division, 
a Reserve Division, they had the rubber raiding rafts, they had 
the scuba gear, they were the first people on the scene, they 
were the first responders. They are our title 10 force.
    The American citizens, they don't care whether it's Active 
Duty, National Guard, Reserve, State police, local police, 
Federal police. The taxpayers are paying for every single bit 
of this capability. Our Nation owes it to our taxpayers to get 
all this coordinated and allow all this capability to be 
brought to bear in these domestic contingency situations, not 
just DOD.
    We would agree with you wholeheartedly on that.
    Senator Akaka. Thank you.
    General Punaro, as we speak about NORTHCOM and the troops 
that would be assigned to that, one of the recommendations of 
the Commission is to substantially increase the number of Guard 
and Reserve billets at NORTHCOM, which has primary 
responsibility for, of course, defense of North America. By 
virtue of their familiarity with local communities, and 
combined with the cost of mobilization and--this seems to make 
them, really, the most of our personnel. My question to you is: 
What is the biggest obstacle in current DOD personnel 
management and staffing practices to achieving this desired 
status in the command?
    General Punaro. That is really a tough question. I want to 
be very careful in the way I answer it, because the people at 
NORTHCOM, I guarantee you that most of them are Active Duty 
personnel. That command really grew out of the old command that 
had the North American Aerospace Defense Command mission--and 
they get up, they come to work every day dedicated to the 
security of this Nation and put in long, long hours making sure 
they do everything they can to improve the situation. That's 
not in question.
    The issue really is the experience, training, and culture. 
For example, Lieutenant General Blum, who's the head of the 
Guard Bureau, everybody knows to be a very dynamic leader, a 
warrior. He's led in combat, he's led in peacetime. He 
understands civil support, and he understands how to get 55,000 
Guard personnel to the Gulf Coast, in Katrina. That didn't come 
through NORTHCOM, that came out of the Guard Bureau.
    No one in their right mind would put General Blum in charge 
of a nuclear carrier battle group, because while he's a great 
three-star general, he has no training, no experience, no frame 
of reference.
    Our thought is--NORTHCOM is a specialized command. It is a 
command that is focused on a very complex, very difficult 
mission, which is protecting the Homeland, particularly in 
scenarios that require interface with State and local 
government, with law enforcement, with first responders. Active 
Duty military personnel do not have the background and 
experience, they haven't worked in that system, they don't know 
what they don't know. But Guard and Reserve personnel, they do 
this every single day. They are the emergency managers in the 
State. They are the hazardous-material coordinators in a local 
community. Therefore, it would make sense for NORTHCOM to have 
a lot more personnel like that on the staff in key roles.
    They are looking at that, but the preliminary decisions 
that we understand are going to be made don't get them anywhere 
close to having the number of people they need, with the kind 
of experiences they need, to basically shift the culture and 
experience base of that command.
    That's not a negative comment on the incredibly dedicated 
professional personnel and the commander that's working there 
every day. Again, we would not put General Blum in charge of a 
carrier battle group. We need to put the people in these 
billets that have the years and years and years of training, 
experience, and ability to handle these new daunting missions.
    Senator Akaka. Thank you. Thank you very much, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Akaka.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman. Thank you for your 
kind words of welcome, both yesterday and this morning. I 
appreciate the opportunity of serving with you, and I thank the 
members of the panel for their testimony.
    I do find it interesting that the Commission was surprised 
at the degree of criticism that met the report. From some 
quarters, you would almost characterize it as a firestorm. I 
take it that the recommendation, General Punaro, was unanimous. 
Was it a unanimous recommendation of the Commission?
    General Punaro. The ones that have drawn the criticism were 
unanimous. Over a 2-year period, we made 118 recommendations; 
117 of those recommendations were totally unanimous; and the 1 
to have the directors of the Air Guard and the Air Reserve be 
dual-hatted, both under the Chief of the National Guard Bureau 
and the military departments, not one that we've heard a lot of 
talk about yet, we had a dissent on that by one commissioner 
who has very, very good arguments against it, but the rest of 
the Commission supported it.
    Our report really is, in effect, totally unanimous, and on 
the ones that we've heard some criticism about--for example, 
saying that the Commission is recommending turning the National 
Guard into a domestic response force only, we were quite 
surprised at that criticism, because, as General Stump, a 
member of the Air National Guard and an Adjutant General, said, 
that's just absolutely not the case. So, that one was a very 
surprising comment to us.
    Again, on the core ones, of creating an Operational 
Reserve, enhancing DOD's role in the Homeland, the one that 
Senator Collins identified, that we say it's an appalling gap 
in our preparation for catastrophic, those were not only 
unanimous, they were ones that we sat down and thought about, 
long and hard, and debated, long and hard, and said, ``We want 
to make sure that we can back up those comments.''
    Again, the extensive consultations that we had, 
particularly with the people that are responsible for some of 
these areas, some of the comments surprised us.
    I will say that we were very encouraged by Secretary Gates' 
comments, before this Commission and before the House Armed 
Services Committee, where he said, ``DOD has an open mind, 
going to take a hard look at it,'' his comments, yesterday, did 
not reflect some of the initial statements made by some DOD 
spokesmen, who, perhaps, did not have a lot of time to read the 
details.
    Senator Wicker. For example, Assistant Secretary of Defense 
for Homeland Defense, Paul McHale, says that, ``This is sharply 
at odds with the position we have taken in our strategy for 
homeland defense and civil support, and that what the 
Commission is recommending is that the National Guard become a 
domestic disaster-response capability, exclusively. We think 
that's wrong.''
    Do I understand that you, also, would think that is wrong, 
and your response is that that is, in fact, not the substance 
of the recommendations?
    General Punaro. If that is, in fact, what our 
recommendations were, which they absolutely, totally aren't, we 
would certainly make the same criticisms of our report that 
Secretary McHale did. But, that's just as General Stump 
explained earlier, and so, I'm going to ask him to respond.
    Senator Wicker. Okay. I think you've given me the answer. 
I'm very much limited in time.
    General Punaro. Okay.
    Senator Wicker. If General Stump would like to add to that 
for the record, he can.
    General Blum has been mentioned several times in testimony 
this morning. At this particular press conference, he was 
standing right next to Secretary McHale and said that if the 
recommendations were followed, ``We would unhinge the Volunteer 
Force, and we would break the Total Force.''
    Let me just ask you--I served 4 years Active Duty in the 
United States Air Force. I was a judge advocate, and I can 
assure the members of the panel I didn't do anything special. 
After that, I transferred directly into the Reserve, and 
retired, eventually, at the rank of Lieutenant Colonel. As I 
say, I was not a hero, in any sense, but I did have a chance to 
observe a lot. I was able to serve on Active Duty at an 
operational base. I was able to serve at a headquarters-type 
level, and then to serve for quite a while at a training base. 
During that time, I saw the development of this concept of 
Total Force, which seemed to me to be an excellent move.
    What is your understanding of the concept, General, of 
Total Force? What would be your response to this quote from the 
press, which may or may not be an accurate quote, from General 
Blum that we would ``break the Total Force''?
    General Punaro. I was not aware of that quote from General 
Blum, and I hope it was misquoted, because, if it wasn't 
misquoted, it would be at significant variance from General 
Blum's own testimony before our Commission.
    Senator Wicker. You support the concept of Total Force?
    General Punaro. Absolutely.
    Senator Wicker. You think, under the recommendation, that 
you would go forward?
    General Punaro. We take the Total Force concept to its next 
level, we're arguing for greater integration. I was there in 
the Reserve when the Total Force concept was developed by 
Melvin Laird, and it said that what we're going to do is, when 
we have a requirement, we're going to look to see which part of 
our force--Active, Guard, Reserve, IRR--can best fulfill those 
missions and would be most economical for the taxpayer, and we 
need to be more integrated. So over the continuum since then, 
we've become more and more integrated. We believe we need to 
take it to the next step. We believe you need a totally 
integrated and interchangeable Active and Reserve component. 
Use those parts that make the most sense for that particular 
mission, take into mind the fact that the Guard and Reserve may 
be more economical for certain missions than the Active 
component, and have the ability for an Active-Duty Force 
commander to surge up and down.
    I would say that no one is a greater adherent to the 
concept of Total Force than the members of the Commission. 
Again, I did not know General Blum made that comment, and I 
would hesitate to offer, but I certainly, if asked, could 
produce a lot of quotes from General Blum, not only in public, 
but in private, that I believe would be at significant variance 
with that comment, if it's accurate.
    Senator Wicker. Thank you.
    If I may have time for one more question, Mr. Chairman.
    Someone in the panel, if you would, describe your 
deliberation process as far as the recommendation with regard 
to the health benefits program, and, specifically, the 
recommendation, as I understand it, that we move to a Federal 
Employees Health Benefits Program instead of the TRICARE 
program.
    Ms. Lewis. Thank you for the opportunity to clarify that, 
Senator Wicker.
    In no way do we think that the current TRICARE Reserves 
Select Program should be eliminated. We think it's a very 
thoughtful and deliberate program that provides some excellent 
benefits to our Reserve component members.
    Many of those Reserve component members, though, live in 
areas away from the hub of where that support exists, around a 
military base, and, in those more isolated locations, often 
it's challenging to find a TRICARE-standard provider. Our 
recommendations are not in lieu of existing programs, but 
actually are proposing to offer an alternative that may provide 
a more comprehensive approach in areas where TRICARE access is 
more limited or challenging.
    The Federal Employee Health Benefit Program has a wide 
network, with a variety of plans throughout the country. We 
thought that might be a possible viable option for Reserve 
component family members.
    Also, our recommendations with regard to a stipend, we 
thought were important. We heard, from a number of focus groups 
that were populated by family members, Reserve component 
members, employers, and I was, quite frankly pleasantly 
surprised at the level of support that employers want to 
continue to provide to those families once those servicemembers 
are activated. They want to continue their private-sector plans 
and offer that continuity of care and minimize the disruption 
to those families. We thought it would be viable to explore a 
stipend, either to the servicemember or that employer, to 
assist in providing that continuity of care.
    But, I'm pleased to clarify, it was not at the exclusion of 
the existing excellent TRICARE Reserve Program.
    Senator Wicker. Thank you, ma'am.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Wicker.
    Let me go back to some of the discussion about 
coordination.
    I don't think that any lack of coordination is tolerable, 
in terms of responding to a domestic crisis. We don't have to 
resolve some of the basic issues that you raise, it seems to 
me, in order to have coordination when it comes to a response 
to a catastrophic event. I don't think the American people 
would tolerate, for 1 minute, response to any catastrophic 
event not being coordinated. I think they were appalled with 
Hurricane Katrina. We were. I remember some of the hearings, 
which Senator Collins, I believe, at the time, was chairing, 
relative to the response to Hurricane Katrina.
    In your report, you take up the issue of coordination, and 
you're critical, I believe, of the lack of coordination now, 
and then you also make these other recommendations.
    Can't we have a highly coordinated response plan right now, 
with the existing units, under the existing control, with the 
existing roles and missions that are assigned, both to Active 
Duty and Guard? Can't we have a coordination plan, which is 
really solid, right now?
    General Punaro. Mr. Chairman, we should have such a plan.
    Chairman Levin. Is there any reason we can't have it?
    General Punaro. In our judgment, no.
    Chairman Levin. We don't have to resolve all the 
fundamental issues and the directions that you're talking about 
for the Guard missions and Active Duty and their missions, and 
giving missions at home a higher priority for the Guard, and so 
forth--we don't have to resolve all of that in order to have 
coordination which is absolutely rock solid, would you agree 
with that?
    General Punaro. Yes, sir, Mr. Chairman.
    Chairman Levin. That coordination, you say, does not exist 
right now.
    General Punaro. They will tell you they certainly are 
doing----
    Chairman Levin. Not ``they,'' but what will you tell us?
    General Punaro. We do not find the--again, we're not 
looking back, we're looking at the gap and looking forward.
    Chairman Levin. I mean now.
    General Punaro. Right now, we do not have the level of 
coordination planning that we should have for these 
particularly high-end situations.
    Chairman Levin. All right. Do you agree with that, by the 
way, General?
    General Stump. Yes, sir.
    Chairman Levin. Okay.
    General Stump. There are 15 scenarios that have been 
proposed of disaster responses that can be out there, and we 
need to include not only the Guard and the Reserves, but the 
Active Duty and the Governors and the first responders, et 
cetera.
    Chairman Levin. All right.
    General Stump. That's not there now.
    Chairman Levin. I'll just tell you flat out, there's no 
excuse not to have that coordination now. I know that the 
Homeland Security and Governmental Affairs Committee will be 
looking into this--I believe, next week.
    Again, I very much appreciate your and Senator Lieberman's 
agreeing to this sequence of hearings. I hope you would pass 
that along to Senator Lieberman for me.
    That's going to be intolerable, period. We're going to have 
NORTHCOM in front of us in March, and we're going to raise this 
issue with them.
    Now let's talk about the future.
    General Punaro. Mr. Chairman, as part of our 
consultations--I won't say with who, but with a very senior 
official at NORTHCOM--I suggested to that official that they 
would be answering these very questions.
    Chairman Levin. All right.
    Now, we also have these other basic questions, which we 
very properly raise. We want Guard units up to speed in terms 
of equipment and training. We want the missions that they have, 
particularly here at home, to be given a higher priority. I 
think that's clear, that there's greater threats now to the 
Homeland, that the Guard are in a very unique position to 
respond to. We ought to give them all the capability and 
equipment that are needed to respond to those kind of 
catastrophes here at home, so that they can respond to a 
greater number, a greater level of catastrophes without calling 
in the Active Duty folks. I think that's right. That's clear. 
We ought to do it.
    Who's going to be in charge of those units is where you're 
going to get into all kinds of political problems. The Governor 
is in charge of our National Guard. The 82nd Airborne's called 
in, is the Governor going to be in charge of the 82nd Airborne, 
ultimately? I don't think anyone here is proposing that. On the 
other hand, that's the direction that you're going, in essence, 
if you're going to be putting a National Guard general in 
charge of Active-Duty Forces. Who's in control of that National 
Guard general, the Adjutant General? It's the Governor. So we 
have two alternatives here. You want a Governor in charge of 
the 82nd Airborne, that's one, or you want an Active Duty 
general, who's usually focused on other things, to be in charge 
of the domestic response? That's the question you raise. 
General Punaro, that was the one you raise.
    To me, if it's one or the other, I'd rather have the Active 
Duty general in charge of the National Guard response than I 
would to have a Governor commanding the 82nd Airborne, if 
that's my option. I don't think that is the only option. I 
think there may be a way, which you've discussed, which is to 
put some more National Guard folks up at NORTHCOM. But, still, 
you'd have to have a NORTHCOM commander who's in command of 
those. But, nonetheless, if there's a shortfall, in terms of 
that capability at NORTHCOM, which you allege there is a very 
serious shortfall, it seems to me that at least is a way of 
bringing in that capability, that experience, as you put it, to 
respond to disasters and local events, to bring that into 
NORTHCOM. At a minimum, it seems to me, that's what we should 
be talking about.
    So, in terms of the coordination, that's a short-term 
problem.
    General Punaro. Mr. Chairman, if I could I mention that----
    Chairman Levin. Please, yes.
    General Punaro. You've hit on a very interesting and very 
important concept that we think has merit. That's why I said it 
doesn't have to be either/or, the Commander of NORTHCOM could 
be a Guard or Reserve person. General Pace testified before our 
Commission that there are people in the Guard and Reserve today 
that are totally capable of being the four-star commander of 
NORTHCOM. The component commands could be commanded by 
Reserves. For example, Army North doesn't have to be commanded 
by a three-star Active-Duty general, it could be commanded by a 
three-star Guard general. The Marine Forces Reserve--Marine 
North--is commanded by a reservist, Lieutenant General Jack 
Bergman. So, when you start embedding the Guard and Reserve 
personnel in the NORTHCOM billets, either as the commanders or 
the planners or the J-1s or the J-3s, I think you're going to 
begin to see these seams close in, and I think you're going to 
see the kind of experience and coordination that all of us 
desire. That's another thing that needs to be worked on.
    Chairman Levin. I've just been handed a note that the 
commander of Joint Task Force Civil Support for NORTHCOM is a 
National Guard already.
    General Punaro. Super.
    Chairman Levin. So that is already taking place.
    Without getting into these impossible-to-resolve political 
disputes, where every Governor and every four-star Active-Duty 
general is going to just [finger snap] go like that, we don't 
need to wait for coordination, and there's ways of achieving 
the experience factor in ways which don't require us to do 
things which the public, I think, would not accept, nor should 
they.
    Now, I'm going to stop there, since everyone's nodding 
their head. I think I'm ahead, I think I'll stop with being 
ahead.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I just wanted to ask two final questions. Ms. Lewis, many 
of us--indeed, all of us--are very concerned about the stress 
that repeated and lengthy deployments have placed on our 
National Guard members, their families, and their employers. 
Many of the recommendations that you've made, as far as 
improving the retirement and healthcare and GI Bill benefits, 
speak to that concern. Obviously, all of us would like to see 
shorter deployments, which would help a great deal.
    The President, in his State of the Union Address, proposed 
some changes in educational benefits that would allow returning 
servicemembers, if they were not going to use the educational 
benefits, to transfer that benefit to their spouses or to their 
children. Did you, in the course of looking at the benefit 
package, take a look at that idea?
    Ms. Lewis. Senator Collins, we did make some 
recommendations with the timeframe with which a member could 
use their Montgomery GI Bill benefits upon their return. As far 
as transferability, we did not make any particular 
recommendation in that regard.
    There are two factors that go into some of these benefit 
programs. One is whether they're a recruiting tool, and one is 
whether they're a retention tool. Certainly, transferability 
would aid in retention, but there is some question about 
transferability impacting future recruiting if a benefit was 
already accrued through a parent rather than a young person 
themselves. So, we didn't make any particular recommendations 
in that regard. I know it's a sensitive issue, and I know 
there's a lot of appeal to allowing that transferability. But, 
we did make the extended access available for GI Bill benefits 
for the servicemember themselves, and then focused our other 
recommendations on longer-term tools that DOD could use for 
recruiting and retention, which would include a further 
evaluation of how to use educational benefits.
    Senator Collins. Thank you.
    The retirement changes, in particular, that your report 
recommends, are an issue that comes up time and time again when 
I talk to members of the Maine National Guard, so I appreciate 
having your recommendations in that area.
    Finally, General Punaro, I want to just clarify one last 
time for the record, part of your report that has created some 
confusion about what you see as the role of the National Guard 
for homeland security versus an Operational Force that is 
deployed in times of war.
    Your report states that the National Guard and Reserves 
should play the lead role in supporting DHS, other agencies, 
and States in response to major catastrophes. Then, in 
recommendation number 5, which is where I think the confusion 
has occurred, the language says that the Commission recommends 
shifting capabilities determined to be required for State-
controlled response to domestic emergencies to the National 
Guard, and then shifting capabilities currently resident in the 
National Guard that are not required for its State missions, 
but are required for its Federal missions, either to the 
Federal Reserve components or to the Active-Duty military. I 
know the chairman brought up this language, too. It is this 
that has created some confusion, where people think that you're 
saying, if you're transferring the capabilities for Federal 
missions to the Active Duty or the Reserves, that you're no 
longer envisioning the Guard being really part of the Total 
Force. That's not what you're saying, correct?
    General Punaro. That is absolutely correct. I think we had 
in there somewhere, ``as appropriate,'' but it's clear we did 
not word it as precisely as, probably, we should have. The 
concept really is--and this is why we say it would not reduce, 
but rather enhance their warfighting capability--our Active-
Duty military and the combatant commanders that basically 
control our operations overseas; they're generally forward 
deployed. The Active-Duty military is the first to go overseas, 
beginning with the ones that are already there, as well as the 
immediate reinforcements. The Guard and Reserve, as required, 
augments and reinforces the Active component overseas, so they 
have the lead. This is not a command-and-control issue, it's 
just a sequencing issue.
    For the Homeland, particularly those catastrophic 
situations, which, we would argue, are every bit as difficult 
as an overseas war, that the Guard and Reserve, because they 
are forward deployed in the continental United States in 5,000 
communities, they have the command and control, they have the 
situation awareness, they have the geography, as well as the 
cost benefit of being at a resting phase when something isn't 
going on--they should have the lead. That doesn't mean they're 
the only people, and that doesn't mean that's their exclusive 
mission; it's really a question of sequencing the forces.
    If they can't do it in a particular area, as the chairman 
has pointed out, and is NORTHCOM's contingency plans with Joint 
Task Force Civil Support, the Active would roll in very 
quickly, bring in the augment and reinforcing, and you'd have 
what you need. It really is more of a sequencing issue, and 
then playing to the operational skills and geography of the 
various forces.
    The Guard is going to be relied on increasingly, not just 
at home, but overseas. There's no way you can make up a gap 
that we have in what our requirements are with the Active 
component alone--right now, 600,000, mobilized for the wars, 
another 68 million man days--if you tried to replicate in the 
Active Force the operational capability we have in our Guard 
and Reserve today, and put it all on Active Duty, it would cost 
close to a $1 trillion. That money doesn't exist, and it 
wouldn't make sense for the taxpayers, anyway.
    So we appreciate the opportunity to get very firmly on the 
record that we absolutely do not recommend converting the 
National Guard into a domestic crisis response force only.
    However, as DHS develops these requirements, as your 
committee and Congress have required by law, and the 
requirements come to DOD, DOD then will validate them, and if 
they agree with them, they'll say, ``Okay, we have this 
requirement. Who are we going to have satisfy this requirement? 
Is it going to be the Guard? Is it going to be the Army 
Reserve? Is it going to be the Active Army?'' That's what we 
mean by rebalancing. DOD may decide that they need to 
rebalance, and they may say, ``We're going to put every bit of 
it in the Guard, without taking anything away that they have 
now, or we may decide that it should go to the Army Reserve. 
For example, mass decontamination, DOD may decide that maybe 
that ought to be in the Guard instead of the title 10 force.'' 
It's really more of a force-structure thing, not a roles and 
mission change.
    I know you've been very tolerant, but this is so important, 
and, as you said, it's created somewhat of a firestorm by 
misunderstanding.
    General Stump, did you want to add anything on that?
    General Stump. I can understand your confusion, I feel the 
same when I read it and I look at it, but I know what our 
deliberations were and if you go through the reports, you will 
find--nowhere in the report do we identify any force structure 
which should be moved from the Guard to the Active Duty, 
because it's only required for the overseas mission.
    My personal experience, in the State of Michigan I had 
10,000 Army National Guard people. I can tell you that I had 
every one of them on an assignment for a State mission.
    It was probably a poor choice of words, and I know it has 
caused some confusion, and we have had a lot of questions about 
that, because, immediately, they assume that, ``Okay, because 
you don't need tanks in your homeland security mission, 
therefore let's get rid of Brigade Combat Teams.'' Wrong, 
kimosabe. You need the Brigade Combat Teams for the State 
mission, because if you have a natural disaster and a 
catastrophe, you need the people, you need the Humvees, you 
need the communication equipment.
    Also, you can't back down from where we are now on the 
Operational Reserve for those forces that are in the National 
Guard. If you take those out now, the Active Duty which are 
under a lot of stress now, would be even in more stress if we 
took those things out.
    Unfortunately, I think it was a poor choice of words. 
That's not what we mean, and that's not what we recommend. I 
would defy somebody to define what those requirements are in 
the National Guard that you cannot use for the homeland 
mission.
    Senator Collins. Thank you.
    I think it was important to clarify that issue. I was 
confident that was not what you meant. But, when my staff was 
confident that was what you meant, I realized that there was 
considerable confusion over that. I think this hearing has 
clarified that.
    As I recall, at one point one-third of the soldiers in 
Iraq, at the high point, were National Guard or Reserves, so 
there's no way that you could take away that capability, 
dedicate it solely to homeland defense and domestic 
preparedness issues. You just couldn't do it, for the reasons 
that Chairman Punaro has said. But, I did want to clarify that 
for the record.
    I do think that our reliance--and, I would argue, over-
reliance--on the Guard and Reserves in Iraq and Afghanistan 
does require us to rethink the issues that your commission has 
spent 2\1/2\ years looking at. The benefit recommendations, the 
recruitment and retention issues, the competency versus time 
and service issues, are all extremely valuable to our 
deliberations.
    Finally, as Senator Levin has mentioned, Senator Lieberman 
and I will be following up on this in our committee, which 
Senator Levin is the senior member of, as well--in fact, he 
could be chairman if he wanted to, I believe--and we are going 
to continue to pursue this. I think the work we did, in looking 
at Hurricane Katrina, was very helpful in giving us a base 
understanding, and you've certainly built on it. Thank you for 
your work.
    Thank you, Mr. Chairman, for an excellent hearing.
    Chairman Levin. Thank you very much, Senator Collins.
    I think we have clarified a number of issues here this 
morning. There has to be a greater focus inside the Guard on 
the new threats. They have to be given the capability, the 
equipment, the training to address these new threats. They're 
of a higher level than they've ever been, domestically. We need 
to have this coordination in place between our Reserve Forces 
and our Active-Duty Forces. There's no reason why that 
coordination should not be there now. I'm sure NORTHCOM feels 
that it is there now; they've made statements to that effect. 
But, we will be able to press them when they come here in 
March.
    What we'll do is this, we will ask all of the various 
entities that have a interest in this matter to give us their 
comments on your Commission's report. We'll ask them for that 
by the middle of March. You go out of existence, April--what 
day?
    General Punaro. End of April, sir.
    Chairman Levin. End of April. If we got comments in by, 
let's say, March 15, would that give you enough time to respond 
with any comments?
    General Punaro. Yes, sir, Mr. Chairman.
    Chairman Levin. All right. I think that was Senator 
Warner's suggestion, that you have that opportunity.
    We will send out the report to the entities that would have 
an interest in it--surely, the agencies that have that kind of 
an interest, and a number of other entities and organizations--
and provided these responses to the committee--and then give 
you the opportunity, for 30 days or so, to comment on their 
comments.
    Again, our thanks to all of you for a very stimulating 
report. It's important that these issues be raised. You've 
raised them with intelligence and experience. They've stirred 
up a lot of reaction, which is your intent. We look forward to 
the reaction, because you've raised some important issues that 
need to be addressed.
    With that, we will stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Robert C. Byrd
                 responsibility for military equipment
    1. Senator Byrd. General Punaro, your report suggests that 
requirements for military equipment needed for emergency situations 
should be set by the Department of Homeland Security (DHS), rather than 
by the Guard itself. DHS's response to the Hurricane Katrina disaster 
did little to instill confidence in its operational capabilities. 
Furthermore, DHS, as your report points out, has little in-house 
military expertise. It seems to me that our military experts would be 
better positioned to know their own equipment requirements. Why should 
DHS be entrusted with this responsibility?
    General Punaro. By statute and executive order, DHS is the lead 
Federal agency for homeland security, including the planning for most 
forms of consequence management. While the Department of Defense (DOD) 
and its component elements, such as the National Guard Bureau (NGB) and 
U.S. Northern Command (NORTHCOM), play important roles in homeland 
security, it is the Secretary of Homeland Security, acting through the 
Federal Emergency Management Agency (FEMA), who is tasked with the 
responsibility of coordinating national preparedness efforts. A 
significant portion of this task lies in assessing preparedness for 
emergencies, identifying the gaps between Federal and State 
capabilities, and recommending programs and activities that could 
address such gaps. He or she must also determine which of several 
supporting Federal agencies, including DOD, should provide the 
capabilities required in emergency response plans. This responsibility 
is assigned to the Secretary of DHS in Homeland Security Presidential 
Directive 8 and the Homeland Security Act of 2002. Legislation in 2006 
transferred the Secretary's responsibility to the newly reconfigured 
FEMA, an agency placed under DHS in 2002.
    As a result of its centrality in national preparedness efforts, DHS 
is the Federal agency assigned the responsibility to assess from a 
national perspective the response capabilities present in Federal, 
State, and local government. Therefore, it is the agency with the 
expertise and the responsibility to inform DOD of which capabilities 
DOD will be expected to provide in response to a catastrophe. DHS is in 
the best position to generate civil support requirements, which DOD 
would then validate as appropriate.
    For these reasons, in our March 1, 2007, report to Congress, the 
Commission recommended (Recommendation #1) that ``The Secretary of 
Homeland Security, with the assistance of the Secretary of Defense, 
should generate civil support requirements, which DOD will be 
responsible for validating as appropriate.''
    As you suggest, a key factor in DHS's ability to generate civil 
support requirements is its familiarity with DOD and its capabilities. 
For this reason, the Commission also recommended in our March 1 report 
(Recommendation #2) that ``The DOD (including combatant commands and 
the NGB) and DHS Headquarters should exchange representatives to 
improve the knowledge, training, and exercising; and to assist the 
Secretary of Homeland Security with generating requirements for 
military civil support missions.'' The Commission recommended that the 
plan to exchange personnel be implemented ``within 180 days.'' In our 
final report (Appendix 8), the Commission concluded there had been 
``insufficient progress to date'' on implementing this recommendation.

                      line of command and control
    2. Senator Byrd. General Punaro, currently, when responding to a 
domestic emergency, the National Guard reports directly to the State 
Governor through its State adjutant general. If interoperability is 
achieved, do you envision a situation where the DOD assets report to 
the State adjutant general to maintain a clear line of command to the 
Governor?
    General Punaro. In our March 1 report and our final report, the 
Commission recommended that as part of their planning efforts, DOD and 
the States develop protocols to allow Governors to exercise operational 
control over Federal military forces under certain limited 
circumstances. They could do so by using a dual-hatted National Guard 
commander. The Commission believes that if enacted, this proposal would 
clarify chains of command during crises. Depending on the particular 
scenario, and the capabilities required to respond, the Commission does 
envision that Federal (title 10) assets could, via these protocols, 
report to the State adjutant general in a line of control to the 
Governor without compromising the President's authorities as Commander 
in Chief.

    3. Senator Byrd. General Punaro, do you envision that DOD, when 
called upon, will report to a State Governor independently or do you 
envision that DOD assets will report to the Commander in Chief?
    General Punaro. The Commission's proposal envisions Governors 
exercising operational control over Federal forces under certain, 
limited circumstances pursuant to agreements entered into ahead of time 
between particular States and DOD. The President would retain formal 
command of title 10 forces, with operational control being ``chopped'' 
to Governors for a crisis by agreement of the President. The Commission 
analogizes this relationship to foreign commanders exercising 
operational control over United States forces (discussed on page 111 of 
the final report). In that situation, the President retains formal 
command over United States forces, even though they may be subject to 
the operational control of a foreign commander under defined 
circumstances.

    4. Senator Byrd. General Punaro, in order to prepare for a 
situation where a State Governor might need to take control of DOD 
assets, a legal framework needs to be addressed by Congress. How would 
you recommend Congress proceed in establishing this framework?
    General Punaro. In the Joint Explanatory Statement to the National 
Defense Authorization Act (NDAA) for Fiscal Year 2008 (Public Law 110-
181), the Conferees tasked:

          ``the Secretary of Defense, as part of the response planning 
        required by this provision, to address the nature of command 
        relationships under which troops will operate during particular 
        contingencies and ensure, as recommended by the Commission on 
        the National Guard and Reserves, that necessary agreements are 
        entered into as soon as practicable.'' \1\
---------------------------------------------------------------------------
    \1\ Joint Explanatory Statement to Conference Report 110-477, on 
H.R. 1585, NDAA for Fiscal Year 2008, December 6, 2007, p. 326.

    While the Commission would encourage Congress to further support 
this recommendation, it believes that this recommendation can be 
---------------------------------------------------------------------------
implemented consistent with current law.

                   national guard and reserve support
    5. Senator Byrd. General Punaro, many of the family and medical 
support services necessary during periods of sustained and repeated 
operational deployments are available at the home bases of military 
personnel, but not available in the dispersed areas from which the 
National Guard and Reserve are drawn. Base realignment and closure 
exacerbates this problem since the numbers of active bases are 
decreasing and the locations of the remaining bases are more widely 
dispersed. Further, repeated sustained deployments result in greater 
strains on the ability of Guard and Reserve service men and women to 
keep their jobs and retain their homes--something that is not an issue 
for the Active Forces. What specific actions do you recommend Congress 
take in order to make sure that the National Guard and Reserve members, 
who are bearing a great deal of the burden of defending this country, 
are able to return to their civilian lives without suffering 
considerable economic injury?
    General Punaro. The Commission has made several recommendations to 
address these concerns in our final report. The Commission was 
particularly attuned to the unique problems that face Reserve component 
members and their families who live at a considerable distance from 
military installations and their on-base facilities, such as family 
service center and military treatment facilities. Our final report 
addresses problems that Reserve component families can encounter in 
obtaining up-to-date, user-friendly information about TRICARE and in 
finding a provider willing to take TRICARE. Our health care 
recommendations (#61-63) focus on enhancing continuity of care for 
families. We propose a major new initiative--a stipend for the employer 
to continue covering the reservist's family in the employer's health 
insurance plan during the period of activation--in Recommendation #63.
    Similarly, the Commission through hearings, roundtable discussions, 
and focus groups delved into the unique challenges facing ``suddenly 
military'' Reserve component families who often live at a considerable 
distance from military facilities, and Recommendations #64-67 seek to 
improve the level of resourcing and services available to family 
members.
    Employers are an extremely important part of the equation, and in 
Recommendations #68-72, the Commission made a number of proposals to 
enhance DOD's compact with employers. These include creating a more 
visible, higher-level role for the National Committee for Employer 
Support of the Guard and Reserve, establishing an employer advisory 
council to provide direct input to the Secretary of Defense, and 
improving the Small Business Administration's Military Reservist 
Economic Injury Disaster Loan program.
    In Recommendations #55-59, the Commission endorsed changes to the 
Uniformed Services Employment and Reemployment Rights Act of 1994 and 
the Servicemembers Civil Relief Act, which are designed to protect the 
employment and legal rights of Reserve component members both while 
they are activated and upon their return to civil society.
    In the area of military compensation and benefits, Recommendations 
#52-54 propose further legislative action in the areas of housing 
allowances, travel reimbursement, and educational benefits. The 
Commission urges that Congress take up and implement these 
recommendations as soon as practicable.

    6. Senator Byrd. General Punaro, many of the recommendations in the 
report affect Active-Duty Forces as well as the Reserve and National 
Guard components, such as increasing the number of joint duty billets, 
consolidating the Active and Reserve pay and personnel systems, 
simplifying the number and pay of various duty statuses, and 
consolidating Active and Reserve component retirement systems. Overall, 
many of the recommendations seem designed to make National Guard and 
Reserve Forces more like part-time Active Duty personnel than separate 
forces with their own missions and organizations. Do you have any 
concerns that these proposed reforms turn the ``Operational Reserve'' 
into operational forces, making it too easy to call them into full-time 
status?
    General Punaro. As discussed in our report, the National Guard and 
Reserves are already used in an operational manner. Because of a number 
of factors, current and long-term operational requirements necessitate 
heavy reliance on the Guard and Reserves for missions both at home and 
overseas. In 2006, for example, the service provided by reservists was 
the equivalent of maintaining almost 168,000 additional full-time 
troops. The Commission found that the National Guard and Reserves 
provide such capabilities while maintaining strategic depth in an 
extremely cost-effective manner. As discussed in Chapter I of the final 
report, we are very concerned that the current use of the Reserves is 
not sustainable unless significant changes are made to the underlying 
laws, rules, regulations, pay, personnel, and other systems related to 
the Reserve components. The recommendations of our report are intended 
to ensure that continued operational usage of the Reserve components is 
supported by a framework of laws, policies, and structures that will 
make such use sustainable for the long-term.

    7. Senator Byrd. General Punaro, during both the brief 1991 Persian 
Gulf War and the current sustained operations in Iraq and Afghanistan, 
DOD has been unable to carry out combat deployments without significant 
reliance on National Guard and Reserve components--despite the fact 
that our Active military force exceeds 1.3 million personnel and many 
traditionally military support roles are now being performed by 
civilian contractors. Your report notes that ``there is no reasonable 
alternative to the Nation's continuing increased reliance on its 
Reserve components for missions at home and abroad, as part of an 
operational force.'' While I realize that the focus of the Commission 
was to assess the role of the National Guard and Reserve, should we 
also revisit the issue of the capacity of the Active Forces as 
currently structured to perform their combat mission?
    General Punaro. Chapter I of our report notes the inevitability of 
continued reliance on our Reserve Forces. Increasing the capacity or 
restructuring the Active components to avoid such dependence on the 
Reserve components is unaffordable and likely not even feasible because 
of the demographics and recruiting challenges. The Commission believes 
that strong, ready, Operational Reserve components, fully integrated 
within their Services, are good for the national security and 
beneficial to our Nation for many reasons. Evaluating the structure and 
capabilities of the Armed Forces, both Active and Reserve, is a 
continuous process in the changing security environment our Nation 
faces. Our report recommends some rebalancing between components, 
mainly to align homeland capabilities with the units best situated to 
respond to domestic emergencies. We do not recommend rebalancing to 
reduce reliance on the Reserve Forces for overseas warfighting, which, 
as we have pointed out, would not be beneficial even if it were 
feasible.

                       ranking of recommendations
    8. Senator Byrd. General Punaro, the final report is an extremely 
complex offering of problems in search of creative solutions that the 
Commission suggests may take a multi-year effort. Did the Commission 
consider assigning some rank ordering of its recommendations to assist 
Congress in addressing the most critical issues first?
    General Punaro. The recommendations in our report are designed to 
create the structures of law and policy that will support the 
Operational Reserve use that by necessity has evolved and is in place 
today. Some of our recommendations may be implemented quite rapidly via 
policy changes at DOD or within the Services. The Commission would 
welcome the opportunity to provide the committee with our breakdown of 
those recommendations that can be implemented via the NDAA for Fiscal 
Year 2009, and our view of how best to create a legislative framework 
to address those that are more complex and would require years of study 
and thorough vetting before the statutory changes necessary to 
implement them can be made.

                  constitutionality of recommendations
    9. Senator Byrd. General Punaro, recommendation #26 states that 
``Congress should cease to manage DOD manpower levels by using 
authorized end strengths. DOD should budget for--and Congress should 
fund--personnel, Active and Reserve, based on requirements and needed 
capabilities.'' I would remind you that Article I, Section 8 of the 
Constitution gives Congress the authority to ``provide for organizing, 
arming, and disciplining the militia, and for governing such part of 
them as may be employed in the service of the United States. . .'' Why, 
if you have specific suggestions or recommendations for determining 
required end strengths, would the law not require you to make them to 
Congress?
    General Punaro. The Commission's Recommendation #26 is fully 
consistent with the Constitution. Recommendation #26 proposes that 
Congress no longer manage military manpower levels by end strength. DOD 
prepares the annual budget request for military personnel using 
average, rather than end, strength levels for each Service and 
component. Congress appropriates on the basis of average strength 
levels, making whatever adjustments to the budget request that it deems 
appropriate. Average strength reflects DOD's projected utilization of 
military manpower across the entire fiscal year. End strength, by 
contrast, captures a single, one-day point in time--September 30--which 
may or may not accurately reflect projected force levels and funding 
required across the entire fiscal year. In recommending the elimination 
of a constraint that can result in management inefficiencies, the 
Commission was in no way suggesting that Congress should reduce its 
role in overseeing force size and funding. In formulating this 
recommendation, the Commission kept in mind Congress's earlier action 
to prohibit DOD from using end strength as a basis for managing DOD 
civilian employees (10 U.S.C. Sec. 129); DOD civilians are to be 
managed instead by required workload and available funding. The 
Commission is simply recommending that Congress adopt a similar 
framework for military personnel, with levels determined by 
requirements and needed capabilities. Within this framework, Congress 
would continue to exercise full oversight over the military manpower 
budget and could require DOD to submit whatever additional budget 
justification materials that Congress deemed appropriate.

                       pay change recommendation
    10. Senator Byrd. General Punaro, in the early responses to the 
release of the report, there seems to be significant misunderstanding 
of the Commission's intent regarding changes to the pay of members of 
the Guard and Reserve resulting from reorganization of status. Could 
you clarify in simple terms exactly what impact your recommendation #22 
would have on a drilling Guard or Reserve member in terms of number of 
days worked and pay received?
    General Punaro. Please see the answer to question 11, below.

    11. Senator Byrd. General Punaro, can you contrast the two elements 
of your recommendation #22, specifically the number of days worked and 
pay received with the current pay system?
    General Punaro. For inactive duty training, Reserve component 
members perform two 4-hour drills per inactive duty training day. For 
each drill period, they receive 1 day's basic pay, which is the same as 
1 day's basic pay for an Active Duty servicemember of equal rank and 
years of service. For a drill weekend, a Reserve component member 
completes four drill periods over the 2-day period and therefore 
receives 4 days of basic pay for his or her grade and years of service. 
This drill pay structure dates back to 1920.
    Active Duty servicemembers, by contrast, receive 1 day's basic pay 
for each day worked, but they also receive a basic allowance for 
housing and basic allowance for subsistence, neither of which is 
available to Reserve component members for inactive duty training.
    As a part of duty status simplification, the Commission recommends 
reducing the number of duty status categories from 29 to 2: on (active) 
duty and off (active) duty. The current plethora of duty statuses is 
confusing and frustrating to both Reserve component members and their 
operational commanders. Under the simplified duty status structure put 
forth in Recommendation #22, inactive duty training would now be Active 
Duty and Reserve component members would receive a day's pay (i.e., 
basic pay, basic allowance for housing, and basic allowance for 
subsistence) just as do their Active Duty counterparts, rather than pay 
for two drills.
    The key to accomplishing this change is to ensure that individual 
servicemembers do not lose money in the changeover, since the amount 
currently paid for two drills per duty day is greater than a day's pay 
for an Active Duty member, even after the subsistence and housing 
allowances are added to the latter. The amount of the difference varies 
by rank, marital status, and years of service. This pay difference is 
one reason that previous attempts to simplify duty statuses have not 
succeeded. In a congressionally mandated 2004 report on Reserve 
compensation, DOD provided its analysis of a variable ``participation 
pay'' as a mechanism to prevent a Reserve component member from losing 
out-of-pocket income as a result of such a duty status simplification. 
The DOD report emphasized that changing to a new Active Duty status 
system should not cause the individual reservist to suffer a reduction 
in either the level of compensation received or retirement credit 
earned. The Commission shares the Department's concern, and 
Recommendation #22 states clearly that the change from drill pay to an 
Active Duty pay system should not reduce compensation for current 
servicemembers. After some period of ``save pay'' for the current 
force, Congress then may wish to replace an incentive or participation 
pay with other changes to the compensation system.
    Nothing in the Commission's final report can or should be read as 
suggesting that reservist drill pay should be cut. Rather, as the 
report makes clear, the Commission suggested alternative methods to 
simplify duty statuses while preserving reservists' compensation in 
this area. In addition, the Commission recommended a number of benefit 
enhancements, including to medical and family benefits, and increased 
reimbursement for travel and other expenses.

                           efficiency reports
    12. Senator Byrd. General Punaro, based on your report, 
Recommendation #2, embracing significant actions to ``empower'' the NGB 
and its Chief, do you believe your Recommendation #94 is consistent 
with your earlier efforts? Put more simply, who would write the 
efficiency reports of the directors of the Army and Air National Guard?
    General Punaro. The Commission believes that Recommendation #94 is 
fully consistent with our other recommendations, including those made 
in our March 1, 2007, report. In the 2008 NDAA, Congress increased to 
four stars the rank of the Chief of the NGB and increased the 
responsibilities of that position, making its holder an advisor to the 
Secretary of Defense on matters related to the National Guard forces in 
non-Federal status. Congress thus made certain that the CNGB would 
retain the ability to influence decisions regarding such matters and to 
ensure that the needs of States and their Governors are addressed in 
policies formulated by the Secretary of Defense. The CNGB also retains 
direct lines of communication to the Secretaries of the Army and Air 
Force and their Chiefs of Staff. At the same time, placing National 
Guard leaders on the staffs of the Service Chiefs of Staff would ensure 
that those same policies are carried out at a lower level in the 
Department and that the National Guard components are provided the 
resources they require to perform effectively in both their State and 
Federal roles. We believe this to be the best approach to solving the 
problems we identify; we emphasize, however, that what is most 
important is not how the problems are solved but that they are solved 
as soon as possible.
    Furthermore, the Commission's recommendation that the CNGB's 
position be elevated to a four-star rank was based not on the Chief's 
role as a supervisor of general officers but rather on careful analysis 
of the magnitude and complexity of the combined duties and 
responsibilities required to be performed, and the significance of the 
decisions made, by the Chief of the NGB. The proposal contained in 
Recommendation #94 does not relieve the Chief of his or her varied and 
significant duties; rather, it provides the Chief with two advisors who 
are embedded in the Active Army and Air Force organizations.
    If the Directors of the Army and Air National Guard were assigned 
to their Service Chiefs of Staff, they would continue to advise the 
Chief of the NGB as well. At the same time, the NGB would remain the 
liaison for non-Federal missions, particularly the homeland-related 
missions executed by the National Guard. By law, the director of the 
joint staff of the NGB is selected by the Secretary of Defense to 
perform ``such duties as may be prescribed by the Chief of the National 
Guard Bureau.'' Through this continued statutory relationship, the NGB 
joint staff director--and joint staff--would continue to assist the 
Chief of the Bureau in his or her role as an advisor to the Secretary 
of Defense through the Chairman of the Joint Chiefs of Staff on matters 
involving non-Federalized National Guard forces. Thus, the Chief's 
ability to execute the duties of the office would not be impeded.
    Neither Army (Army Regulation 623-3, ``Evaluation Reporting 
System,'' August 10, 2007) nor Air Force (Air Force Instruction 36-
2406, ``Officer and Enlisted Evaluation Systems,'' April 15, 2005) 
regulations require performance reports for officers above the grade of 
major general. The directors hold the rank of lieutenant general, and 
it is the Commission's understanding that they are not given 
performance evaluations.
    Of the 95 recommendations included in the Commission's final 
report, this was the only one not adopted unanimously. Commissioner 
Gordon Stump addressed the exact question posed above in ``Additional 
View,'' included as Appendix 1 in the report. He sees this 
recommendation as:

          ``inconsistent with the Commission's March recommendation 
        that the position of the Chief of the NGB be elevated from 
        lieutenant general to general. Such elevation to a higher grade 
        makes complete sense for a position whose holder has 
        responsibility for the integration of two service Reserve 
        components as well as a host of emerging joint functions 
        pertaining to homeland defense and support to civil authorities 
        in a new era of military conflict. It makes no sense, however, 
        for an officer who no longer supervises the directors for title 
        10 functions and has no budget authority or say on force 
        structure allocation for the Army or Air National Guard.''
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                  post-deployment health reassessments
    13. Senator Akaka. General Punaro, one of the recommendations of 
the Commission is for DOD to be more proactive and accurate in tracking 
the status of post-deployment health reassessments of returning Guard 
and Reserve personnel. This includes ensuring every member has 
completed the assessment within the statutory 90-180 days, and 
effective follow up by the Services especially with regard to mental 
health issues. Given the findings of the Commission that there were 
disparities among the Services as to the effectiveness of tracking and 
follow-up, and that the Office of Secretary of Defense has not provided 
guidance on this issue, what specific suggestions would you have for 
improvement in DOD oversight of this problem so that our returning 
military members are properly cared for?
    General Punaro. The Commission makes several recommendations in 
this regard. Congress may wish to (1) enact freestanding statutory 
language or amend 10 U.S.C. Sec. 1074f (medical tracking system for 
members deployed overseas) to require the Secretary of Defense to: (a) 
conduct a post-deployment medical reassessment within no more than 90-
180 days of deactivation; and (b) include a requirement to track this 
reassessment as part of the recordkeeping required by subsection 
1074f(c); (2) enact statutory language directing the Comptroller to 
report on the extent to which the Services have met the 90- to 180-day 
requirement and include any recommendations for ways to improve the 
process; and (3) enact statutory language requiring the Secretary of 
Defense to prescribe uniform guidance to the Services in determining 
required follow-up by providers on responses to mental health questions 
on the Post-Deployment Health Assessment and directing the Comptroller 
General to evaluate whether the Services are following the Secretary's 
guidance and to identify any areas that require further attention.
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson
                   governor control of federal forces
    14. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, could you outline your rationale for Recommendation #7, 
which suggests giving Governors operational control of Federal forces 
in their State when responding to a disaster or incident within that 
State?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. There is no 
established process whereby Governors can gain operational control over 
Federal military assets within a State to respond to emergencies. Under 
existing procedures, if a major crisis occurs in a State where both 
Federal and non-Federal (National Guard under State control) forces 
provide civil support, military assistance is coordinated in two ways. 
NORTHCOM controls the movement of title 10 Active and Reserve Forces 
into the State and maintains command and control over them through a 
joint task force. Simultaneously, States, often with the assistance of 
the NGB, coordinate the movement of National Guard Forces in title 32 
status; once they are in a State, on the basis of agreements between 
the States, they are commanded by the Governor as if they were National 
Guard Forces of that State. This dual coordination leads to two 
separate chains of command for military forces in the State. One chain 
of command leads from title 10 forces through NORTHCOM to the 
President, while another leads to the Governor. Although the Governor 
may request assistance from title 10 military forces within the State, 
he or she does not have the authority to direct them. The Commission 
believes that these two separate chains of command can cause confusion 
and undercut unity of effort.
    The guiding principle of emergency management doctrine in the 
United States is that problems should be solved at the lowest level 
possible. Therefore, unless their use would compromise national 
security, all military resources that may be needed to respond to a 
contingency--whether National Guard (in-State Active Duty of title 32) 
or Active Duty or Reserve (in title 10), and whether within the 
affected State or in another State--should be included in the State's 
emergency response planning. As part of that planning, Federal and 
State authorities should develop policies and procedures regarding the 
nature of the command relationship under which the troops will operate 
during particular contingencies. These agreements should be entered 
into before the crisis, rather than in an ad hoc manner while lives and 
property are at stake--as happened after Hurricane Katrina.
    This recommendation requires no changes to existing statutes. 
Current military doctrine explicitly allows members of the United 
States Armed Forces to serve under the operational control of foreign 
commanders, with the President retaining ultimate command over U.S. 
forces. If the command relationship with the President can be 
maintained while American troops are operating under the control of 
foreign commanders, we see no convincing reason why it cannot be 
maintained while troops are under the control of a State Governor 
acting through the adjutant general. Governors routinely command 
National Guard troops from another State in a disaster response. Again, 
if Governors can be trusted to command National Guard soldiers from 
their own State or from other States, as customarily occurs in disaster 
response, then they can be trusted to command Federal Active and 
Reserve component forces as well.
    The assignment of Active Duty personnel to title 32 National Guard 
commands is not novel. Federal law specifically authorizes that both 
enlisted members and commissioned officers may be detailed for duty 
with a State National Guard. In fact, title 10 officers detailed in 
this fashion may accept a commission in the National Guard. Federal 
forces under the control of a Governor would still be subject to the 
same restrictions placed on the title 10 military, such as Posse 
Comitatus law enforcement restrictions.
    We are not suggesting that it is necessary for Federal military 
forces to be involved in a response under all circumstances or for all 
disasters. However, when Federal military capabilities are needed to 
respond to an emergency, their involvement should not alter the 
fundamental approach that guides emergency management. The fact that a 
particular capability needed for the response resides in a Federal 
Active Duty or Reserve unit should not be an impediment to its use to 
preserve life or property. In most instances, such Federal military 
forces should operate under the direction of State officials.
    One way to effect such an operation is through the use of dual-
hatted commanders, who simultaneously hold ranks in the State National 
Guard and the Federal, title 10 military. They are therefore able to 
command both Federal and State forces simultaneously. The Commission 
finds that dual-hatting has been a useful tool in coordinating Federal 
and State civil support missions and, as discussed above, suggests that 
it be expanded for use in appropriate circumstances.
    However, dual-hatted command is not a panacea for coordinating 
Federal and State military capabilities in civil support activities. As 
long as there are two chains of command passing through that one 
commander--one from the President and one from the Governor--the 
potential for confusion and conflict exists. This reality makes it 
imperative that State and Federal authorities agree in advance about 
the full range of circumstances under which Federal forces would be 
subject to State command.
    Therefore, State and Federal officials should plan cooperatively 
for those situations in which Federal forces could be under the 
direction of a Governor. This planning requires resolving a number of 
issues, such as who pays for the use of Federal assets in a response 
and what the precise nature of the command relationship will be.
    Since the President exercises ultimate Federal command authority 
over Federal troops, title 10 forces cannot be formally turned over to 
a Governor in all respects. However, there are established command 
relationships that would allow the National Guard officer to 
``command'' title 10 troops with the consent of both the President and 
the Governor. If the President, or the President's designee, agrees to 
do this, an order would be issued placing the title 10 forces under the 
operational or tactical control of the Governor.
    In a temporary situation such as a disaster response, a military 
organization could be ``attached'' to another organization for 
``operational'' or ``tactical'' purposes, with ``administrative 
control,'' including disciplinary authority, being retained by the 
parent organization. Such divisions between operational, tactical, and 
administrative control are commonplace in the military operating 
environment. If a title 32 commander were exercising control over title 
10 forces, this division of authority would avoid having the title 32 
commander exercise disciplinary (Uniform Code of Military Justice) 
authority over his or her title 10 subordinates.

    15. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, you note in your report that DOD opposes the 
recommendation on giving Governors operational control of Federal 
forces in their State when responding to a disaster or incident within 
the State. Why does DOD oppose this recommendation?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. This is a 
question better addressed to the Department. We refer you to the news 
briefing given by Assistant Secretary of Defense for Reserve Affairs, 
Tom Hall, on May 16, 2007 (a transcript is available at 
www.defenselink.mil/transcripts/transcript.aspx?transcriptid=3962) for 
an explanation of DOD's opposition to the Commission's proposal. The 
Commission does not believe that the Department's position has merit.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                homeland missions versus combat missions
    16. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, in reviewing your recommendations, there is heavy 
emphasis on the homeland security mission. Accordingly, in your 
recommendations you suggest that the DOD should be directed by Congress 
through law to take homeland defense as their mission. In addition, 
your recommendations designate the National Guard as the primary 
homeland security force. Are you saying that the Guard's primary 
mission should be homeland security?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. No. The 
Commission believes that homeland defense and civil support should be a 
core competency of the National Guard and Reserves consistent with 
their required warfighting taskings and capabilities. However, the 
Commission also believes that unless and until Congress formally 
assigns to DOD responsibility for conducting civil support missions, 
DOD will not adequately plan, program, and budget for that 
responsibility. Similarly, unless and until Congress defines the role 
that the National Guard and Reserves should play in providing support 
to civil authorities responding to domestic crises, the Commission 
believes that DOD will not adequately plan, program, and budget for 
that role.

    17. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, how should DOD balance requirements for homeland 
operations and overseas deployments?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. The 
Commission believes that homeland operations and overseas combat are 
responsibilities that are equal in priority. DOD must be fully prepared 
to protect American lives and property in the Homeland and must (and 
can) do so without compromising its overseas missions. The Commission 
believes that DOD should balance these requirements through the 
programming and budgeting process called for in Sec. 1815 of the NDAA 
for Fiscal Year 2008, Chapter III.A (pp. 39-54) of the Commission's 
March 1 report, and Chapter II (pp. 89-112) of the final report.

    18. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, is it realistic for Guard units to train for both 
homeland and overseas missions?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. Yes. The 
United States military must be prepared to respond to threats and 
crises in the Homeland. As the National Guard and Reserves already have 
a tremendous amount of homeland-related capability residing in them and 
are located throughout the country, they are the best-positioned to 
lead this mission within DOD. They will be heavily relied on for use in 
homeland operations. This makes it essential that they are prepared to 
respond to domestic crises.

    19. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, do units need to focus exclusively on either homeland 
operations or overseas missions?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. The 
Commission anticipates that most units will remain deployable for 
either overseas or homeland missions, but anticipates that some 
specialized capabilities will be developed to focus exclusively on 
homeland-related missions. The Commission notes that there is precedent 
for such specialization in the Armed Forces. For example, the National 
Guard's Weapons of Mass Destruction Civil Support Teams (WMD-CSTs) are 
specialized units geared toward operations in the Homeland.

    20. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, if units should not be trained for both homeland and 
overseas missions, how should DOD determine how many Guard and Reserve 
Forces are needed for homeland defense verses civil support missions 
exclusively?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. The 
Commission believes that while some units probably will be focused 
exclusively on the Homeland, most DOD capabilities will be available 
for both homeland and overseas operations. The Commission believes that 
the homeland and overseas missions are of equal priority and they 
should compete for resources through the DOD programming and budgeting 
process, consistent with Sec. 1815 of the NDAA for Fiscal Year 2008, 
Chapter III.A (pp. 39-54) of the Commission's March 1 report, and 
Chapter II (pp. 89-112) of the final report.

                       northern command staffing
    21. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, in recommendation #4, which outlines your thoughts on 
Guard and Reserve staffing at NORTHCOM, you argue that there is a need 
for senior leadership at NORTHCOM to have Guard and Reserve experience. 
What do you consider a ``significant percentage'' of NORTHCOM's billets 
that should be Guard and Reserve?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. The 
Commission believes that a majority of NORTHCOM's billets, including 
those of its Service components, should be filled by leaders and staff 
with Reserve qualifications and credentials. This was the Commission's 
recommendation in our March 1, 2007, report to Congress, and it 
continues to be the Commission's recommendation. Servicemembers serving 
in these billets do not necessarily have to be Reserve component 
members, but they must have Reserve qualifications and credentials.

    22. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, why do you consider it necessary to have Guard and 
Reserve leadership at NORTHCOM?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. The 
Commission believes that NORTHCOM does not adequately consider and 
utilize all military components--Active and Reserve, including the 
National Guard--in planning, training, and exercising and in the 
conduct of military operations while in support of a Governor, in 
support of another lead Federal agency, or in the defense of America. 
The Commission believes that more must be done to integrate the Reserve 
components into NORTHCOM. Having more national guardsmen and reservists 
fill key leadership positions at NORTHCOM is an essential first step. 
NORTHCOM must incorporate personnel who have greater knowledge of 
National Guard and Reserve capabilities, strengths, and constraints and 
must assemble a cadre of experts on the intricacies of State and local 
government, law enforcement, and emergency response. Such knowledge 
currently resides in the National Guard and Reserves yet remains 
untapped and unintegrated, in disparate commands. A larger percentage 
of reservists on the staff and in key leadership positions would 
provide NORTHCOM with greater insight into the unique skills and 
strengths available in the Reserve Forces. Increasing the numbers of 
members of the National Guard and Reserves within the Service 
components of NORTHCOM would ensure that those preparing and 
coordinating homeland missions will consider the unique contributions 
of the Reserve component. In most disaster responses, NORTHCOM will be 
providing assistance to States and augmenting State resources, 
including National Guard Forces operating under the command of a State 
Governor. Therefore, it is critical that NORTHCOM personnel understand 
how they can add value to those efforts to save lives and property. In 
a minority of instances, in the most grave circumstances, NORTHCOM will 
be the combatant command for all forces, including regular military 
forces, title 10 Reserve Forces, and Federalized National Guard Forces, 
all operating under the command and control of the President. The 
Commission believes that the leadership of NORTHCOM must have Reserve 
qualifications and credentials in order to plan for these scenarios as 
well.

                                training
    23. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, one of your recommendations states that the Secretary of 
Defense should ensure that forces identified as rapid responders to 
domestic catastrophes are manned, trained, and equipped to the highest 
levels of readiness. Since all the mission operational requirements 
have not been defined, how do we determine how to properly train these 
critical forces?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. This 
recommendation applies both to present forces and those forces yet to 
be developed. DOD has several forces and force packages that have 
currently been tasked with being rapid responders to domestic crises, 
such as the WMD-CSTs, Chemical, Biological, Radiological/Nuclear, and 
Explosive (CBRNE) Enhanced Response Force Packages (CERFPs), and CBRNE 
Consequence Management Response Forces. In addition, the Commission 
anticipates the development of future units focused on domestic crisis 
response. The Commission believes both categories of forces should be 
manned, trained, and equipped to the highest levels of readiness.

                interagency and interforces cooperation
    24. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, what are your thoughts about the Air Force Reserve and 
National Guard performing ``in lieu of taskings'' for the Army, in 
order to meet mission requirements for the global war on terrorism, 
which falls outside the purview of both of their required missions?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. Our 
Commission did not specifically study these ``in lieu of taskings,'' 
but they are further evidence of the growing need to support National 
Guard and Reserve Forces for their employment in operational roles that 
were never envisioned when the current laws and policies that regulate 
the Reserves were established during the Cold War. They also spotlight 
the utility of maintaining structure in the Reserves that, in a cost-
effective manner, provides the depth and flexibility required to 
respond to unplanned requirements.

                                funding
    25. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, transforming the National Guard and Reserves into a 21st 
century operational force as you outline in the report will be very 
expensive. At a time when DOD is facing huge bills for the cost of 
resetting the force after Iraq and Afghanistan, and to recapitalize 
generally, how should DOD determine what priority to put on funding for 
the Reserve component in the face of so many other competing 
priorities?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. The 
Commission believes the Nation should avoid the kind of shortsighted 
policy decisions made after past conflicts that left the military ill-
prepared for the next conflict, and should instead focus on where the 
best value for the taxpayer can be achieved in an ever-tightening 
fiscal environment. Properly resourced, National Guard and Reserve 
personnel can, and should, constitute a larger percentage of the 
Nation's operational military manpower, and they can do so at a lower 
overall cost.
    As the Commission's analysis makes clear, no feasible alternative 
to a continued reliance on the Reserves exists. Indeed, the increasing 
cost of personnel, and the challenges of recruiting and retaining 
qualified individuals, will, we believe, inevitably lead to reductions 
in the size of the Active Force. This shrinking of the Active Force 
will necessarily be accompanied by increased reliance on Reserve Forces 
for operations, particularly for homeland missions, and by greater 
integration of the Reserves with the Active component.
    As is pointed out in the Commission's final report, there are 
significant cost advantages for the Reserves that should drive 
policymaking in coming years, when pressure on the forces from current 
conflicts will have abated. Even taking into account the additional 
funding required to implement the recommendations in our final report 
and transform the National Guard and Reserves into a 21st century 
operational force, the Commission believes that the National Guard and 
Reserves will remain a significant value for the Nation.

                                tasking
    26. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, what are your thoughts on the recommendation that places 
nearly all civil support capabilities within the National Guard, while 
moving wartime missions to the Federal military?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. Please see 
the response below to question #27.

    27. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, if enacted, how would the volunteer force address the 
recommendation that places nearly all civil support capabilities within 
the National Guard and wartime missions with the Federal military in 
order to remain sustainable and combat ready?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. The 
Commission does not recommend making the National Guard exclusively a 
civil support force, and would urge Congress to oppose such a proposal 
if it were offered. Instead, the Commission recommends that as part of 
the requirements generation process, DOD assess the capabilities 
present in the various components of the armed services, determine 
which best could be used to fulfill civil support requirements, and 
rebalance, as appropriate, among the components to meet those 
requirements. On the basis of the requirements generated, DOD should 
determine what, if any, capabilities should be shifted to the National 
Guard, to the Federal Reserve components, or to the Active component. 
The Commission did not offer an opinion on specific capabilities that 
should be shifted, because the requirements have not yet been 
determined. But the Commission did state clearly that any such 
rebalancing should not compromise the Reserve components' warfighting 
missions. The Commission wishes to reemphasize that we are not 
proposing what specific rebalancing should actually take place. Rather, 
we are recommending that once the civil support requirements are 
generated and validated, DOD should determine whether it would be 
beneficial to rebalance military capabilities among the components to 
make best use of scarce military resources in performing their overseas 
and domestic missions.

    28. Senator Ben Nelson. General Punaro, Mr. Ball, Ms. Lewis, and 
General Stump, how would the recommendation that places nearly all 
civil support capabilities within the National Guard and wartime 
missions with the Active military affect the operational tempo for the 
global war on terrorism and future conflicts?
    General Punaro, Mr. Ball, Ms. Lewis, and General Stump. Again, as 
discussed above, the Commission recommends only that the allocation of 
civil support capabilities among the various components be examined to 
determine whether they are organized in the most efficient manner. The 
recommendations in our March 1, 2007, report and those of our final 
report call for collaborative planning between DHS, DOD, and other 
Federal agencies and coordination with State emergency planners. Such 
plans would have to ensure that operational employment of Reserve 
Forces overseas and domestic plans for their use during emergencies do 
not conflict. The Commission has reviewed Army force generation plans, 
for example, that rely on Reserve component forces for Homeland 
response in year 5 of their 6-year operational cycle. Year 6 would be 
deployment overseas with no planned availability for the Homeland. We 
envision very little acceleration of operational tempo due to 
increasing reliance on Reserve component forces for civil support.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                guard and reserve reintegration program
    29. Senator Chambliss. Mr. Ball and Ms. Lewis, in the NDAA for 
Fiscal Year 2008 I worked with several other Senators to introduce and 
enact the Yellow Ribbon Reintegration Program which establishes a 
program to assist Guard and Reserve personnel, and their families, in 
readjusting after a deployment. The program addresses such issues as 
reemployment, health care, family transition, marriage counseling, and 
many other issues. Are you familiar with this program and, if so, what 
is your assessment of it?
    Mr. Ball and Ms. Lewis. The Commission is familiar with the Yellow 
Ribbon Reintegration Program and believes it offers valuable and timely 
assistance to both servicemembers and their families. In our final 
report, we recommend that a single standard of reintegration care 
should be provided to all those who serve on extended or multiple 
deployments regardless of their Service or Reserve component category 
(Individual Ready Reserve, Retired Reserve, or individual mobilization 
augmentee). The Commission strongly supports the current Yellow Ribbon 
Reintegration Program, and agreed with Congress's decision to expand 
the program to cover all members of the Reserve components and their 
families.

    30. Senator Chambliss. Mr. Ball and Ms. Lewis, how could we better 
shape it to serve our returning citizen soldiers?
    Mr. Ball and Ms. Lewis. In our final report, the Commission 
recommends that Congress provide the funding necessary to ensure the 
program's success. Congress may want to enact directive statutory 
language to the Secretary of Defense to issue policy guidance to the 
Services to include funding for the Yellow Ribbon Reintegration Program 
within their base budgets for the Reserve components.

                               retirement
    31. Senator Chambliss. Ms. Lewis, I have been active over the last 
several years on the issue of changing the Reserve retirement system, 
and I note that the Commission makes several recommendations in this 
area, specifically, that the Active and Reserve components have an 
integrated retirement system; that the age for receipt of a military 
retirement annuity should be 62 for servicemembers who serve at least 
10 years, 60 for members who serve at least 20 years, and 57 for 
members who serve for at least 30 years; and that members could receive 
their annuity at an earlier age, although it would be reduced. What, in 
your opinion, are the benefits of this construct for the Active and 
Reserve retirement system?
    Ms. Lewis. An integrated retirement system is one of the component 
parts of the Commission's vision of integrated total force management 
for a diverse, highly mobile, technologically savvy 21st century 
military force. Integrated total force management will facilitate a 
true continuum of service that permits differing levels of commitment 
across a military career. In the Commission's view, integrated total 
force management is a critical component of the continued operational 
use of the Reserve component.
    In our final report, the Commission makes specific recommendations 
for the changes to law and policy necessary to bring about a true 
continuum of service. Two critical enablers of an enhanced continuum of 
service are a reduction in the number of duty status categories and the 
implementation of an integrated pay and personnel system. Equally 
important, however, is an integrated personnel management system that, 
when fully mature at some point in the future, would include an 
integrated promotion system, integrated compensation system, and 
integrated retirement system.

    32. Senator Chambliss. Ms. Lewis, are you concerned that the 
retirement system, as you have proposed it, may provide a disincentive 
for people to join the Active Force in favor of joining the Guard or 
Reserve since they would receive their annuity at the same age 
irrespective of being in the Active or Reserve Force?
    Ms. Lewis. The Commission's retirement proposal would provide 
greater equity to the large proportion of enlisted personnel, Active 
and Reserve, who never qualify for a 20-year retirement annuity. This 
change should serve as an incentive for more servicemembers to remain 
through 10 years of service, rather than leaving after their initial 
term of enlistment or the end of their obligated service. The ultimate 
retirement annuity for an Active Duty member would still be 
substantially more than that of a reservist because of the 
significantly higher level of participation across a military career. 
Similarly, ``gate pays,'' matching Thrift Savings Plan contributions, 
or other upfront retention incentives would reflect the level of 
participation of the individual servicemember, which in most cases 
would be much greater for the Active component member.

                             mission areas
    33. Senator Chambliss. General Punaro and Mr. Ball, what is your 
reaction to Secretary Rumsfeld's idea of moving mission areas in the 
Guard and Reserve that are most often used, such as infantry, military 
police, and civil affairs, from the Reserve components into the Active 
Force?
    General Punaro and Mr. Ball. These rebalancing actions you mention 
were taken very early in response to the emerging requirements of the 
war in Iraq. Certain characteristics of some of these capabilities make 
them among the most logical mission sets for the Reserve components. 
For example, civil affairs and military police skills are highly 
correlated with civilian-gained experience. Continuing long-term 
requirements for these very capabilities have demonstrated the utility 
of maintaining structure and wartime capacity for them in the Reserves.

    34. Senator Chambliss. General Punaro and Mr. Ball, in your opinion 
would moving mission areas most often used in Guard and Reserve to 
Active Force provide a disincentive for people to join the Guard and 
Reserve because they would know that they would always be on the 
``second string'' and not a part of the truly important missions, or do 
you think this approach would enhance readiness by ensuring those in 
high demand career fields are always available?
    General Punaro and Mr. Ball. This approach to rebalancing is not 
desirable. Rebalancing to try to avoid reliance on the Reserve 
components would most likely be unfeasible as well as costly. The 
Commission believes that creating a truly integrated total force, and 
providing opportunities for service along a continuum from full-time to 
Operational Reserve to strategic, wartime-only roles, is the most 
suitable way to balance forces in the future. As stated in our report, 
operational employment of the Reserve components is appropriate, helps 
keep both Active and Reserve Forces strong, and benefits the Nation.

    [Whereupon, at 12:09 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
